APPENDIX A

USCA Case #20-5329

Document #1871725

Filed: 11/18/2020

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 20-5329

September Term, 2020
FILED ON: NOVEMBER 18, 2020

IN RE: IN THE MATTER OF THE FEDERAL BUREAU OF PRISONS' EXECUTION PROTOCOL CASES,
JAMES H. ROANE, JR., ET AL.,
APPELLANTS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-mc-00145)
Before: MILLETT, PILLARD and RAO, Circuit Judges
JUDGMENT
This cause came on to be heard on the record on appeal from the United States District Court
for the District of Columbia and was argued by counsel. Upon consideration thereof and of the
emergency motion for stay of execution, the opposition thereto, and the reply, it is, in accordance with
the opinion of the court filed herein this date,
ORDERED and ADJUDGED that the judgment of the District Court appealed from in this
cause be affirmed in part, be reversed in part, and the case be remanded for further proceedings. It is
FURTHER ORDERED that the emergency motion for stay of execution be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Date: November 18, 2020
Opinion for the court Per Curiam.
Opinion concurring in part and dissenting in part filed by Circuit Judge Pillard.
Opinion concurring in part, concurring in the judgment, and dissenting in part filed by Circuit Judge
Rao.

1a

APPENDIX B

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued November 16, 2020

Decided November 18, 2020

No. 20-5329
IN RE: IN THE MATTER OF THE FEDERAL BUREAU OF PRISONS'
EXECUTION PROTOCOL CASES,
JAMES H. ROANE , JR., ET AL.,
APPELLANTS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
APPELLEES

Appeal from the United States District Court
for the District of Columbia
(No. 1:19-mc-00145)

Alexander C. Drylewski argued the cause for appellants.
With him on the briefs were Jonathan L. Marcus, Shawn
Nolan, Jonathan C. Aminoff, Paul F. Enzinna, Ginger D.
Anders, Jonathan S. Meltzer, Brendan Gants, Amy Lentz,
Matthew Lawry, Gerald W. King, Jr., Jeffrey Lyn Ertel, and
Evan Miller.
Melissa N. Patterson, Attorney, U.S. Department of
Justice, argued the cause for the appellees. With her on the
brief were Jeffrey Bossert Clark, Acting Assistant Attorney

2a

Page 1 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

General, Sopan Joshi, Senior Counsel to the Assistant Attorney
General, and Amanda L. Mundell, Attorney.
Before: MILLETT , PILLARD and RAO, Circuit Judges.
Opinion for the Court filed PER CURIAM.
Opinion concurring in part and dissenting in part by
Circuit Judge PILLARD.
Opinion concurring in part, concurring in the judgment,
and dissenting in part filed by Circuit Judge RAO.
PER CURIAM: In July 2019, eight years after federal
executions were put on hold due to the government’s inability
to acquire one of the drugs for its then existing lethal injection
protocol, the Department of Justice announced a revised
protocol for execution by lethal injection using a single drug,
pentobarbital. Plaintiffs, thirteen federal death row inmates,
promptly raised statutory and constitutional challenges to the
government’s revised protocol. In November 2019, the district
court preliminarily enjoined the four then-scheduled
executions while it (and, in turn, we) considered a pair of
baseline legal challenges to the government’s lethal injection
protocol. When we held that the 2019 Protocol is exempt from
notice and comment requirements under the Administrative
Procedure Act (APA) and that the Federal Death Penalty Act
(FDPA) does not require the federal government to follow
execution procedures set forth in state execution protocols that
are less formal than state statutes and regulations, we vacated
those injunctions and remanded for the district court to
consider the balance of plaintiffs’ challenges. See In re
Federal Bureau of Prisons’ Execution Protocol Cases (In re
FBOP), 955 F.3d 106 (D.C. Cir. 2020).

3a

Page 2 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

During the pendency of the litigation on those remaining
claims, the government scheduled executions to take place
within days or weeks of one another through the summer and
fall. At the behest of plaintiffs with execution dates and
unresolved challenges, the district court issued a series of
injunctions barring the federal government from executing
inmates whose pending claims it held were likely to succeed.
Each of those injunctions was vacated by either this court or
the Supreme Court, and the government has since executed
seven inmates, six of whom were plaintiffs in this case at the
time of their execution. In September, the district court
resolved the plaintiffs’ remaining claims. On November 3,
2020, the district court denied the Plaintiffs’ motion to alter or
amend the judgment under Rule 59(e).
The Plaintiffs then sought expedited review in this court of
three of the district court’s rulings, and two plaintiffs with
upcoming execution dates moved for stays of execution
pending appeal. We affirm the district court’s grant of
summary judgment to the defendants based on plaintiffs’ new
challenges to the FDPA, but we reverse its dismissal of the
plaintiffs’ Eighth Amendment challenge for failure to state a
claim. We also hold that the district court should have ordered
the 2019 Protocol to be set aside to the extent that it permits the
use of unprescribed pentobarbital in a manner that violates the
FDCA. But we affirm the district court’s denial of a permanent
injunction to remedy the FDCA violation.
I.
A.
In 1988, Congress reinstated the federal death penalty
without specifying how executions were to be implemented.
Five years later, in 1993, the Attorney General issued
regulations to fill that gap. Those regulations provide that the

4a

Page 3 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

“method of execution” for a sentence of death is to be
“intravenous injection of a lethal substance or substances in a
quantity sufficient to cause death.” 28 C.F.R. § 26.3(a)(4). The
regulations include no details regarding the specific substances
to be used or how those substances are to be chosen or
administered. In 1994, Congress enacted the Federal Death
Penalty Act (FDPA), which states that federal executions are
to be implemented “in the manner prescribed by the law of the
State in which the sentence is imposed.” 18 U.S.C. § 3596(a).
The FDPA and the Attorney General’s regulations remain the
federal law governing executions by the United States. See
Manner of Federal Executions, 854 Fed. Reg. 47,324, 47,32526 (2020).
Between 2001 and 2003, the federal government carried
out its first three executions since the death penalty was
reinstated. See In re Federal Bureau of Prisons’ Execution
Protocol Cases (In re FBOP), 955 F.3d 106, 110 (D.C. Cir.
2020). The method of execution for each was lethal injection
using a combination of three substances—sodium thiopental,
pancuronium bromide, and potassium chloride. Id. In 2005,
three death row inmates filed suit in the District Court for the
District of Columbia alleging they were to be executed under a
protocol that violated the Constitution and the APA. See
Complaint at 30-36, Roane v. Gonzales, 05-cv-2337 (D.D.C.
Dec. 6, 2005); see also Amended Complaint at 28-32, Roane,
05-cv-2337 (July 10, 2006) The court granted motions by the
three original plaintiffs and several plaintiffs who intervened
for preliminary injunctions barring their executions. See, e.g.,
Order at 1, Roane, 05-cv-2337 (D.D.C. June 30, 2006); Minute
Order, Roane, 05-cv-2337 (D.D.C. Feb. 14, 2007); Order at 1,
Roane, 05-cv-2337 (D.D.C. Feb. 21, 2007). During the
litigation, the government produced a 50-page protocol, first
adopted in 2004, detailing the procedures for carrying out
executions, including admitting witnesses to the execution,

5a

Page 4 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

providing for the prisoner’s final meal, and permitting
statements, among many other things. In re FBOP, 955 F.3d
at 110. In 2008, the government produced an addendum to the
2004 Protocol specifying that the method of execution would
be by lethal injection using the same three-drug protocol the
government used in the executions between 2001 and 2003.
See In re FBOP, 955 F.3d at 110. That same year, the Supreme
Court rejected an Eighth Amendment challenge to Kentucky’s
use of the same three substances for execution by lethal
injection. See Baze v. Rees, 553 U.S. 35, 53-54 (2008). In
2011, however, the government announced it was unable to
procure sodium thiopental, one of the drugs required to carry
out an execution under its existing protocol. At that point, at
least two cases involving method-of-execution challenges were
pending in the district court and two more were filed shortly
thereafter. See Roane, 05-cv-2337; Robinson v. Mukasey, 05cv-2145 (D.D.C.); Bourgeois v. Dep’t of Justice, 12-cv-782
(D.D.C.); Fulks v. Dep’t of Justice, 13-cv-938 (D.D.C.). All
four were put on hold pending the government’s issuance of a
revised protocol.
On July 25, 2019, eight years after announcing the
unavailability of sodium thiopental, the Department of Justice
announced its revised protocol, referred to in this litigation as
the 2019 Protocol. A two-page addendum to the 2019 Protocol
makes pentobarbital, a barbiturate, the sole drug to be used in
federal executions. See In re FBOP, 955 F.3d at 110. On the
same day that it announced the 2019 Protocol, the government
also announced scheduled execution dates in December 2019
and January 2020 for five inmates on death row.
In response to the government’s notification of its revised
protocol, the district court scheduled a status conference in the
four pending cases for August 15 of last year and consolidated
the cases five days later. See Minute Order, Roane, 05-cv-2337

6a

Page 5 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

(Aug. 5, 2019). Because the execution date of one of the
plaintiffs before the court, Alfred Bourgeois, had been
scheduled for January 13, 2020, the district court asked the
government at the scheduling conference if it was willing to
stay Bourgeois’s execution pending the resolution of his case.
See Status Hr’g Tr. 6, supra. The government stated that it did
not intend to stay the execution date, so the district court
proceeded to set an expedited schedule, requiring an amended
complaint by the end of March. Id. at 19; see Fed. R. Civ. P.
30(b)(6). On March 18, the parties jointly requested that the
court extend by 60 days the deadline for plaintiffs’ amended
complaint because of the disruptions the COVID-19 outbreak
had caused in plaintiffs’ efforts to complete pre-amendment
discovery. The court granted that request the next day and set
a briefing schedule for dispositive motions extending from July
to December. See Minute Order, In re FBOP, No. 19-mc-145
(D.D.C. Mar. 18, 2020).
In the meantime, plaintiffs with execution dates in
December and January sought to enjoin their executions until
their pending claims could be resolved. Three of the inmates
with scheduled execution dates—Daniel Lee, Wesley Purkey,
and Dustin Honken—had intervened in the master case in the
months after the protocol was announced. Those three
plaintiffs and Bourgeois all moved for preliminary injunctions,
which the district court granted in November 2019. See
Memorandum Opinion, In re FBOP, No. 19-mc-145 (D.D.C.
Nov. 20, 2019), ECF No. 50. The court found that plaintiffs
had shown a likelihood of success on their claim that the 2019
Protocol exceeded the government’s statutory authority under
the FDPA but it did not reach any of the plaintiffs’ other claims.
Id. at 13, 15. Both this court and the Supreme Court denied the
government’s motion to stay the district court’s preliminary
injunction. See Order, In re FBOP, No. 19-5322 (D.C. Cir.
Dec. 2, 2019); Barr v. Roane, 140 S. Ct. 353 (2019) (mem.).

7a

Page 6 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

On April 6, 2020, in a divided opinion, this court vacated the
district court’s injunction and reversed its FDPA ruling on the
merits. See In re FBOP, 955 F.3d 106. We denied plaintiffs’
petition for rehearing en banc on May 15, and the Supreme
Court denied their petition for writ of certiorari on June 29. See
Bourgeois v. Barr, No. 19A1050, 2020 WL 3492763 (U.S.
June 29, 2020) (mem.).
On June 15, with the preliminary injunction on the FDPA
claim vacated, but prior to briefing on the merits of plaintiffs’
other claims, the government set new execution dates in July
and August for four of the plaintiffs in this case—Lee, Purkey,
Honken, and Keith Nelson. Four days later, those same
plaintiffs moved for a preliminary injunction. See Plaintiffs’
Motion for a Preliminary Injunction, In re FBOP, No. 19-mc145 (D.D.C. June 19, 2020), ECF No. 102. On July 13, the day
the first of these four plaintiffs, Lee, was scheduled to be
executed, the district court preliminary enjoined the
executions, concluding that plaintiffs were likely to succeed on
the merits of their Eighth Amendment challenge to the 2019
Protocol. See Memorandum and Opinion, In re FBOP, No. 19mc-145, 2020 WL 3960928 (D.D.C. July 13, 2020). Later that
day, this court denied the government’s motion for a stay of the
injunction, concluding it had not demonstrated a likelihood of
success on its claim that the district court abused its discretion.
See Order, No. 20-5199 (D.C. Cir. July 13, 2020). We ordered
that the appeal be expedited and set a briefing schedule with a
final deadline of July 24. In the early morning hours of July
14, however, the Supreme Court vacated the district court’s
preliminary injunction, holding that the plaintiffs had failed to
establish a likelihood of success on the merits of their Eighth
Amendment claim. Barr v. Lee, 140 S. Ct. 2590 (2020). The
government executed Lee that same day.

8a

Page 7 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

The second of the four plaintiffs with a scheduled
execution date, Purkey, was scheduled to be executed the next
day, July 15, and the third of the four plaintiffs, Honken, was
scheduled to be executed on July 17. Plaintiffs thus requested
on July 15 that the district court issue a preliminary injunction
on the remaining grounds they had asserted in their June 19
motion. See Plaintiffs’ Emergency Notice Requesting Ruling
on Pending Motion, In re FBOP, No. 19-mc-145 (D.D.C. July
15, 2020), ECF No. 144. On July 15, prior to Purkey’s
execution, the district court issued another preliminary
injunction, finding that plaintiffs were likely to succeed on the
merits of their claim that the 2019 Protocol violates the FDCA.
See Order, In re FBOP, No. 19-mc-145 (D.D.C. July 15, 2020),
ECF Nos. 145, 146. Late on July 15, this court denied the
government’s motion for a stay pending appeal, holding that
the government had not demonstrated a likelihood of success
on the merits of its claim that the 2019 Protocol comports with
the FDCA. See Order, In re FBOP, No. 20-5210 (D.C. Cir.
July 15, 2020). In the early morning hours of July 16, however,
the Supreme Court vacated the district court’s injunction
without addressing the merits of the FDCA claim or this court’s
order. See Barr v. Purkey, No. 20A10, 2020 WL 4006821
(U.S. July 16, 2020) (mem.). Purkey was executed later that
day. Honken was executed on July 17, after this court denied
his motion for a stay of execution pending appeal of the district
court’s denial of a preliminary injunction on several other
claims. See Order, In re FBOP, No. 19-mc-145 (D.D.C. July
16, 2020), ECF No. 166; In re FBOP, No. 5206 (D.C. Cir. July
17, 2020).
Alongside the litigation over the stays of the executions
that summer, proceedings on the merits continued. In
accordance with the district court’s briefing schedule, the
plaintiffs filed an amended complaint on June 1, and the
government filed its dispositive motions on July 31. But

9a

Page 8 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

Nelson—then the only plaintiff left with a scheduled execution
date (August 28)—filed an emergency motion to expedite a
trial on the Eighth Amendment claim (on July 31) and for
summary judgment on the FDCA claim (on August 4). The
district court then changed course from its prior briefing
schedule, which did not require plaintiffs to file any opposition
and cross motions until the end of September, and instead
required that by August 10 plaintiffs respond to the
government’s dispositive motions and the government respond
to Nelson’s emergency motion for summary judgment on the
FDCA claim. On August 15, the district court granted the
government’s motion to dismiss the Eighth Amendment claim
in light of the Supreme Court’s July 15 decision, Barr v. Lee,
vacating the preliminary injunction the district court had earlier
issued on the Eighth Amendment claim. Order, In re FBOP,
No. 19-mc-145 (D.D.C. Aug. 15, 2020), ECF No. 193.
On August 25, this court denied Nelson’s motion for a stay
of execution pending appeal of the district court’s dismissal,
concluding that the record before the court contained no
findings of fact that could distinguish Nelson’s request for
equitable relief from the request the Supreme Court rejected in
Lee. See Order, In re FBOP, No. 20-5210 (D.C. Cir. July 15,
2020). On August 27, a day before Nelson’s execution, the
district court granted summary judgment to Nelson on the
FDCA claim, enjoining the government from executing him.
See Memorandum Opinion, In re FBOP, No. 19-mc-145
(D.D.C. Aug. 27, 2020), ECF No. 213. Later that same day
this court granted the government’s motion to vacate the
district court’s injunction, noting the court failed to include
findings that irreparable injury would result from the FDCA
violation. See Order, In re FBOP, No. 20-5260 (D.C. Cir. Aug.
27, 2020). On August 28, the district court denied Nelson’s
motion to clarify or amend its prior order. The government
executed Nelson later that same day.

10a

Page 9 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

The district court’s August decision granting judgment on
the FDCA claim was limited to Nelson; on September 9 the
remaining plaintiffs moved for summary judgment on the same
ground. Included among the plaintiffs were Christopher
Andrew Vialva and William LeCroy, who the government had
announced on July 31 would be executed on September 22 and
24, respectively. In their September 9 motion, the plaintiffs
argued that violations of the FDCA would subject them to
irreparable harm, noting that the rush of litigation before
Nelson’s execution had prevented him from making the same
showing.
See Plaintiffs’ Motion for Partial Summary
Judgment and Permanent Injunction, In re FBOP, No. 19-mc145 (D.D.C. Sept. 9, 2020), ECF No. 236. The district court
held an evidentiary hearing on September 18 and 19 on the
FDCA claim.
On September 20, the district court issued an order
entering final judgment on the remaining claims in the case.
See Memorandum Opinion, In re FBOP, No. 19-mc-145
(D.D.C. Sept. 20, 2020), ECF No. 261. The court granted
summary judgment to the plaintiffs on the FDCA claim, as it
had to Holder in August, but denied a preliminary injunction,
holding that plaintiffs failed to establish irreparable harm. The
court ruled in favor of the government on all other claims,
including a claim that the 2019 Protocol violated the FDPA. It
also vacated preliminary injunctions that it had issued between
2005 and 2007, during challenges to the prior three-drug
protocol, that continued to bar the executions of several
plaintiffs in this case. LeCroy was executed on September 22
and Vialva was executed on September 24.
Four days later, on September 30, the government set
November 19 as the execution date for Orlando Hall, one of the
plaintiffs whose execution the court had previously enjoined.
On October 16, it set December 10 as the execution date for

11a

Page 10 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

Brandon Bernard. On November 4, the day after the district
court denied their motions to alter or amend its judgment on
their Eighth Amendment, FDCA, and FDPA claims, plaintiffs
filed this appeal. They moved to expedite briefing and oral
argument two days later, noting the upcoming executions of
Hall and Bernard. On November 10, Hall and Bernard filed an
emergency motion for stay of execution pending appeal. We
expedited briefing on both the merits appeal and the stay
motion and heard oral argument on November 16.
B.
The Bureau of Prisons developed its 2019 Protocol
through review of state practices and in consultation with
medical professionals. See Administrative Record at PDF 6, In
re FBOP, No. 19-mc-145 (D.D.C. Nov. 13, 2019), ECF No.
39-1. Like the federal government, at least 30 states previously
had lethal injection protocols in place that used three drugs:
sodium thiopental, “a fast-acting barbiturate sedative that
induces a deep, comalike unconsciousness when given in the
amounts used for lethal injection,” pancuronium bromide, “a
paralytic agent that inhibits all muscular-skeletal movements
and, by paralyzing the diaphragm, stops respiration,” and
potassium chloride, which “interferes with the electrical signals
that stimulate the contractions of the heart, inducing cardiac
arrest.” See Baze v. Rees, 553 U.S. 35, 44 (2008). When
sodium thiopental became unavailable, states began using
pentobarbital, another barbiturate, instead. See Glossip v.
Gross, 576 U.S. 863, 871 (2015).
Some states use
pentobarbital as part of a three-drug protocol, but others use it
as a single-drug protocol. Administrative Record at PDF 6.
The Bureau of Prisons also decided to use pentobarbital
after locating “a viable source” for the drug. Id. at PDF 9. It
elected a single-drug protocol because of the “complications

12a

Page 11 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

inherent in obtaining multiple drugs,” the superior “effien[cy]”
of acquiring and storing a single drug, and the “reduce[d] . . .
risk of errors” in administration of a single drug. Id. at PDF 7.
The protocol provides for three injections—two containing 2.5
grams of pentobarbital in 50 milliliters of diluent and the third
containing 60 milliliters of a saline flush. Id. at PDF 1075.
According to the Bureau, two medical experts whom it asked
to review its protocol concluded that it “would produce a
humane death.” Id. at PDF 8. The Supreme Court rejected an
as-applied challenge to Missouri’s one-drug pentobarbital
protocol last year. See Bucklew v. Precythe, 139 S. Ct. 1112
(2019). The Court held that the inmate at issue, who had a
medical condition he argued would prevent the drug from
working properly, failed to present a viable alternative to the
protocol, as required by its precedent. Id. at 1129-33; see also
id. at 1135-36 (Kavanaugh, J., concurring).
Plaintiffs in this case have presented evidence indicating
that use of pentobarbital in executions causes inmates to
experience “flash pulmonary edema,” a medical condition in
which fluid rapidly accumulates in the lungs, causing
respiratory distress and “sensations of drowning and
asphyxiation,” which in turn induce “extreme pain, terror and
panic” comparable to death by drowning. J.A. 346. Medical
experts cited by the plaintiffs have concluded based on autopsy
reports that it is very likely inmates will experience such pain
and distress before they are rendered insensate. Plaintiffs also
point to many autopsies revealing froth or foam trapped in the
airways, which they say demonstrates that edema began while
the deceased was still attempting to draw breath. J.A. 346-48.
And one of the plaintiffs’ experts found it is a “virtual medical
certainty that most, if not all, prisoners executed with a single
dose of pentobarbital . . . experienced ‘immediate, flash
pulmonary edema.’” J.A. 347.

13a

Page 12 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

Plaintiffs have bolstered their claims with witness reports
from executions, J.A. 348, including those of Lee, Honken, and
Purkey, J.A. 122, as well as the results of an autopsy of Purkey,
concluding that all suggest those plaintiffs experienced
symptoms of pulmonary edema. The government has not
contested that most individuals who are executed through the
lethal injection of pentobarbital experience flash pulmonary
edema but they have submitted competing expert testimony
suggesting that the condition occurs only after the inmate has
been rendered insensate. One of its experts has stated that
“[t]here is no way to determine based on autopsy findings how
quickly the pulmonary edema occurred.”
J.A. 121.
Allegations regarding flash pulmonary edema were not, we
note, before the Supreme Court in Bucklew.
II.
A.
The Plaintiffs challenge the district court’s dismissal
under Federal Rule of Civil Procedure 12(b)(6) of their Eighth
Amendment claims. Order at 5 n.1, In re FBOP, No. 19-mc145-TSC (D.D.C. Aug. 15, 2020), ECF No. 193; Order at 14–
15, In re FBOP, No. 19-mc-145-TSC (D.D.C. Sept. 20, 2020),
ECF No. 261. To survive a motion to dismiss under Rule
12(b)(6), the complaint must allege “sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on
its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). That
standard is met if the complaint’s factual allegations support a
“reasonable inference” that the defendant is liable for the
challenged conduct. Id. In evaluating the complaint, the court
must take as true all plausible factual allegations and
reasonable inferences drawn from them. Banneker Ventures,
LLC v. Graham, 798 F.3d 1119, 1129 (D.C. Cir. 2015).

14a

Page 13 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

The Eighth Amendment sets a “high bar” for challenges to
the government’s mode of implementing the death penalty.
Barr v. Lee, 140 S. Ct. 2590, 2591 (2020) (per curiam). So to
properly make out an Eighth Amendment claim that the
government’s chosen method of execution is “cruel and
unusual,” U.S. CONST. AMEND. VIII, plaintiffs first must allege
that the execution method is “sure or very likely to cause
serious illness and needless suffering,” and “give rise to
sufficiently imminent dangers.” Glossip v. Gross, 576 U.S.
863, 877 (2015) (formatting modified; quoting Baze v. Rees,
553 U.S. 35, 50 (2008) (opinion of Roberts, C.J.)).
Specifically, the complaint must allege either a “substantial
risk of serious harm” that is “objectively intolerable,” or a
“demonstrated risk of severe pain.” Id. at 877–878 (internal
quotation marks omitted).
In addition, the complaint must show that the risk of this
harm is “substantial when compared to the known and
available alternatives.” Glossip, 576 U.S. at 878 (quoting Baze,
553 U.S. at 61 (opinion of Roberts, C.J.)). The Supreme Court
has described this inquiry as comparative—it is necessary to
identify when pain caused by a method of execution is
“gratuitous” given other methods available to the government.
Bucklew v. Precythe, 139 S. Ct. 1112, 1126 (2019).
Finally, the complaint must “identify an alternative”
method that “is feasible, readily implemented, and in fact
significantly reduce[s] a substantial risk of severe pain.”
Glossip, 576 U.S. at 877 (internal quotation marks omitted)
(quoting Baze, 553 U.S. at 52 (opinion of Roberts, C.J.)). If
the complaint makes each of those showings, the government
cannot refuse to implement the plaintiffs’ suggested alternative
without a legitimate penological reason. Bucklew, 139 S. Ct.
at 1125.

15a

Page 14 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

Taking the factual allegations as true, the Plaintiffs’
amended complaint meets that strict test. The complaint and
incorporated declarations allege that, in the “vast majority, if
not all” executions using only pentobarbital, the large dosage
injected will cause flash pulmonary edema—the rapid
accumulation of fluid in the lungs. J.A. 345 ¶ 76, 347 ¶ 79.
More specifically, because of its high pH, pentobarbital is
corrosive. J.A. 345–346 ¶ 76. So when it makes physical
contact with the lungs, it dissolves natural barriers in the body,
causing bodily fluid to course into the airways. J.A. 346 ¶ 76.
As these fluids flood into the lungs, and as the individual
struggles to breathe, the edema creates a foam that fills and
blocks the airways. J.A. 346 ¶ 77. The body’s efforts to
dislodge the painful obstruction only compounds the
problem—the lungs’ effort to dislodge the foam merely causes
them to suck in even more fluid. J.A. 346 ¶ 77.
The complaint further alleges that the pulmonary edema
will occur “virtually instantaneously” upon administration of
the pentobarbital, J.A. 345 ¶ 76 (formatting modified), at a time
when the inmate is still “capable of feeling pain, terror, and
suffocation,” J.A. 347 ¶ 80. As a result, it is “extremely likely,”
to the point of “virtual medical certainty,” that “most, if not all,
prisoners will experience excruciating suffering, including
sensations of drowning and suffocation” during the lethal
injection process. J.A. 347 ¶ 80. That is so, the complaint
alleges, because barbiturates like pentobarbital “‘do not
guarantee lack of consciousness,” but instead can “produce[]
only unresponsiveness, not unconsciousness or lack of
awareness.” J.A. 345 ¶ 74. In that way, the lethal injection
procedure causes “extreme pain, terror and panic,” because
“[n]ot being able to breathe during drowning or asphyxiation is
one of the most powerful, excruciating feelings known” to
humans. J.A. 346 ¶ 78. While not necessary at the pleading
stage, the amended complaint plausibly substantiates its

16a

Page 15 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

allegations with the declarations of multiple expert witnesses
and eyewitness testimony from executions that employed the
pentobarbital-only execution method. See, e.g., J.A. 345–350,
360–361.
The complaint adds that this extreme suffering could
easily be avoided by providing the inmate a pre-pentobarbital
dose of a pain-relieving anesthetic drug, such as, for example,
fentanyl, which is alleged to be readily available to the
government. J.A. 360–361 ¶ 114. According to the complaint,
the Bureau of Prisons itself has acknowledged that many
companies manufacture fentanyl in the United States and could
provide the drug for executions. J.A. 361 ¶ 114(a). In fact,
Plaintiffs allege that the Bureau of Prisons has located a
lawfully licensed compounding pharmacy that is both “able
and willing” to compound fentanyl for the Bureau as needed.
J.A. 361 ¶ 114(a).
Equally importantly, the complaint does not invoke a
novel or “untried and untested” mode of execution. Bucklew,
139 S. Ct. at 1130 (internal citations omitted).
The
combination of drugs as part of lethal injection protocols has
been used by both states and the federal government, and is still
used in a number of jurisdictions. See, e.g., J.A. 384–388;
Glossip, 576 U.S. at 869. The two-drug protocol also fits
squarely within the plain text of the federal execution protocol,
which provides that the method of execution is the
“intravenous injection of a lethal substance or substances[.]”
28 C.F.R. § 26.3(a)(4). To be sure, Plaintiffs propose using
two drugs rather than the three drugs used in many capitalpunishment jurisdictions. But that change eases the logistics
of known protocols, and does so by adding a commonly used
and available pain reliever.

17a

Page 16 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

By pleading that the federal government’s execution
protocol involves a “virtual medical certainty” of severe and
torturous pain that is unnecessary to the death process and
could readily be avoided by administering a widely available
analgesic first, the Plaintiffs’ complaint properly and plausibly
states an Eighth Amendment claim. See Glossip, 576 U.S. at
877–878.
Whether Plaintiffs will ultimately be able to climb the
Eighth Amendment’s high constitutional mountain of proof is
not the question for today. See Bucklew, 139 S. Ct. at 1124
(noting that the Supreme Court “has yet to hold that a State’s
method of execution qualifies as cruel and unusual”). The only
issue before us it whether the Plaintiffs have plausibly alleged
the critical elements of a successful Eighth Amendment claim.
Plaintiffs’ complaint hurdles that bar.
B.
The district court’s dismissal of the complaint rested on
two critical legal errors.
First, the district court misread the Supreme Court’s per
curiam decision in Lee, 140 S. Ct. 2590, as holding that,
“absent particular medical circumstances, the use of
pentobarbital will withstand Eighth Amendment scrutiny, no
matter the evidence of excruciating pain.” Order at 5, Fed.
Bureau. of Prisons’ Execution Protocol Cases, No. 19-mc145-TSC (D.D.C. Aug. 15, 2020), ECF No. 193; see also Order
at 2, Fed. Bureau of Prisons’ Execution Protocol Cases, No.
19-mc-145-TSC (D.D.C. Nov. 3, 2020), ECF No. 305. The
district court, in other words, ruled that whatever pain is caused
by pulmonary edema arising from pentobarbital injections is a
type of pain that is categorically permissible under the Eighth
Amendment. The court added that, under its reading of Lee,
“no amount of new evidence will suffice to prove that the pain

18a

Page 17 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

pentobarbital causes reaches unconstitutional levels.” Order at
4, In re FBOP, No. 19-mc-145-TSC (D.D.C. Aug. 15, 2020),
ECF No. 193; Order at 14, In re FBOP, No. 19-mc-145-TSC
(D.D.C. Sept. 20, 2020), ECF No. 261.
Lee did not hold that the Eighth Amendment turns its back
on needless and extreme suffering as long as it is caused by
flash pulmonary edema. For starters, Lee involved an entirely
different legal question. The Supreme Court’s decision there
arose not out of a motion to dismiss, but Lee’s motion for a
preliminary injunction, which is “an extraordinary remedy that
may only be awarded upon a clear showing that plaintiffs are
entitled to such relief.” Winter v. Natural Res. Def. Council,
555 U.S. 7, 22 (2008). To obtain a preliminary injunction, Lee
had to show that he was “likely to succeed on the merits, that
he [was] likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tip[ped] in his
favor, and that an injunction [was] in the public interest.” Id.
at 20.
That is a decidedly far more searching inquiry than the
question of whether a complaint properly alleges a claim for
relief. There is nothing “extraordinary” about surviving a Rule
12(b)(6) motion to dismiss. Quite the opposite, the plaintiff
enjoys the benefit of having all plausible allegations and
reasonable inferences from those facts taken in favor of
sustaining the complaint. See Warth v. Seldin, 422 U.S. 490,
501 (1975); see Iqbal, 556 U.S. at 678. Nor must plaintiffs
show a likelihood of success at this stage. They simply must
show that their claim is plausible. Iqbal, 556 U.S. at 678.
That means that all we are deciding at this stage is whether
the complaint contains the necessary factual allegations to state
a legal claim for relief, and so to open the courthouse doors to
the Plaintiffs. That is a far distant inquiry from Lee’s request

19a

Page 18 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

that a court take the extraordinary step of affirmatively
proscribing a party’s behavior before adjudicating its rights.
Second, and relatedly, the court erred in concluding that
Lee forevermore categorically exempted the federal
government’s execution protocol from Eighth Amendment
scrutiny even if it were found to unnecessarily and
unreasonably inflict an “excruciating” death. Order at 5, Fed.
Bureau of Prisons’ Execution Protocol Cases, No. 19-mc-145TSC (D.D.C. Aug. 15, 2020), ECF No. 193. Indeed, the district
court went so far as to say that the Supreme Court in Lee “found
no viable Eighth Amendment challenge.” Order at 3, Fed.
Bureau of Prisons’ Execution Protocol Cases, No. 19-mc-145TSC (D.D.C. Nov. 3, 2020), ECF No. 305.
Not so. Nothing in the Supreme Court’s decision
purported to vastly overshoot the question of whether a stay of
execution should issue and entered a final ruling on the merits
of the case. Rather, all that the Supreme Court said in Lee was
that, under the demanding preliminary-injunction standard and
before any conclusive factual findings could be made in the
case, “competing expert testimony” over whether pulmonary
edema occurs before or after the inmate is rendered insensate
would not by itself support a “last-minute” stay of execution.
Lee, 140 S. Ct. at 2591. Nothing in that ruling addressed the
ability of a well-pleaded complaint to go forward for discovery
and fact finding in the normal course, and it certainly did not
sua sponte enter final judgment in the case. More to the point,
if the government’s pentobarbital protocol were constitutional
as a matter of law no matter what facts and science might show
and regardless of whether every element of an Eighth
Amendment violation were proven, there would have been no
need for the Court to even mention the government’s
competing evidence.

20a

Page 19 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

The government points to Baze, Glossip, and Bucklew as
establishing the constitutionality of its protocol as a matter of
law. But none of these cases involved the federal government’s
execution scheme see Baze, 553 U.S. at 40–41 (opinion of
Roberts, C.J.) (Kentucky death-penalty protocol); Glossip, 576
U.S. at 872–873 (Oklahoma death-penalty protocol), and
therefore those cases do not predetermine the outcome here.
Bucklew was an as-applied challenge to Missouri’s deathpenalty protocol arguing that the inmate’s unique medical
condition rendered the use of pentobarbital cruel and unusual
even in the absence of a viable alternative form of execution.
139 S. Ct. at 1121.
To be sure, those cases collectively mark out the difficult
task ahead for Plaintiffs on the merits. And the government is
correct (Br. 21) that, if all that Plaintiffs can produce at
summary judgment is a “scientific controvers[y]” between
credible experts battling between “marginally safer
alternative[s],” their claim is likely to fail on the merits. See
Baze, 553 U.S. at 51 (opinion of Roberts, C.J.). But not one of
those cases altered the rules governing a motion to dismiss and,
in fact, each one allowed the complaints to proceed past the
pleading stage. See Bucklew, 139 S. Ct. at 1129 (granting
summary judgment for the government after discovery);
Glossip, 576 U.S. at 874 (rejecting claim after discovery and
evidentiary hearing); Baze, 553 U.S. at 46 (opinion of Roberts,
C.J.) (rejecting claim after a “7-day bench trial”). Applying
settled law, we do the same.
Contrary to the district court’s suggestion, at this early
procedural stage of litigation, the Plaintiffs do not need to
prove entirely uniform scientific consensus or that every
execution carried out using pentobarbital in the past was
unconstitutional. See Order at 7, Fed. Bureau of Prisons’
Execution Protocol Cases, No. 19-mc-145-TSC (D.D.C. Nov.

21a

Page 20 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

3, 2020), ECF No. 305. Nor do they need to show a likelihood
of success on the merits. They only need to plausibly allege
that the government’s execution protocol will, without relevant
penological justification, impose a substantial risk of severe
pain and suffering that is needless given a readily available,
administrable, and known alternative. This complaint does
that. The Supreme Court has not said otherwise. The order of
dismissal is reversed.
C.
Plaintiffs Hall and Bernard also request that their stay be
granted on the grounds that they are likely to succeed on the
merits of their Eighth Amendment claim. Plaintiffs argue that
the holding in Lee was limited only to last-minute stays of
execution. This Court declined to enjoin a previous execution
based on the exact same Eighth Amendment claim Plaintiffs
put forward here. Order, In the Matter of the Fed. Bureau of
Prisons’ Execution Protocol Case, No. 20-5252 (D.C. Cir.
Aug. 25, 2020). Because Plaintiffs are unable to distinguish
that precedent, their request for a stay of execution based on
the Eighth Amendment claim is denied.
III.
A.
The district court granted the Plaintiffs partial summary
judgment on their claim that the government’s execution
protocol is contrary to law in violation of the Administrative
Procedure Act to the extent that it allows the dispensing and
injection of pentobarbital without the prescription required by
the FDCA, 21 U.S.C. § 353(b)(1)(B); see also Memorandum
Opinion at 32-33, In re FBOP, No. 19-mc-145 (D.D.C. Sept.
20, 2020), ECF No. 261; Memorandum Opinion at 6-10, In re
FBOP, No. 19-mc-145 (D.D.C. Aug. 27, 2020), ECF No. 213.

22a

Page 21 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

At the same time, the district court denied Plaintiffs’ motion to
enjoin their executions pending the government’s compliance
with the FDCA on the ground that they had not shown a
likelihood of suffering irreparable harm due to the absence of
a prescription. On appeal, the Plaintiffs argue that the court
erred in failing both to set aside the Protocol and to enjoin the
government from conducting plaintiffs’ executions without
first complying with the FDCA. The government, for its part,
argues that the FDCA does not apply to the dispensing and
administration of drugs for lethal injection and that the
Plaintiffs lack a cause of action to enforce the FDCA. We agree
that the district court should have ordered the protocol set aside
only to the extent that it permits the dispensing and
administration of pentobarbital without a prescription. But we
deny the Plaintiffs’ request for an injunction and the
government’s arguments, without having filed a cross-appeal,
that the district court’s FDCA holding should be reversed.
There is no dispute that pentobarbital is a drug regulated
under the FDCA. See 21 U.S.C. § 321(g)(1). Nor is there any
dispute that pentobarbital is the type of drug that the FDCA
requires to be dispensed only through a prescription issued by
a licensed medical professional. 21 U.S.C. § 353(b)(1)(B); see
21 C.F.R. Part 1306.1 There likewise is no question that
prisoners are generally entitled to the protections of the
FDCA’s prescription requirement. See 21 C.F.R. § 1301.23
(exempting Bureau of Prisons officials from registration
requirement, while recognizing their obligations to comply

1

A number of state laws protect their medical professionals
who write prescriptions for FDCA-covered drugs to be used as part
of an execution protocol. See, e.g., GA. CODE ANN. § 42-5-36(d)(2);
TENN. CODE ANN. § 10-7-504(h)(1); TEX. CRIM. PRO. CODE
§ 43.14(b).

23a

Page 22 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

with regulations governing the issuance and filling of
prescriptions under 21 C.F.R. Part 1306).
The government nevertheless argues that when
pentobarbital is dispensed and administered to a prisoner as
part of a lethal injection, the FDCA falls away, invoking the
Supreme Court’s decision in Gonzales v. Oregon, 546 U.S. 243
(2006), and FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120, 133 (2000). The Supreme Court has never resolved
“the thorny question of the FDA’s jurisdiction” over the drugs
used in lethal injections. Heckler v. Chaney, 470 U.S. 821, 828
(1985). But binding precedent in this circuit has. See Cook v.
FDA, 733 F.3d 1 (D.C. Cir. 2013) (applying the FDCA’s
regulation of drug imports to a lethal injection drug); Chaney
v. Heckler, 718 F.2d 1174, 1179-1182 (D.C. Cir. 1983), rev’d
on other grounds, 470 U.S. 821 (1985); Beaty v. FDA, 853 F.
Supp. 2d 30, 42-43 (D.D.C. 2012) (holding that the Food and
Drug Administration’s failure to apply the FDCA to lethal
injection drugs “undermined the purpose of the [statute] and
acted in a manner contrary to the public health,” with the
consequence that “prisoners on death row have an unnecessary
risk that they will not be anesthetized properly prior to
execution”), aff’d in relevant part, 733 F.3d 1 (D.C. Cir. 2013).
That precedent binds this panel. See LaShawn A. v. Barry, 87
F.3d 1389, 1395 (D.C. Cir. 1996) (en banc).
The government also argues that the FDCA does not
provide the inmates a right of action. That may well be true.
But the Plaintiffs have sued under the APA, which entitles any
person “suffering legal wrong because of agency action” to
judicial review. 5 U.S.C. § 702. And binding circuit precedent
recognizes that the APA provides a cause of action to review
agency action in violation of the FDCA. See Cook, 733 F.3d
at 10-11; Purepac Pharm. Co. v. Thompson, 354 F.3d 877,
884–885 (D.C. Cir. 2004) (quoting Purepac Pharm. Co. v.

24a

Page 23 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

Thompson, 238 F. Supp. 2d 191, 212 (D.D.C. 2002)). The
government also argues that 21 U.S.C. § 337 allows only the
government to bring an enforcement proceeding. An APA suit
to review agency action unlawfully taken against an individual
is not a civil enforcement action, and that provision does not
provide the type of comprehensive review scheme for those
adversely affected by agency action that would displace the
APA. See Cook, 733 F.3d at 10-11. See generally GuerreroLasprilla v. Barr, 140 S. Ct. 1062, 1069 (2020) (“Consider first
a familiar principle of statutory construction: the presumption
favoring judicial review of administrative action.”) (citation
and internal quotation marks omitted).
The Bureau of Prisons does not dispute that it fails to
obtain prescriptions for the pentobarbital used in executions,
nor does it deny that it does not intend to obtain prescriptions
for the upcoming executions. Because, under binding circuit
precedent, the FDCA applies when already-covered drugs like
pentobarbital are used for lethal injections, the execution
protocol as administered by the Federal Bureau of Prisons is
“not in accordance with law” to the extent that it allows the
dispensation and administration of pentobarbital without a
prescription and must be “set aside” in that respect. 5 U.S.C. §
706(2).
B.
The district court, however, was correct to deny the entry
of a permanent injunction. Success on an APA claim does not
automatically entitle the prevailing party to a permanent
injunction. Instead, the party must demonstrate that (i) “it has
suffered an irreparable injury,” (ii) “remedies available at law
* * * are inadequate to compensate for that injury,” (iii) the
balance of hardships weighs in favor of an injunction, and (iv)
“the public interest would not be disserved by a permanent

25a

Page 24 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

injunction.” Monsanto Co. v. Geertson Seed Farms, 561 U.S.
139, 156-157 (2010) (quoting eBay Inc. v. MercExchange,
L.L.C., 547 U.S. 388, 391 (2006)). To obtain an injunction,
then, the prevailing party must demonstrate that it actually “has
suffered,” id., or is “likely to suffer irreparable harm,” Winter
v. Natural Resources Defense Council, Inc., 555 U.S. 7, 20
(2008). The district court specifically found, however, that
“the evidence in the record does not support Plaintiffs’
contention that they are likely to suffer flash pulmonary edema
while still conscious,” Order at 39, In re FBOP, 1:19-mc-145TSC (D.D.C. Sept. 20, 2020), ECF No. 261. The Plaintiffs
have not identified before the district court or this court any
other type of irreparable harm that would likely be suffered due
to the unprescribed use of pentobarbital.
IV.
We hold that the district court did not err in granting
summary judgment for the government on Plaintiffs’ Federal
Death Penalty Act (“FDPA”) claim. 2 Plaintiffs had pointed to
several alleged discrepancies between the 2019 Protocol and
state statutes dictating different methods of execution or
aspects of the execution process. Memorandum Opinion at 2728, In re FBOP, 19-mc-145 (D.D.C. Sept. 20, 2020). The
district court concluded that there was no conflict in this case,
2

The government maintains that this court lacks jurisdiction to
review the district court’s order granting summary judgment because
the district court had not, at the time of the notice of appeal, entered
final judgment on its FDPA ruling. The district court has since
entered partial final judgment on Plaintiffs’ FDPA claim. Order, In
re FBOP, No. 19-mc-145-TSC (D.D.C. Nov. 16, 2020), ECF No.
315. A Rule 54(b) judgment rendered after notice of appeal is filed
is jurisdictionally permissible under our precedents. See, e.g., Outlaw
v. Airtech Air Conditioning & Heating Inc., 412 F.3d 156 (D.C. Cir.
2005).

26a

Page 25 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

either because the government had committed to complying
with the state statutes at issue or because no plaintiff had
requested to be executed in accordance with them. Id. at 3031. Upon a motion for reconsideration, the district court
affirmed that decision, pointing out that Hall’s request to be
executed after 6 p.m. in accordance with Texas law had been
granted so “Plaintiffs [had] failed to identify a statutory
violation.” Order at 9, In re FBOP, 19-mc-145 (D.D.C. Nov.
11, 2020). We agree.
In this expedited process, we are particularly mindful to
decide no more than what is necessary to resolve the appeal.
The government here argues that the district court erred in
concluding that the Texas time-of-day provision is
incorporated under the FDPA because this provision is not a
“procedure[] that effectuate[s] the death.” Appellee Br. 48
(quoting In re FBOP, 955 F.3d 106, 151 (D.C. Cir. 2020)
(Tatel, J., dissenting)). As we agree with the district court that
there is no live controversy, we find it unnecessary here to
engage in a line-drawing exercise about whether a statute
setting the time of execution is a procedure that implements
“the sentence in the manner prescribed by the law of the State
in which the sentence is imposed.” 18 U.S.C. § 3596(a).
Plaintiffs are correct that non-binding statements by a
defendant are generally insufficient to moot an otherwise active
controversy. See United States v. W. T. Grant Co., 345 U.S.
629, 633 (1953) (“Such a profession does not suffice to make
a case moot although it is one of the factors to be considered in
determining the appropriateness of granting an injunction
against the now-discontinued acts.”). But here we have not
only a governmental agreement to comply, but also the absence
of any concretely aggrieved plaintiff. Nonetheless, the
government has affirmed it will comply with the Texas statute
at issue and so Hall’s request to be executed after 6 p.m. has

27a

Page 26 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

been granted. J.A. 135. It does not appear that Bernard has
made the same request, but the government has indicated it will
consider the request if made. In a case where no plaintiff has
asserted a present denial of a desired state procedure, the mere
possibility that the government may not comply with state
procedures, without more, is insufficient to establish a statutory
violation of the FDPA. Cf. United States v. Mitchell, 971 F.3d
993, 999 (9th Cir. 2020) (“It is not enough to show a ‘mere
possibility’ that the Bureau of Prisons might use protocols
inconsistent with [state] procedures.” (citation omitted)).
*

*

*

For the foregoing reasons, the judgment of the district
court is affirmed in part, reversed in part, and remanded for
further proceedings consistent with this opinion.
So ordered.

28a

Page 27 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

PILLARD , Circuit Judge, concurring in part and dissenting
in part: The court correctly holds that, because the 2019
Protocol calls for the use of pentobarbital unaccompanied by
an FDCA-mandated prescription, it must be set aside as
contrary to law under the APA. That conclusion alone requires
a stay of the pending executions until the government complies.
It is the government’s prerogative to execute the plaintiffs by a
method of its choosing. But if it elects a method subject to
statutory requirements, the government must then abide by
those requirements. The government could choose to execute
plaintiffs by firing squad, for instance, assuming the method
remained permissible under the Eighth Amendment. But if a
federal statute required that members of a firing squad first be
certified marksmen, the government could not execute a death
row inmate until it ensured that the members of its firing squad
were so certified.
Even if equitable relief is not necessary to pause the
upcoming executions, however, it is my view that the district
court also erred in denying plaintiffs an injunction preventing
defendants from continuing to violate the FDCA. The district
court denied the injunction for want of irreparable harm, and
my colleagues affirm. Because I believe that error is of
continued importance, I dissent from Part III.B of the opinion.
The FDCA is protective legislation. See POM Wonderful
LLC v. Coca-Cola Co., 573 U.S. 102, 115 (“[T]he FDCA
protects public health and safety.”). Its statutory safeguards
exist to ensure that drugs are correctly administered and their
potential adverse effects minimized, in light of current medical
knowledge and the circumstances of the individual. See Brown
& Williamson, 529 U.S. at 134 (noting FDA’s mission includes
“protect[ing] the public health by ensuring that . . . drugs are
safe and effective” (citation omitted)). Its applicability does
not depend on specific vulnerabilities of the recipients of
controlled substances. Rather, it categorically imposes safety
procedures to mitigate risk of bodily harm from the

29a

Page 28 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

administration of powerful medications with complex
characteristics. Included among the statute’s protections is its
requirement that some drugs be dispensed only with a
prescription from a medical professional. The government’s
decision to ignore such statutory protections subjects those
affected to substantial and unnecessary risks of bodily injury,
illness, and suffering. Unlike commercial harms, which are
readily remedied by damages, harms to the body have long
been treated as irreparable. Set aside for a moment the fact that
the Plaintiffs here are on death row and that the medication at
issue is intended to be used in lethal injections. A plan by the
government to inject anyone with therapeutic, non-lethal drugs
disbursed and administered in violation of the FDCA would
pose precisely the type of health risks that the FDCA is
intended to prevent. The fact that the government here
proposes to engage in this conduct in the context of executions
does not change the calculus—there remains the irreparable
harm that is inherent in the administration of barbiturates
without medical guidance. Certain risks against which the
FDCA’s requirements would ordinarily shield, like those to
future health, are not relevant once an inmate is executed. But
risks of potential physical degradation and a painful and
prolonged dying process could be minimized were the
government to follow the FDCA’s mandates.
The district court did not question the type of harm in this
case; after all, the Plaintiffs painted quite a clear picture of the
damage flash pulmonary edema can do to an inmate during
execution, and presented expert evidence that that damage is
done while an inmate is still sensate. What the district court
questioned was the likelihood of that harm. At one point in the
court’s order denying Plaintiffs their injunction, it faulted them
for failing to show “that they will suffer irreparable injury,”
Order at 35, In re FBOP, 19-mc-145 (D.D.C. Sept. 20, 2020)
(quoting Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139,

30a

Page 29 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

162 (2010)). Later it suggested the problem was that they had
not shown the harm was sufficient likely. But “[i]n the context
of safety regulations, risk is itself the harm prohibited by law.
Exposure to that harm thus is irreparable injury.” Nat’l Ass’n
of Farmworkers Orgs. v. Marshall, 628 F.2d 604, 614 & n. 39
(D.C. Cir. 1980). Consider an official agency policy of sending
truck drivers out onto the roads without seatbelts, or of serving
meats to employees stored at a temperature below what federal
regulations require. In either of these cases the agency would
be subject to an injunction without a further evidentiary
showing of how likely it was that the drivers or diners were to
be injured. Where a legal mandate protecting bodily health and
safety is concerned, the law itself reflects the regulatory or
legislative judgment that the driver and the diner are likely to
suffer harm if that mandate is ignored.
I thus disagree that a certain showing of any one specific
risk is required before a court can enjoin the government from
continuing to disregarding health- and safety-related mandates.
But assuming the Plaintiffs did have to show that the risks they
expect to face from the government’s refusal to comply with
the FDCA, the record suggests the district court may
erroneously equated the showing of irreparable harm sufficient
to enjoin a violation of the FDCA with the showing needed to
support injunctive relief on Eighth Amendment grounds.
Before the Supreme Court’s July decision in Barr v. Lee, 140
S. Ct. 2590 (2020), the district court found that Plaintiffs’
evidence on the complaint alone “overwhelmingly indicate[d]
that the 2019 Protocol is very likely to cause Plaintiffs extreme
pain and needless suffering during their executions.”
Memorandum Opinion at 9-10, In re FBOP, 19-mc-145
(D.D.C. July 13, 2020), ECF No. 135. The court cited
Plaintiffs’ experts’ declarations demonstrating “that the
majority of inmates executed via pentobarbital injection
suffered flash pulmonary edema during the procedure.”

31a

Page 30 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

Memorandum Opinion at 9-10, In re FBOP, 19-mc-145
(D.D.C. July 13, 2020), ECF No. 135. Recognizing the key
issue as timing—whether the inmates could feel the effects of
flash pulmonary edema, as Plaintiffs alleged, or whether they
were insensate when it occurred, as the government argued—
the district court concluded the Plaintiffs had the better of the
evidence. Id. at 12. Only after the Supreme Court vacated a
preliminary injunction on Plaintiffs’ Eighth Amendment claim
did the district court find that Plaintiffs had failed to show
irreparable harm. The court did initially enter an injunction on
the FDCA violation, but it failed in that order to discuss
irreparable harm, and we remanded its order on that ground that
same day. The court then held an evidentiary hearing on the
issue of irreparable harm and denied the injunction for want of
a showing that Plaintiffs were “likely” to suffer flash
pulmonary edema. Memorandum Opinion at 36, In re FBOP,
19-mc-145 (D.D.C. Sept. 20, 2020), ECF No. 261. Even then,
however, the court “continue[d] to be concerned at the
possibility that inmates will suffer excruciating pain during
their executions.” Id. at 36.
If the district court treated as interchangeable the
evidentiary requirements for an injunction under the
Constitution and the statute, that was legal error. According to
Supreme Court precedent, the Eighth Amendment sets a
constitutional floor on the pain and degradation to which a
death row inmate may be subjected during an execution; it does
not guarantee a prisoner a painless death. Bucklew v. Precythe,
139 S. Ct. 1112, 1124 (2019). The purpose of the statutory
protections of the FDCA, in contrast, is to guard patients from
various risks that medical guidance and supervision might
eliminate. Thus, even where harms are not unconstitutional
under the Eighth Amendment, they may nonetheless give rise
to statutory violations under the FDCA entitling plaintiffs to
redress. On their Eighth Amendment claim, plaintiffs must

32a

Page 31 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

demonstrate that their method of execution involves a
“substantial risk of severe pain.” Glossip v. Gross, 576 U.S.
863, 882 (2015).
This necessarily means the Eighth
Amendment permits at least methods of execution that impose
a less-than-substantial risk of pain. But no similar threshold
applies under the FDCA. Thus, while the evidence of flash
pulmonary edema the plaintiffs brought to bear on their Eight
Amendment claim may also bear on their FDCA claim, the
statute guards against the risks of avoidable pain at lower levels
as well.
I believe that the risk of harm flowing from the FDCA
violation in this case readily meets the threshold for irreparable
injury. In any event, the record suggests that the district court
may have applied the threshold of expected harm required for
an Eighth Amendment injunction to deny the injunction under
the FDCA. Rather than affirming the denial of the FDCA
injunction, we should have clarified the distinction and
remanded to give the court an opportunity to reconsider
whether the record supports enjoining the FDCA violation.
The government further asserts that, even assuming
Plaintiffs have shown irreparable harm, the balance of equities
and public interest weigh against an injunction barring them
from executing additional Plaintiffs pending compliance with
the FDCA. The district court did not reach these equities, but
they merit comment as an important and recurring aspect of the
plaintiffs’ method-of-execution challenges.
The public interest as the government contends sees it
requires adherence to the current execution schedule. Appellee
Br. 39-40. It is our responsibility as courts “to ensure that
method-of-execution challenges to lawfully issued sentences
are resolved fairly and expeditiously.” Barr v. Lee, 140 S. Ct.
2590, 2591 (2020) (citation omitted). But Plaintiffs have thus

33a

Page 32 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

far pressed their concededly nonfrivolous claims with dispatch,
and the government has made no showing of delay that will
result if they comply with the FDCA.
The government suggests that Plaintiffs’ challenges “have
already been the subject of multiple rounds of litigation,” id. at
7, but the “rounds of litigation” to which it refers were the result
of a series of individual plaintiffs each seeking to enjoin
executions scheduled to take place before resolution of the
merits of their promptly and plausibly pleaded claims.
Plaintiffs sought those injunctions precisely so that they would
have an opportunity to litigate their claims. The particular
method of execution plaintiffs would face—including the
extent to which it would be determined by state law—was only
quite recently determined, see In re FBOP Protocol Cases, 955
F.3d at 110-11, and we recognized when we resolved those
claims under the FDPA and APA that, “regardless of our
disposition, several claims would remain open on remand.” Id.
at 113. Three of those claims are now before us. It is difficult
to see what more plaintiffs might have done to obtain earlier
rulings on the merits of their claims. Time that the government
and the courts have reasonably required cannot weigh against
plaintiffs’ entitlement to a permanent injunction. And, for its
part, the government has not introduced any evidence that it
would be unable promptly to obtain a prescription if it sought
to do so.
The public interest that the sentences be promptly carried
out must be weighed against the public interest in adhering to
applicable legal requirements, including the FDCA’s controls
on drug administration. And the Plaintiffs have aligned
interests in avoiding the elevated risks of severe and gratuitous
pain from administration of pentobarbital absent the requisite
statutory safeguards. On this record, it would appear that
Plaintiffs’ interest in avoiding those elevated risks outweighs

34a

Page 33 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

the government’s interest in proceeding with the executions as
scheduled without obtaining the required prescriptions.
For these reasons, I would have reversed and remanded the
district court’s decision to deny injunctive relief for the FDCA
violation.

35a

Page 34 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

RAO, Circuit Judge, concurring in part, concurring in the
judgment, and dissenting in part: The district court held that the
government’s decision to administer pentobarbital for lethal
injections without a prescription violates the Federal Food,
Drug & Cosmetic Act (“FDCA”) and so is contrary to law
under the Administrative Procedure Act (“APA”). The district
court also dismissed Plaintiffs’ Eighth Amendment claim for
failure to state a claim and granted summary judgment to the
government on Plaintiffs’ Federal Death Penalty Act
(“FDPA”) claim. The majority properly vacates the district
court’s dismissal of the Eighth Amendment claim and affirms
the grant of summary judgment on the FDPA claim. The
majority then concludes that binding circuit precedent
mandates the application of the FDCA to drugs administered
for capital punishment and orders the district court to set aside
the Protocol under the APA until the government procures
prescriptions for the lethal injection drugs. I disagree that this
conclusion is required by our precedent. Moreover, application
of the FDCA to drugs used in lethal injections is inconsistent
with the statutory text and the Supreme Court’s decision in
FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120
(2000). In any event, Plaintiffs have no authority to challenge
the Food and Drug Administration’s decision not to enforce the
FDCA in this context. See Heckler v. Chaney, 470 U.S. 821,
837–38 (1985). Accordingly, I respectfully concur in part,
concur in the judgment, and dissent in part.
***
I agree with the majority that the district court correctly
granted summary judgment for the government on the FDPA
claim. I also concur in the judgment that the district court erred
when it dismissed Plaintiffs’ Eighth Amendment claim for
failure to state a claim, FED. R. CIV. P. 12(b)(6). Plaintiffs
needed only to plead factual allegations, accepted as true,
sufficient to state a plausible claim that the government’s
protocol violates the Eighth Amendment. See Ashcroft v. Iqbal,

36a

Page 35 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

556 U.S. 662, 678 (2009); accord Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007). To constitute a violation of the
Eighth Amendment based on the method of execution, the
Supreme Court has held a plaintiff must establish that the
method creates “a demonstrated risk of severe pain” and
propose “an alternative that is feasible, readily implemented,
and in fact significantly reduces a substantial risk of severe
pain.” Glossip v. Gross, 576 U.S. 863, 877–78 (2015) (cleaned
up).
Plaintiffs’ pleadings, taken as true, plausibly support the
claim that the use of pentobarbital poses a demonstrated risk of
severe pain. Yet after the Supreme Court held that Plaintiffs
were unlikely to succeed on the merits of this claim in the
context of preliminary injunctive relief, see Barr v. Lee, 140 S.
Ct. 2590 (2020) (per curiam), the district court took that as a
suggestion that the claim would fail and dismissed it. To be
sure, Plaintiffs face an exceptionally high bar to succeed on the
merits of their method-of-execution claim, as no such claim has
yet to succeed at the Supreme Court. See Bucklew v. Precythe,
139 S. Ct. 1112, 1124 (2019); see also Glossip, 576 U.S. 877;
Baze v. Rees, 553 U.S. 35 (2008). The Court has warned
against “transform[ing] courts into boards of inquiry charged
with determining ‘best practices’ for executions, with each
ruling supplanted by another round of litigation touting a new
and improved methodology.” Baze, 553 U.S. at 51. In the
current round of this litigation, it remains to be seen whether
Plaintiffs can prevail on the merits of their Eighth Amendment
claim, but the district court erred by dismissing the claim at the
pleading stage. Because little more need be said on this error, I
concur only in the judgment with respect to this issue.

37a

Page 36 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

***
I dissent with respect to the majority’s holding that the
2019 Protocol should be set aside to the extent that it permits
the use of pentobarbital for executions without a prescription.
While we are bound by previous decisions of our circuit, no
case conclusively holds that the FDCA regulates drugs when
used for lethal injection in the course of an otherwise lawful
execution. The majority relies on Cook v. FDA, 733 F.3d 1
(D.C. Cir. 2013); however, that case did not resolve the
question of whether the FDCA applies to lethal injection drugs.
Rather in Cook, the court accepted the FDA’s concession that
an imported lethal injection drug was an “unapproved new
drug,” and used that concession to conclude that the FDA was
required to refuse admission to any foreign drug that appeared
to violate FDCA provisions on misbranded and unapproved
new drugs. See id. at 11 (cleaned up). Thus, we merely assumed
the applicability of the FDCA to lethal injection drugs in the
context of the FDA’s enforcement obligations over foreign
drugs imported to the United States. An assumption cannot
bind us on this important question of statutory interpretation.1
See, e.g., Cooper Indus., Inc. v. Aviall Servs., Inc., 543 U.S.
157, 170 (2004) (“Questions which merely lurk in the record,
neither brought to the attention of the court nor ruled upon, are
1

Neither am I persuaded by the district court’s analysis of the
question in Cook’s underlying proceeding, Beaty, 853 F. Supp. 2d at
42. The district court’s holding that, by declining to apply the FDCA
to lethal injection drugs, the FDA had “undermined the purpose of
the [statute] and acted in a manner contrary to the public health,” id.,
significantly expanded the agency’s jurisdiction, but did not explain
how application of the FDCA to drugs obtained for lethal injection
is consistent with the text of the FDCA and Supreme Court
precedent.

38a

Page 37 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

not to be considered as having been so decided as to constitute
precedents.”) (quoting Webster v. Fall, 266 U.S. 507, 511
(1925)). Earlier in this litigation, this court concluded that the
applicability of the FDCA was a necessary premise of the Cook
decision. See In re Federal Bureau of Prisons’ Execution
Protocol Cases, No. 20-5206, slip op. at 3 (D.C. Cir. July 15,
2020). The district court had stayed Plaintiffs’ executions,
holding that they had demonstrated a likelihood of success on
the merits of their FDCA claims; we refused to allow one of
the executions to move forward, denying the government’s
motion for a stay pending appeal. Id. at 2. This court did not
explicitly hold that the FDCA applies to drugs used in lethal
injections. Instead, in the context of assessing whether the
government had established a likelihood of success on the
merits, we suggested that the government had not met the high
bar to establish that Brown & Williamson should prevent the
application of the FDCA. Id. at 3. The next day, the Supreme
Court vacated the district court’s injunction without comment.
Barr v. Purkey, No. 20A10, 2020 WL 4006821, at *1 (U.S.
July 16, 2020).
The majority also relies on this court’s holding in Chaney
v. Heckler for the proposition that the FDA has jurisdiction
over drugs used for lethal injection. 718 F.2d 1174, 1179–82
(D.C. Cir. 1983), rev’d, 470 U.S. at 838. Even if the Supreme
Court declined to resolve this question explicitly in Heckler,
470 U.S. at 828, our court’s jurisdictional finding was based on
the understanding that “Congress clearly intended that the
[FDCA’s] ‘coverage be as broad as its literal language
indicates,’” Chaney, 718 F.2d at 1179 (citation omitted). Our
literal and expansive reading of the FDA’s jurisdiction in
Chaney conflicts with the Supreme Court’s later decision in
Brown & Williamson, which rejected a broad assertion of
jurisdiction by the FDA over tobacco products and cautioned
courts to read statutes in the context of other enacted laws to

39a

Page 38 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

ensure “a symmetrical and coherent regulatory scheme.”
Brown & Williamson, 529 U.S. at 133 (citation omitted). In
sum, none of our earlier decisions mandate that we interpret the
FDCA to require a prescription for the government’s use of
pentobarbital for lethal injections.
Therefore, I would proceed to address the statutory
question directly. The government vigorously contests the
applicability of the FDCA to drugs used in lethal injections, a
question with significant implications for the administration of
the death penalty by federal and state governments. The
government maintains that, when a drug’s intended use is to
effectuate capital punishment by the federal government or a
state, it is not subject to regulation under the FDCA. Appellees’
Br. 26 (citing Whether the FDA Has Jurisdiction over Articles
Intended for Use in Lawful Executions, slip op. O.L.C., 2019
WL 2235666 (May 3, 2019)). Squarely faced with a dispute
over the meaning of the statute, I would proceed to interpret
the text of the FDCA in a manner that comports with its
structure and history, other significant laws enacted by
Congress, and binding Supreme Court precedent. See Brown &
Williamson, 529 U.S. at 133.
First, the FDCA grants the FDA the authority to regulate
all “drugs” and “devices,” which include, among other things,
any “articles (other than food) intended to affect the structure
or any function of the body.” 21 U.S.C. § 321(g)(1)(C). While
the FDA’s authority is expansive, it is not without limit. The
Supreme Court has explained that we must understand this
broad authority in light of specific provisions of the FDCA, as
well as other statutory frameworks that might preclude
jurisdiction even when it would otherwise appear to be
included in the literal meaning of the FDCA. See Brown &
Williamson, 529 U.S. at 133 (“[T]he meaning of one statute
may be affected by other Acts, particularly where Congress has

40a

Page 39 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

spoken subsequently and more specifically to the topic at
hand.”).
Here, applying the requirements of the FDCA to lethal
injection drugs does not cohere with the text and structure of
the whole statute. In particular, Plaintiffs seek to require the
government to obtain a prescription for the use of execution
drugs. Section 353 of the FDCA, which requires an oral or
written prescription for “[a] drug intended for use by man
which (A) because of its toxicity or other potentiality for
harmful effect, or the method of its use, or the collateral
measures necessary to its use, is not safe for use except under
the supervision of a practitioner licensed by law to administer
such drug; or (B) is limited by an approved application under
section 355 of this title to use under the professional
supervision of a practitioner licensed by law to administer such
drug.” 21 U.S.C. § 353(b)(1)(A)–(B) (emphasis added). This
language makes clear that the prescription requirement is
designed with the therapeutic benefit of the patient in mind.
The other relevant provisions identified by the district court—
premarket approval by the FDA and labeling requirements—
share this focus. Each of these provisions serves to protect the
public by ensuring that a product is safe for its intended
therapeutic use. Indeed, the Supreme Court has recognized that
the FDCA “generally requires the FDA to prevent the
marketing of any drug or device where the potential for
inflicting death or physical injury is not offset by the possibility
of therapeutic benefit.” Brown & Williamson, 529 U.S. at 134
(cleaned up); see also United States v. Rutherford, 442 U.S.
544, 555 (1979) (“[T]he Commissioner generally considers a
drug safe when the expected therapeutic gain justifies the risk
entailed by its use.”).
By contrast, drugs used for the purpose of lethal injection
have a certainty of inflicting death. There is no corresponding

41a

Page 40 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

therapeutic benefit of a drug used to administer a lethal
injection in the context of capital punishment. To apply the
FDCA’s careful balancing of therapeutic risks and benefits to
execution drugs would distort the Act’s framework.
Moreover, such an expansive application of the FDCA
would run headlong into the numerous statutes Congress has
enacted providing for capital punishment. Since 1790,
Congress has authorized the death penalty for various
violations of federal law. See, e.g., An Act for the Punishment
of Certain Crimes § 33, 1 Stat. 112, 119 (Apr. 30, 1790); see
also Act of June 19, 1937, ch. 367, 50 Stat. 304, 304 (repealed
1984). Most recently, Congress enacted the Federal Death
Penalty Act of 1994, which reestablished the federal death
penalty and provides for the U.S. marshal to “supervise
implementation of the sentence in the manner prescribed by the
law of the State in which the sentence is imposed.” 18 U.S.C.
§ 3596(a). In 1994, as today, lethal injection is one of the most
common methods of execution and, in many States, the
exclusive method of execution. The 1994 Act unambiguously
assumes the continued availability of drugs necessary for
execution by lethal injection.
The general terms of the FDCA cannot be reconciled with
this separate and distinct scheme for capital punishment,
reenacted by Congress against a background of expanding use
of lethal injection by the States. See Brown & Williamson, 529
U.S. at 137 (finding relevant to the analysis that Congress had
“foreclosed the removal of tobacco products from the
market”). The majority’s interpretation of the FDCA creates a
significant and entirely novel impediment to this method of
capital punishment, not only for federal executions, but also for
State executions. Yet the Supreme Court has repeatedly upheld
lethal injection as a constitutional method of execution. See,
e.g., Baze v. Rees, 553 U.S. 35, 40–41 (2008) (explaining that

42a

Page 41 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

the progress of states towards a more humane method of capital
punishment “has led to the use of lethal injection by every
jurisdiction that imposes the death penalty”).
Furthermore, the FDA’s longstanding policy of declining
jurisdiction over lethal injection drugs reinforces the propriety
of not extending the FDCA’s requirements here. See Brown &
Williamson, 529 U.S. at 146. The FDCA was enacted in 1938,
Act of June 25, 1938, ch. 675, 52 Stat. 1040, and lethal
injection has been used as a method of execution since the
1970s. From the first use of otherwise FDA-approved drugs in
capital punishment, the FDA has not attempted to exercise
jurisdiction over drugs or devices intended to carry out lawful
sentences of capital punishment.2 This commonsense approach
is consistent with the overarching purpose of the FDCA—to
ensure that drugs and devices in interstate commerce are safe
and effective for their intended uses. The intended use of a drug
or device in the capital punishment context is to end human
life. It is “implausible … that the FDA is required to exercise
its enforcement power to ensure that States only use drugs that
2

After Beaty entered an injunction requiring the FDA to block
foreign shipments of sodium thiopental, in 2015, the FDA blocked
Texas’s attempt to import the drug for use in capital punishment. See
Letter from Todd W. Cato, Director, Southwest Import District
Office at 1–2 (Apr. 20, 2017). The FDA expressly asserted
jurisdiction over lethal injection drugs for the first time, but its
decision was premised on the fact that Texas conceded that the
sodium thiopental was a “drug” within the meaning of the FDCA,
and that the “FDA is bound by the terms of the order issued” in
Beaty. Id. The government’s more recent, considered position is
reflected in the 2019 Office of Legal Counsel Memorandum,
Whether the FDA Has Jurisdiction over Articles Intended for Use in
Lawful Executions, slip op. O.L.C., 2019 WL 2235666 (May 3,
2019).

43a

Page 42 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

are ‘safe and effective’ for human execution.” Heckler, 470
U.S. at 827.
The district court here held that when “the government
argues that a lethal injection drug is legally and constitutionally
permissible because it will ensure a ‘humane’ death, it cannot
then disclaim a responsibility to comply with federal statutes
enacted to ensure that the drugs operate humanely.” J.A. 558.
This appears to conflate the general requirement that
executions comport with the Eighth Amendment with the
purpose of the FDCA to ensure that a product’s anticipated
therapeutic benefit outweighs its risk of harm. See Brown &
Williamson, 529 U.S. at 140. The fact that executions should
be carried out in a humane manner does not mean the FDCA
applies. I express no opinion on the policy arguments regarding
the purported advantages of requiring a prescription for lethal
injection drugs—I simply do not think the FDCA includes such
a requirement. Therefore Congress, rather than the courts, must
decide how to resolve such policy questions in the sensitive
area of capital punishment.
***
Even if the FDCA applied in this case, these Plaintiffs
cannot challenge the FDA’s nonenforcement decision. As the
Court held in Heckler, the “FDA’s decision not to
take … enforcement action[]” to prevent the use of drugs
intended for use in lethal injection is “not subject to judicial
review under the APA.” 470 U.S. at 837–38. The FDCA
specifically confers such enforcement authority on the
government. See 21 U.S.C. § 337(a) (“[A]ll such proceedings
for the enforcement, or to restrain violations, of this chapter
shall be by and in the name of the United States.”) (emphasis
added). This is not an enforcement proceeding, but it is an

44a

Page 43 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

attempt by the Plaintiffs to restrain violations of the FDCA.
Section 337 gives that authority to the government.
Despite the absence of a private right of action in the
FDCA, the district court held that the APA provides a private
right of action for agency actions “not in accordance with law”
under 5 U.S.C. § 706(2)(A). Mem. Op., Roane v. Barr, No. 19mc-145, at *5 (ECF No. 213) (D.D.C. Aug. 27, 2020).
Acknowledging that the FDCA does not contain a private right
of action, the district court relied on Chrysler Corp. v. Brown,
441 U.S. 281, 316–18 (1979), to find that the APA could
nonetheless supply what the statute lacked: a right to enforce
the FDCA’s premarketing, labeling, and prescription
requirements against the federal government. Mem. Op. at *5.
The district court’s holding appears to conflict with the
Supreme Court’s acknowledgement that an APA action is
precluded by federal statutory schemes that foreclose private
party enforcement. The APA confers a general cause of action
upon persons “adversely affected or aggrieved by agency
action within the meaning of a relevant statute,” 5 U.S.C.
§ 702, but withdraws that cause of action to the extent the
relevant statute “preclude[s] judicial review,” 5 U.S.C.
§ 701(a)(1). See Block v. Cmty. Nutrition Inst., 467 U.S. 340,
352–53 (1984) (holding that Congress intended to preclude
consumer challenges to milk marketing orders and such a
holding would not frustrate the statute’s objectives). “Whether
and to what extent a particular statute precludes judicial
review” is by necessity a fact specific inquiry that turns on the
express statutory language, structure, purpose, and history, and
the nature of the administrative action involved. Id. at 345. It is
not enough to assume, as the district court did, that the APA
can provide the right of action here. Such an assumption is
unwarranted under the FDCA, which places enforcement
authority exclusively with the government. Cf. Buckman Co. v.

45a

Page 44 of 45

USCA Case #20-5329

Document #1871726

Filed: 11/18/2020

Plaintiffs’ Legal Comm., 531 U.S. 341, 349 n.4 (2001); Perez
v. Nidek Co., 711 F.3d 1109, 1119 (9th Cir. 2013) (“Although
citizens may petition the FDA to take administrative
action … private enforcement of the statute is barred.”).
Because enforcement of the FDCA is committed to the
government, private litigants cannot sue to enforce its
provisions.

46a

Page 45 of 45

APPENDIX C

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 1 of 9

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
In the Matter of the
Federal Bureau of Prisons’ Execution
Protocol Cases,
LEAD CASE: Roane, et al. v. Barr
THIS DOCUMENT RELATES TO:
ALL CASES

)
)
)
)
)
)
)
)
)
)
)

Case No. 19-mc-145 (TSC)

ORDER
Pursuant to Federal Rule of Civil Procedure 59(e), Plaintiffs have moved for alteration or
amendment of: 1) the court’s August 20, 2020 dismissal of Plaintiffs’ Eighth Amendment claim
(ECF No. 238); 2) the court’s September 20, 2020 Order denying injunctive relief as to
Plaintiffs’ Food, Drug, and Cosmetic Act (FDCA) claims, (ECF No. 282); and 3) the court’s
September 20, 2020 entry of summary judgment in favor of Defendants as to Plaintiffs’ Federal
Death Penalty Act (FDPA) claims, (ECF No. 298). For the reasons set forth below, all three
motions are DENIED.
I.

LEGAL STANDARD

Federal Rule of Civil Procedure 59(e) permits a party to move to alter or amend a
judgment “no later than 28 days after the entry of the judgment.” 1 A motion under Rule 59(e)
“is discretionary and need not be granted unless the district court finds that there is an
intervening change of controlling law, the availability of new evidence, or the need to correct a
clear error or prevent manifest injustice.” Firestone v. Firestone, 76 F.3d 1205, 1208 (D.C. Cir.

1

It is undisputed that Plaintiffs’ motions are timely under Rule 59(e).

47a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 2 of 9

1996) (internal quotation marks omitted); see also Leidos, Inc. v. Hellenic Republic, 881 F.3d
213, 217 (D.C. Cir. 2018) (same). However, such a motion “may not be used to relitigate old
matters, or to raise arguments or present evidence that could have been raised prior to the entry
of judgment.” Exxon Shipping Co. v. Baker, 554 U.S. 471, 485 n.5 (2008).
II.

EIGHTH AMENDMENT CLAIMS

On August 20, 2020, this court entered partial final judgment in favor of Defendants as to
Plaintiff’s Eighth Amendment claim in Count II of their Amended Complaint. Based on the
Supreme Court’s reasoning in Barr v. Lee, the court found that “[s]o long as pentobarbital is
widely used . . . no amount of new evidence will suffice to prove that the pain pentobarbital
causes reaches unconstitutional levels.” (ECF No. 193, Aug. 15 Order at 4 (discussing Barr v.
Lee, 140 S. Ct. 2590 (2020) (per curiam)).) This conclusion was premised, in part, on the
Supreme Court’s observation that Plaintiffs’ Eighth Amendment claim faced “an exceedingly
high bar” given that single-dose pentobarbital “has become a mainstay of state executions . . .
[h]as been used to carry out over 100 executions, without incident . . . [and h]as been repeatedly
invoked by prisoners as a less painful and risky alternative to the lethal injection protocols of
other jurisdictions.” Lee, 140 S. Ct. at 2591; see also id. (citing Bucklew v. Precythe, 139 S. Ct.
1112, 1124 (2019)) (“This Court has yet to hold that a State’s method of execution qualifies as
cruel and unusual.”). The court further concluded that even if it “found in favor of Plaintiffs on
all alleged facts,” including evidence that an inmate would be virtually certain to suffer the
effects of flash pulmonary edema, “there would be no Eighth Amendment violation because the
evidence of pain would not satisfy Lee’s high bar for an objectively intolerable risk of pain.”
(Aug. 15 Order at 3, 5.) Indeed, the Supreme Court considered most of the evidence Plaintiffs

48a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 3 of 9

presented and found no viable Eighth Amendment challenge to the use of single-dose
pentobarbital. See Lee, 140 S. Ct. at 2591.
Plaintiffs offer no grounds that merit an alteration of the court’s prior judgment. First,
they contend that the court’s judgment was a clear error predicated on “an overly broad reading
of the Supreme Court’s per curiam order in Barr v. Lee as foreclosing any Eighth Amendment
challenge to the use of pentobarbital in lethal injection.” (ECF No. 238 at 1). Plaintiffs also
present new evidence from the September 22, 2020 execution of William LeCroy. The court
addresses each in turn.
A. Clear Error
Plaintiffs seek to relitigate at least two arguments that the court has already considered
and rejected, and the court finds no clear error in its previous analysis. For instance, Plaintiffs
argue that “the Supreme Court raised th[e] bar substantially for the [] plaintiffs in Lee because
they sought what it deemed ‘last-minute intervention by a Federal Court.’” (Id. at 8 (emphasis
supplied by Plaintiffs) (noting also that Lee “is best understood to hold only that a plaintiff’s
expert declarations, when contested by the government’s own experts, are insufficient to make
the heightened showing to justify last-minute relief”).) But after considering a similar argument
presented by former Plaintiff Keith Nelson, the court determined that the timing of the injunctive
relief sought in Lee was “neither dispositive nor weighty.” (See Aug. 15 Order at 4.) Plaintiffs
here present nothing which changes that conclusion.
Relatedly, Plaintiffs also contend that the Supreme Court considered the Eighth
Amendment claim in Lee on a motion for a preliminary injunction, and therefore this court is not
precluded from finding that Plaintiffs have nonetheless adequately stated a claim for relief. But,
again, the court already considered and rejected that argument: “[i]t is true that the standards for

49a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 4 of 9

a motion to dismiss and a preliminary injunction are distinct, but that does not mean this court
can ignore Lee’s general language regarding the Eighth Amendment standard.” (Id. at 4–5.)
Finally, Plaintiffs argue that this court’s assessment of Lee cannot be squared with the
D.C. Circuit’s August 25, 2020 denial of former Plaintiff Keith Nelson’s motion for a stay
pending appeal of the judgment at issue. In Plaintiffs’ view, “[i]f the D.C. Circuit shared this
Court’s broad reading of Lee, it could have denied Nelson a stay with no analysis whatsoever.”
(ECF No. 238 at 9 (discussing In re Bureau of Prisons’ Execution Protocol Cases, No. 20-5252,
at *4 (D.C. Cir. Sept. 10, 2020)).) But, as the Circuit noted, it did not consider the merits of this
court’s dismissal of Count II, but rather whether Nelson would have been irreparably harmed
absent a stay pending appeal. In re Execution Protocol Cases, No. 20-5252, at *4. Accordingly,
the court finds nothing in the D.C. Circuit’s decision on the Nelson appeal to cause it to
reconsider its interpretation of Lee.
B. New Evidence
Plaintiffs also argue that newly submitted evidence from the LeCroy execution calls into
question the court’s dismissal of Plaintiffs’ Eighth Amendment claim. In their view, the new
evidence and other intervening events “have hopelessly discredited the Government’s
‘competing evidence’ that motivated the ruling in Lee.” (ECF No. 293 at 2.) The court
disagrees.
As an initial matter, as Plaintiffs acknowledge, the court does not weigh factual evidence
on a motion to dismiss. (Id. at 1.) Furthermore, the court did not dismiss the Eighth Amendment
claim because of “competing” evidence. In fact, it credited Plaintiffs’ evidence before
concluding that there was no Eighth Amendment violation. Assuming Plaintiffs are correct that
LeCroy suffered from flash pulmonary edema while still conscious, that fact does not alter the

50a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 5 of 9

court’s conclusion that such new evidence will not suffice to show that the pain pentobarbital
causes reaches unconstitutional levels so long as pentobarbital is widely used. (See Aug. 15
Order at 4 (citing Lee, 140 S. Ct. 2590).) Evidence from the LeCroy execution simply adds
another data point in support of an argument the Supreme Court has already rejected as
insufficient to state a viable Eighth Amendment claim.
The court has not identified a “clear error” in its reasoning, or newly discovered
evidence, which merits an alteration or amendment of the judgment dismissing Count II of the
Amended Complaint.
III.

FDCA CLAIMS

Plaintiffs next ask the court to reconsider its judgment denying injunctive relief on their
FDCA claims. In its September 20 Memorandum Opinion, the court found that the
government’s use of pentobarbital that was not prescribed, and did not meet other FDCA
requirements, constituted agency action contrary to law in violation of the Administrative
Procedure Act. The court concluded, however, that Plaintiffs were not entitled to injunctive
relief because they had failed to show irreparable harm arising from the statutory violation.
Plaintiffs now argue that the evidence from the LeCroy execution now clears this hurdle.
But they ignore key language from the court’s September 20 Opinion: “Assuming the BOP finds
a doctor to write prescription, Plaintiffs will still be executed using pentobarbital. Thus, the
prescription requirement does not in and of itself ensure that Plaintiffs will [] be protected from
flash pulmonary edema during their executions.” (ECF No. 261, Sept. 20 Mem. Op. at 36.)
Plaintiffs have not presented any legal authority that undermines this conclusion.
The court also explained in its September 20 Opinion that “while [it] continues to be
concerned at the possibility that inmates will suffer excruciating pain during their executions,

51a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 6 of 9

Plaintiffs have not established that flash pulmonary edema is ‘certain’ or even ‘likely’ to occur
before an inmate is rendered insensate.” (Id.) Plaintiffs’ new evidence does not change this
finding.
Plaintiffs point to three unsworn accounts of LeCroy’s execution indicating that LeCroy’s
“torso began to jerk and contract uncontrollably,” (ECF No. 282-1, Hale Account at 1); that
“[h]is eyelids grew heavy while his midsection began to heave uncontrollably,” (ECF No. 282-2,
Tarm AP Article at 1); and that “[h]is stomach started going up and down intensely” and “[h]is
mouth quivered as he was gasping for air,” (ECF No. 282-3, Kudisch Local News Article at 2).
Defendants present other unsworn statements contradicting these accounts. (See ECF No. 291-1,
Trigg Local News Article at 2; ECF No. 291-2, Desk Local News Article at 1.) None of these
accounts causes the court to change its ruling. 2
Defendants also submitted a sworn declaration from Eric Williams, Warden of the
Federal Correctional Institution at Greenville, Illinois, who attended LeCroy’s execution. (See
ECF No. 291-5, Williams Decl.) Williams recounts that “[s]hortly after the lethal injection
substances were administered, I heard LeCroy take a deep breath. Subsequently he snored
loudly one time . . . [T]he rise and fall of his abdomen was very apparent. It did not appear to
me, however, that LeCroy was experiencing discomfort, or that he was struggling for air.” (Id.
¶¶ 7–8.)

Plaintiffs also supply supplemental declarations from Dr. Gail Van Norman and Dr. Mark
Edgar, both of whom agree that the accounts presented by Plaintiffs indicate that LeCroy
suffered from flash pulmonary edema while insensate. (See ECF No. 282-4; ECF No. 282-5.)
Defendants’ experts submit supplemental declarations refuting these conclusions. (See ECF
No. 291-3; ECF No. 291-4.) The court has already considered the testimony of these experts,
and, while their analysis considers the “new evidence”, their conclusions remain the same.
2

52a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 7 of 9

Even assuming Plaintiffs’ new evidence establishes that LeCroy suffered the effects of
flash pulmonary edema while still conscious, such evidence only confirms that the onset of flash
pulmonary edema is possible upon the administration of pentobarbital. But as the court has
already explained, given Supreme Court precedent, that is not enough to warrant injunctive
relief. (See Sept. 20 Mem. Op. at 36.) Plaintiffs would need to supply evidence that casts doubt
on the more than 100 executions carried out using pentobarbital and which refutes data upon
which the Supreme Court has relied in finding that pentobarbital will not cause an
unconstitutional level of pain. The evidence presented here falls far short.
The Supreme Court has made its position clear. Pentobarbital “has become a mainstay of
state executions,” Lee, 140 S. Ct. at 2591; “[h]as been used to carry out over 100 executions,
without incident,” id.; does not carry the risks of “drowning, suffocating, and being burned alive
from the inside out, ” Zagorski v. Parker, 139 S. Ct. 11 (2018) (Sotomayor, J., dissenting); and
“is widely conceded to be able to render a person fully insensate,” id. at 11–12. The court is
constrained by these findings and, particularly given the history of this case, finds nothing new
which warrants injunctive relief.
IV.

FDPA Claims

Finally, Plaintiffs ask the court to reconsider its conclusion that Defendants are entitled to
summary judgment as to the FDPA claims in Count V of the Amended Complaint. In that count,
Plaintiffs alleged that the 2019 Protocol violates § 3596(a) of the FDPA, which requires that a
federal execution be carried out “in the manner prescribed by the law of the State in which the
sentence is imposed,” 18 U.S.C. § 3596(a). In support of their argument, Plaintiffs identified
several state laws which, in their view, conflicted with the 2019 Protocol.

53a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 8 of 9

In its September 20 Opinion, the court found that while the Bureau of Prisons was
required to adhere to execution protocols in state statutes and regulations, Defendants were
entitled to summary judgment as to the alleged discrepancies between the 2019 Protocol and
state laws. In particular, the court found that the 2019 Protocol did not conflict with a Georgia
law requiring the presence of two physicians at an execution given Defendants’ stated intention
to comply with that provision. The court also found no conflict between the 2019 Protocol and a
Texas law setting forth execution scheduling restrictions because the only Plaintiff to whom that
provision applied had not requested that his execution be scheduled in accordance with that law.
Plaintiffs contend that the court’s conclusions are premised on an “error of law.” (ECF
No. 298 at 1.) They argue that: 1) Defendants’ stated intention to adhere to relevant state law is
insufficient to warrant judgment in Defendants’ favor as to Count V, and 2) the court’s rationale
has been undermined by the circumstances of LeCroy’s execution on September 22, 2020. (Id.)
Even if the court agreed that Defendants had violated the FDPA, Plaintiffs have not
shown how they are irreparably harmed by the alleged state law violations. The court has
already noted its skepticism that the Bureau of Prisons’ denial of a request to be executed after
6 p.m. in accordance with Texas law “would constitute irreparable harm.” (Sept. 20 Mem. Op. at
31.) 3 Similarly, the court does not see how a plaintiff would be irreparably harmed by the
presence of only one physician at the execution to certify that death has superseded, especially
since that certification is made well after the inmate has been rendered insensate.
In any event, the court is not convinced that the evidence Plaintiffs proffer supports a
finding that Defendants have run afoul of the FDPA. Plaintiffs point to several news articles in

It is for this reason that the court also will deny Plaintiffs’ request to “alter its judgment to
clarify” that the ruling regarding the alleged violation of Article 43.14(a) of Texas’s Code of
Criminal Procedure applies only to Plaintiff Vialva. (See ECF No. 298 at 7.)
3

54a

Case 1:19-mc-00145-TSC Document 305 Filed 11/03/20 Page 9 of 9

which eyewitnesses reported seeing only one physician during LeCroy’s execution, in violation
of Georgia Code § 17-10-41. But these unsworn statements are contradicted by Defendants’
sworn statement from a prison official who certified that “[a] second physician examined LeCroy
and confirmed the pronouncement of death.” (Williams Decl. ¶ 10.) The court has no basis on
which to doubt the veracity of this sworn statement.
Plaintiffs also submitted a copy of a request made by Plaintiff Orlando Hall to the
Warden of Federal Correctional Complex, Terre Haute, asking to be executed after 6 p.m. in
accordance with Article 43.14 of the Texas Code of Criminal Procedure. That request has been
granted. (See ECF No. 301-1 (noting that “Mr. Hall’s execution is scheduled for 6 pm Terre
Haute time”).) Thus, Plaintiffs have failed to identify a statutory violation.
Finally, Plaintiffs point out that once the Ninth Circuit determined the agency was not
required to do so, the Bureau of Prisons did not comply with Arizona laws governing on-site
accommodations for counsel at Lezmond Mitchell’s execution. But the court cannot fault
Defendants for acting in accordance with leave granted by the Ninth Circuit, especially since
Mitchell’s claim was not part of this litigation. Plaintiffs have therefore failed to show a “clear
error” in the court’s disposition of their FDPA claims.
Date: November 3, 2020

Tanya S. Chutkan

TANYA S. CHUTKAN
United States District Judge

55a

APPENDIX D

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 1 of 41

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
In the Matter of the
Federal Bureau of Prisons’ Execution
Protocol Cases,
LEAD CASE: Roane, et al. v. Barr
THIS DOCUMENT RELATES TO:
ALL CASES

)
)
)
)
)
)
)
)
)
)
)

Case No. 19-mc-145 (TSC)

MEMORANDUM OPINION
Plaintiffs are inmates on federal death row who challenge Defendants’ efforts to execute
them pursuant to the 2019 Federal Bureau of Prisons’ Execution Protocol (the 2019 Protocol or
the Protocol). Defendants have filed an omnibus motion for summary judgment on Plaintiffs’
Administrative Procedure Act (APA) claims and a motion to dismiss all remaining claims
pursuant to Fed. R. Civ. P. 12(b)(6). All Plaintiffs have moved for partial summary judgment,
(ECF No. 236), as to the violations of the Food, Drug, and Cosmetic Act (FDCA) in Count XI of
the Amended Complaint, (ECF. No. 92). 1 Most of these claims have been addressed in one way
or another by this court or the Court of Appeals for the District of Columbia Circuit, and it is the
court’s intention to enter final judgment on most of the remaining claims. 2

Plaintiff William Emmett LeCroy has advised the court that he joins this motion. His contraryto-law FDCA claims appear in Count V of his Amended Complaint. (See ECF No. 245.)

1

The court has not yet ruled on Plaintiff Norris Holder’s applied Eighth Amendment claim (ECF
No. 94), and Plaintiffs’ motion, (ECF No. 238), to alter the court’s August 20, 2020 judgment,
(ECF No. 205).

2

56a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 2 of 41

For the reasons set forth below, Defendants’ omnibus motion is GRANTED in part. The
court DENIES Defendants’ motion as to the FDCA claims in Count XI, but the motion is
GRANTED in all other respects except as to Norris Holder’s as-applied Eighth Amendment
challenge. Accordingly, Plaintiffs’ motion for partial summary judgment on the FDCA claims in
Count XI (and in Count V of Plaintiff LeCroy’s Amended Complaint) is GRANTED, but the
injunctive relief sought therein is DENIED for all Plaintiffs except Norris Holder. 3
I.

BACKGROUND

A. 2004 Execution Protocol
In 2005, James H. Roane, Jr., Richard Tipton, and Cory Johnson, three federal death row
inmates, sued, alleging that their executions were to be administered under an unlawful and
unconstitutional execution protocol. Roane v. Gonzales, 1:05-cv-02337 (D.D.C.), ECF No. 1
¶ 2. The court preliminarily enjoined their executions. Roane, ECF No. 5. Four other death row
inmates intervened, and their executions were enjoined as well. See Roane, ECF Nos. 23, 27, 36,
38, 67, and 68. During this litigation, Defendants produced a 50-page document (the 2004 Main
Protocol) outlining the Bureau of Prisons’ (BOP) execution procedures. Roane, ECF No. 179-3.
Defendants then produced two three-page addenda to the 2004 Main Protocol. See Roane, ECF
No. 177-3 (Addendum to Protocol, July 1, 2007) (the 2007 Addendum); ECF No. 177-1
(Addendum to Protocol, Aug. 1, 2008) (the 2008 Addendum). In 2011 the Department of Justice
(DOJ) announced that the BOP did not have the drugs it needed to implement the 2008
Addendum. See Letter from Office of Attorney General to National Association of Attorneys
General, (Mar. 4, 2011), https://files.deathpenaltyinfo.org/legacy/documents/2011.03.04.holder.
letter.pdf. Defendants informed the court that the BOP “has decided to modify its lethal

3

The court will rule separately on Plaintiff Holder’s request for injunctive relief.

57a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 3 of 41

injection protocol but the protocol revisions have not yet been finalized.” Roane, ECF No. 288
at 2. In response, the court stayed the Roane litigation. No further action was taken in the cases
for over seven years.
B. 2019 Execution Protocol
On July 24, 2019, the DOJ announced a new addendum to the execution protocol, (ECF
No. 39-1, Admin. R. at 874–78), replacing the three-drug protocol of the 2008 Addendum with a
single drug: pentobarbital sodium. (Id. at 879–80.) The BOP also adopted a new protocol to
replace the 2004 Main Protocol. (Id. at 1021–72.) The 2019 Protocol provides for three
injections, the first two containing 2.5 grams of pentobarbital in 50 milliliters of diluent each,
and the third containing 60 milliliters of a saline flush. (Id. at 880.) The 2019 Protocol does not
refer to the form or source of the drug, or measures of quality control, and its description of the
intravenous administration of the drug simply provides that the BOP Director or designee “shall
determine the method of venous access” and that “[i]f peripheral venous access is utilized, two
separate lines shall be inserted in separate locations and determined to be patent by qualified
personnel.” (Id.)
Following this announcement, the court held a status conference in Roane on August 15,
2019. (See Minute Entry, Aug. 15, 2019.) In addition to the Roane plaintiffs, the court heard
from counsel for three other federal death row inmates, all of whom cited the need for additional
discovery on the new protocol. (See ECF No. 12, Status Hr’g Tr.) Defendants indicated that
they were unwilling to stay the executions, and the court bifurcated discovery and ordered
Plaintiffs to complete 30(b)(6) depositions by February 28, 2020, and to file amended complaints
by March 31, 2020. (See Minute Entry, Aug. 15, 2019.)

58a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 4 of 41

1. November 20, 2019 Preliminary Injunction
Four inmates with scheduled execution dates filed complaints or motions to intervene in
the Roane action challenging the 2019 Protocol, and each inmate subsequently moved to
preliminarily enjoin his execution. 4 On November 20, 2019, the court granted the four
Plaintiffs’ motions for preliminary injunction, finding that they had demonstrated a likelihood of
success on their claims that the 2019 Protocol exceeds the authority set forth in the Federal Death
Penalty Act (FDPA). (See ECF No. 50, Nov. 20, 2019 Mem. Op. at 13, 15; ECF No. 50, Nov.
20, 2019 Order.) The court did not rule on Plaintiffs’ other claims, including that the 2019
Protocol is arbitrary and capricious under the Administrative Procedure Act (APA), that it
violates the Food, Drug, and Cosmetic Act (FDCA) and the Controlled Substances Act (CSA),
that it violates Plaintiffs’ right to counsel in violation of the First, Fifth, and Sixth Amendments,
and that it is cruel and unusual in violation of the Eighth Amendment. (Id. at 13.) Following the
court’s order, three more death row inmates filed complaints which in turn were consolidated
with Roane. 5 The court denied Defendants’ motion to stay the court’s preliminary injunction.
(See Minute Order, Nov. 22, 2019.) The D.C. Circuit likewise denied Defendants’ motion to
stay, In re Fed. Bureau of Prisons’ Execution Protocol Cases, No. 19-5322 (D.C. Cir. Dec. 2,

Daniel Lewis Lee filed his complaint on August 23, 2019 (see Lee v. Barr, 1:19-cv-02559
(D.D.C.), ECF No. 1), and his motion for a preliminary injunction on September 27, 2019. (ECF
No. 13, Lee Mot. for Prelim. Inj.) On August 29, 2019, Alfred Bourgeois moved to preliminarily
enjoin his execution. (ECF No. 2, Bourgeois Mot. for Prelim. Inj.) Dustin Lee Honken filed an
unopposed motion to intervene in Lee v. Barr, which was granted. (ECF No. 26, Honken Mot. to
Intervene.) He then moved for a preliminary injunction on November 5, 2019. (ECF No. 29,
Honken Mot. for Prelim. Inj.) Wesley Ira Purkey filed a complaint and a motion for a
preliminary injunction under a separate case number, 1:19-cv-03214, which was consolidated
with Roane. (ECF No. 34, Purkey Mot. for Prelim. Inj.)
4

These plaintiffs are Norris G. Holder, Jr., 1:19-cv-3520; Brandon Bernard, 1:20-cv-474; and
Keith Dwayne Nelson, 1:20-cv-557.
5

59a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 5 of 41

2019), as did the United States Supreme Court on December 6, 2019. Barr v. Roane, 140 S. Ct.
353 (2019). However, three Justices issued a statement indicating their belief that Defendants
were likely to prevail on the merits. Id.
On November 21, 2019, Defendants filed an interlocutory appeal of the court’s
November 20, 2019 Order. (See ECF No. 52.) On April 7, 2020, the D.C. Circuit reversed.
Execution Protocol Cases, 955 F.3d at 108. Neither of the two Judges on the panel who voted to
reverse agreed on the FDPA’s statutory requirements, but they nonetheless rejected on the merits
Plaintiffs’ claim that the federal government was required by the FDPA to follow procedures set
forth in state execution protocols. Id. at 112 (per curiam). The panel expressly declined to rule
on Plaintiffs’ remaining statutory and constitutional claims, as “the government did not seek
immediate resolution of all the plaintiffs’ claims” and the claims “were neither addressed by the
district court nor fully briefed in this Court.” Id. at 113. The Court of Appeals denied Plaintiffs’
petition for rehearing en banc on May 15, 2020, and the Supreme Court denied Plaintiffs’
application for a stay of the mandate and petition for a writ of certiorari on June 29, 2020.
Bourgeois, 2020 WL 3492763.
Meanwhile, Plaintiffs filed their Amended Complaint on June 1, 2020, (ECF No. 92, Am.
Compl.), the same day Holder filed a separate supplemental complaint, (ECF No. 94.)
2. July 13, 2020 Preliminary Injunction—Eighth Amendment Claims
On June 15, 2020, the DOJ and BOP scheduled new execution dates for three Plaintiffs in
the case: Daniel Lewis Lee on July 13, 2020, Wesley Ira Purkey on July 15, 2020, Dustin Lee
Honken on July 17, 2020, and Keith Dwayne Nelson on August 28, 2020. (ECF No. 99.)
On July 13, 2020, the court preliminarily enjoined the executions of Lee, Purkey,
Honken, and Nelson, finding that they had demonstrated a likelihood of success on the merits of

60a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 6 of 41

their claim that the 2019 Protocol is cruel and unusual in violation of the Eighth Amendment.
Once again, it did not rule on their other statutory and constitutional claims. (See ECF No. 135,
July 13 Mem. Op. at 18, 22.) The D.C. Circuit declined to stay or vacate the court’s injunction,
see Execution Protocol Cases, No. 20-5199 (D.C. Cir. July 13, 2020), but the Supreme Court
vacated the injunction early in the morning of July 14, 2020. Barr v. Lee, No. 20A8, 2020 WL
3964985 (U.S. July 14, 2020) (per curiam). Hours later, Defendants executed Lee.
3. July 15, 2020 Preliminary Injunction—Remaining Claims
On July 15, 2020, the court preliminarily enjoined the executions of Purkey, Honken, and
Nelson, finding that they had demonstrated a likelihood of success on the merits of their claims
that the 2019 Protocol violates the FDCA (ECF No. 145, July 15 Mem. Op. at 28.) The court
found, however, that Plaintiffs were unlikely to succeed on their claims that the 2019 Protocol is
arbitrary and capricious under the APA, violates the CSA, and deprives Plaintiffs of their right to
counsel under the First, Fifth, and Sixth Amendments.
The D.C. Circuit declined to stay or vacate the court’s injunction, see Execution Protocol
Cases, No. 20-5210 (D.C. Cir. July 16, 2020), but the Supreme Court vacated the injunction
without addressing the merits on July 16, 2020. Barr v. Purkey, No. 20A10, 2020 WL 4006821
(U.S. July 16, 2020) (per curiam). Later that week, Defendants executed Purkey and Honken.
4. Motion to Dismiss Regarding Plaintiffs’ Eighth Amendment Claims
On July 31, 2020, Defendants filed their combined motion to dismiss and for summary
judgment. (ECF Nos. 169, 170, Defs. Mot.)
On August 15, the court granted Defendants’ motion as to the Eighth Amendment claims
in Count II of the Amended Complaint. (ECF No. 193, Aug. 15 Order.) In the light of the
Supreme Court’s ruling in Lee, the court found that, absent particular medical circumstances, the

61a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 7 of 41

use of pentobarbital would withstand Eighth Amendment scrutiny despite evidence of
excruciating pain.
5. August 27, 2020 Permanent Injunction—FDCA Claims
Given his impending execution, on August 4, 2020, Plaintiff Keith Nelson filed an
emergency cross-motion for summary judgment on the pending FDCA claims (ECF No. 180),
one of which the court had already determined was likely to succeed on the merits. (See July 15
Mem. Op. at 13.)
On August 27, 2020, the court entered judgment in favor of Nelson on Count XI of the
Amended Complaint and enjoined Defendants from proceeding with Nelson’s execution until the
government could “comply with the requirements of the [(FDCA)],” (ECF No. 213, Aug. 27
Mem. Op. at 13.) The court found that the use of pentobarbital for lethal injection was subject to
the FDCA, and that the government’s intent to use it without satisfying the FDCA’s
premarketing, labeling, and prescription requirements was unlawful. (Id. at 10.) The court
rejected Nelson’s contention that DOJ’s failure to explain its violation of the FDCA and the FDA
commissioner’s failure to bring an enforcement action were arbitrary and capricious. (Id. at 11–
12.)
Defendants immediately appealed, and the D.C. Circuit vacated the injunction on the
basis that “inter alia, there [were] insufficient findings and conclusions that irreparable injury
will result from the statutory violation found by [this] court.” Execution Protocol Cases, No. 205260 (D.C. Cir. Aug. 27, 2020) (citing eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391
(2006); Withrow v. Larkin, 421 U.S. 35, 44–45 (1975)).
On August 28, 2020, Nelson filed an emergency request for the court to clarify and/or
amend its August 27th judgment. (ECF No. 222.) After a hearing that same day, the court

62a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 8 of 41

denied Nelson’s request because he failed to demonstrate the requisite irreparable harm to
warrant injunctive relief. (ECF No. 226.) Defendants executed Nelson later that afternoon.
C. The Present Dispute
With regard to the claims in the Amended Complaint, the court has previously: (1)
dismissed Count II (Eighth Amendment violation) for failure to state a claim as to all Plaintiffs
but Norris Holder (see Aug. 15 Order); (2) granted summary judgment in favor of Defendants as
to Count X (failure to exercise enforcement authority) and the alleged FDCA violations in
Count VIII (failure to explain violations of the FDCA), (ECF No. 214); (3) denied Defendants’
motion for summary judgment as to the FDCA component of Count XI (violation of the FDCA),
(id.); and (4) entered summary judgment in favor of former Plaintiff Keith Nelson (but no other
Plaintiff) as to the FDCA component of Count XI, (id.).
Defendants argue that they are entitled to judgment as a matter of law under Fed. R. Civ.
P. 12(b)(6) on the following remaining claims in the Amended Complaint: the non-APA claims
in Counts I (Fifth Amendment Due Process violation), III (deliberate indifference), IV (access to
counsel), and VII (unconstitutional delegation of legislative power). Defendants seek summary
judgment on the APA claims in Counts V (ultra vires agency action), VI (violation of notice-andcomment rulemaking), VIII (arbitrary and capricious agency action), IX (failure to enforce the
CSA), and XI (violation of the CSA).
Defendants’ motion has been fully briefed. The remaining Plaintiffs have moved for
partial summary judgment only as to the FDCA claims in Count XI (and Count V of Plaintiff
LeCroy’s Amended Complaint). (ECF No. 236, Pls. Mot. for Partial Summ. J.)

63a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 9 of 41

II.

DISCUSSION

A. Defendants’ Motion to Dismiss for Failure to State a Claim
1. Legal Standards
A motion to dismiss under Rule 12(b)(6) for failure to state a claim “tests the legal
sufficiency of a complaint.” Browning v. Clinton, 292 F.3d 235, 242 (D.C. Cir. 2002). “To
survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A claim is plausible
when the factual content allows the court to “draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. Plaintiff’s factual allegations need not be “detailed,” but
“the Federal Rules demand more than ‘an unadorned, the-defendant-unlawfully-harmed-me
accusation.’” McNair v. District of Columbia, 213 F. Supp. 3d 81, 86 (D.D.C. 2016) (quoting
Iqbal, 556 U.S. at 678). “Threadbare recitals of the elements of a cause of action, supported by
mere conclusory statements” are insufficient. Iqbal, 556 U.S. at 678.
While a court generally does not consider matters beyond the pleadings on a motion to
dismiss, it may consider “the facts alleged in the complaint, documents attached as exhibits or
incorporated by reference in the complaint, or documents upon which the plaintiff’s complaint
necessarily relies even if the document is produced not by the plaintiff in the complaint but by
the defendant in a motion to dismiss[.]” Ward v. D.C. Dep’t of Youth Rehab. Servs., 768 F.
Supp. 2d 117, 119–20 (D.D.C. 2011) (internal quotation marks and citations omitted); see also
Equal Emp’t Opportunity Comm’n v. St. Francis Xavier Parochial Sch., 117 F.3d 621, 624 (D.C.
Cir. 1997).

64a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 10 of 41

2. Fifth Amendment Due Process—Count I
In Count I of their Amended Complaint, Plaintiffs allege that Defendants’ failure to
disclose material information regarding the development of the 2019 Protocol and the procedures
that will be used to carry out their executions deprives them of their lives and liberty without
adequate due process as guaranteed by the Fifth Amendment. (Am. Compl. ¶¶ 119, 121.) Their
claim is based on their argument that the Due Process Clause requires the government to allow
them to “determin[e] all aspects of the 2019 Protocol that violate provisions of federal law or
constitute cruel and unusual punishment.” (Id. ¶ 119.)
“The Fifth Amendment Due Process Clause protects individuals from deprivations of
‘life, liberty, or property, without due process of law.’” Atherton v. District of Columbia Office
of Mayor, 567 F.3d 672, 689 (D.C. Cir. 2009) (citing U.S. Const. amend. V). A procedural due
process violation “occurs when an official deprives an individual of a liberty or property interest
without providing appropriate procedural protections. Liberty interests arise out of the
Constitution itself or ‘may arise from an expectation or interest created by state laws or
policies.’” Id. (quoting Wilkinson v. Austin, 545 U.S. 209, 221 (2005)).
There is no question that “[b]eing deprived of life unequivocally implicates a
constitutionally protected interest.” (Am. Compl. ¶ 118 (internal quotation marks omitted);
Defs. Mot. at 22.) But Plaintiffs have already received the due process to which they are entitled
for their life interests by virtue of their criminal trials and appeals; the legality of their death
sentences is not before the court. Therefore, Plaintiffs’ life interests are not implicated in
challenging the 2019 Protocol. See Zink v. Lombardi, 783 F.3d 1089, 1109 (8th Cir. 2015) (“The
prisoners in this case already have received due process for the deprivation of their life interests:

65a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 11 of 41

They were convicted and sentenced to death after a trial in Missouri court, and their convictions
and sentences were upheld on appeal.”).
Plaintiffs’ liberty interest in disclosure fares no better. “A due process right to disclosure
requires an inmate to show a cognizable liberty interest in obtaining information about execution
protocols.” Trottie v. Livingston, 766 F.3d 450, 452 (5th Cir. 2014). Plaintiffs have not
identified a cognizable liberty interest in information about the 2019 Protocol that could lead to
potential claims. See Lewis v. Casey, 518 U.S. 343, 354 (1996) (explaining that the state need
not “enable [a] prisoner to discover grievances, and to litigate effectively once in court”). Courts
have routinely found no due process rights implicated when a death row inmate claims he has not
received enough information about an execution protocol. See, e.g., Phillips v. DeWine, 841
F.3d 405, 420 (6th Cir. 2016) (finding plaintiff had no due process right to the identity of
individuals and entities that participate in the lethal injection process); Jones v. Comm’r, Ga.
Dep’t of Corr., 811 F.3d 1288, 1292–93 (11th Cir. 2016) (quoting Wellons v. Comm’r, Ga.
Dep’t of Corr., 754 F.3d 1260, 1267 (11th Cir. 2014)) (“Neither the Fifth, Fourteenth, or First
Amendments afford [a prisoner] the broad right to know where, how, and by whom the lethal
injection drugs will be manufactured, as well as the qualifications of the person or persons who
will manufacture the drugs, and who will place the catheters.”); Zink, 783 F.3d at 1108 (8th Cir.
2015) (“The prisoners’ claim that they are unable to discover information regarding the
execution protocol is thus insufficient as a matter of law to state a due process claim.”); Trottie,
766 F.3d at 452 (finding that uncertainty regarding the effect of an execution drug was not a
“cognizable liberty interest” and, thus, did not trigger “a due process right to disclosure”); Sells
v. Livingston, 750 F.3d 478, 481 (5th Cir. 2014) (discussing id.) (“No appellate decision ha[s] yet
held that obtaining information about execution protocols was a liberty interest, which meant that

66a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 12 of 41

failing to disclose could not be a due-process violation.”); Sepulvado v. Jindal, 729 F.3d 413,
420 (5th Cir. 2013) (“There is no violation of the Due Process Clause from the uncertainty that
Louisiana has imposed [] by withholding the details of its execution protocol.”); Williams v.
Hobbs, 658 F.3d 842, 852 (8th Cir. 2011) (finding that plaintiffs’ inability to gain more
information about an execution protocol did not amount to a due process violation).
Despite the case law, Plaintiffs argue that this Circuit held otherwise in Roane v.
Leonhart, 741 F.3d 147 (D.C. Cir. 2014). The court is unpersuaded. In Roane, the D.C. Circuit
ordered that Jeffrey Paul (a plaintiff in this case) be allowed to intervene in the challenge to the
2004 Protocol, which included a due process challenge to Defendants’ refusal to disclose
execution procedures. Id. at 149, 152. In response to Defendants’ argument that the claims had
become moot since a three-drug protocol would no longer be used, the Court found that Paul’s
“due process challenge, which attack[ed] a refusal to disclosure procedures that will be used [in
the execution], is an independent claim that remains live.” Id. at 150. The court does not read
this as endorsing the claim’s merits; the D.C. Circuit was addressing only whether the due
process challenge was moot, as Plaintiffs concede in their opposition brief. 6 (See ECF No. 184,
Pls. Opp’n at 16.) Thus, Plaintiffs have not identified a case in any Circuit finding that a deathrow inmate has a due process right to disclosure of information about an execution protocol.
Plaintiffs also argue that because the BOP Director has the discretion to amend the
execution procedures, a plaintiff may not receive sufficient notice and opportunity to challenge
the manner of his execution, which is what occurred with the Lee and Purkey executions. (Am.

Plaintiffs also argue that this court’s subsequent grant of an unopposed preliminary injunction
in Roane indicates the court’s view that the due process claim was likely to succeed on the
merits. (See Pls. Opp’n at 16.) The court took no position on the merits of the due process claim
in its two-sentence order, however. (See Roane, ECF No. 336.)
6

67a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 13 of 41

Compl. ¶ 120.) But, although 28 C.F.R. § 26.4 requires the warden of the designated facility to
“notify the prisoner under sentence of death of the date designated for execution at least 20 days
in advance,” Plaintiffs can point to no case establishing a constitutionally protected interest to
sufficient notice of an execution. (Although the court has previously expressed its concern with
the government’s haste to execute Plaintiffs before their claims have been fully litigated,
ultimately, Plaintiffs have not identified a due process violation that would warrant relief on
Count I.
3. Deliberate Indifference—Count III
In Count III, Plaintiffs allege that the means of execution established in the 2019 Protocol
constitutes deliberate indifference to a substantial risk of serious harm, thereby violating the Fifth
and Eighth Amendments. (Am. Compl. ¶¶ 132–34.) They argue that Defendants have chosen to
disregard substantial risks that the 2019 Protocol will cause “severe pain and suffering, including
a sensation of drowning or asphyxiation” that creates an experience of “panic,” “terror,” and
“agony.” (Pls. Opp’n at 13 (citing ECF No. 24, Normal Decl. at 34) (internal quotation marks
omitted).) Defendants urge the court to dismiss these claims for the same reasons the court
dismissed Plaintiffs’ other Eighth Amendment claims, namely that the use of pentobarbital does
not rise to the level of cruel and unusual punishment. (Defs. Mot. at 10; ECF No. 193, Aug. 15
Order (dismissing Plaintiffs’ Eighth Amendment claims in Count II).) Having already
determined that “the use of pentobarbital will withstand Eighth Amendment scrutiny, no matter
the evidence of excruciating pain,” the court concludes that Plaintiffs’ deliberate indifference
claims similarly fail. (Aug. 15 Order at 5.)
“A prison official’s ‘deliberate indifference’ to a substantial risk of serious harm to an
inmate violates the Eighth Amendment.” Farmer v. Brennan, 511 U.S. 825, 828 (1994). To

68a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 14 of 41

state a viable deliberate indifference claim, a plaintiff must show that a prison official “knows of
and disregards an excessive risk to inmate health or safety.” Id. at 837 (noting also that prison
officials “must both be aware of facts from which the inference could be drawn that a substantial
risk of serious harms exists, and he must also draw the inference.”).
The Supreme Court has made clear that the government’s use of pentobarbital under the
2019 Protocol does not present a substantial or excessive risk of serious harm. See Lee, 2020
WL 3964985, at *1 (explaining that pentobarbital “has become a mainstay of state executions”
and “[h]as been used to carry out over 100 executions, without incident”); Zagorski v. Parker,
139 S. Ct. 11, 11–12 (2018) (Sotomayor, J., dissenting) (noting that pentobarbital does not carry
the risks of “drowning, suffocating, and being burned also from the inside out” and “is widely
conceded to be able to render a person fully insensate”). As the court already posited in
dismissing Count II of the Amended Complaint, “[s]o long as pentobarbital is widely used . . . no
amount of new evidence will suffice to prove that the pain pentobarbital causes reaches
unconstitutional levels.” (Aug. 15 Order at 4.) Absent deliberate indifference, there is no Fifth 7
or Eighth Amendment violation as presented in Count III.
To the extent Plaintiffs argue that a deliberate indifference claim is distinct from and
invokes a lower standard than “cruel and unusual punishment,” they have not shown so
convincingly. (See Pls. Opp’n at 13 (“[D]eliberate indifference need not involve torturous pain
and suffering in order to be actionable as a wrongful deprivation of appropriate medical care.”).)
Nor have they identified a case in which a court denied a method-of-execution challenge but

Plaintiffs argue that when an individual is harmed by a government agent’s deliberate
indifference, the individual has a viable Substantive Due Process claim under the Fifth
Amendment. (See Am. Compl. ¶ 129 (quoting West v. Atkins, 487 U.S. 42, 58 (1988) (Scalia, J.,
concurring).)

7

69a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 15 of 41

nonetheless upheld a deliberate indifference claim based on the same facts. Accordingly,
Count III fails to state a claim for relief.
4. Access to Counsel—Count IV
In Count IV, Plaintiffs claim that the 2019 Protocol violates their right to counsel and
access to the courts guaranteed by the First, Fifth, and Sixth Amendments. Plaintiffs argue that
because they have a constitutional right to counsel in order to assert violations of their
fundamental rights, they also have the right to have their counsel monitor the execution for
possible Eighth Amendment violations. (See Pls. Opp’n at 18–19.)
The 2019 Protocol permits up to two defense attorneys to be present as witnesses during
their client’s execution (Admin. R. at 1024), and while it does not allow witnesses to bring their
cell phones with them, an attorney “may request” the use of their phone if “legitimate need
arises,” and “will have immediate access to [a phone] outside of the witness room.” (ECF
No. 111-3, Decl. of Tom Watson, at 3.)
Plaintiffs contend that the 2019 Protocol impermissibly prohibits counsel from viewing
the setting of the IVs, from communicating with their clients during the execution, and from
having a quick and easy means of communicating with the court. (Pls. Opp’n at 19.) While
these are all serious concerns, Plaintiffs fail to show that this access is constitutionally mandated.
As Defendants note, the cases on which Plaintiffs rely are both out-of-Circuit and factually
distinct. See, e.g., Cooey v. Strickland, No. 04-cv-1156, 2011 WL 320166, at *6 (S.D. Ohio Jan.
28, 2011) (declining to decide whether the Constitution mandated that counsel be present at the
execution where Ohio law already permitted counsel to be present). Plaintiffs suggest that the
court adopt Justice Thomas’ concurrence in Lewis, 518 U.S. at 380–82 (Thomas, J., concurring),
in which he wrote that the Due Process Clause requires a right to access the courts to assert

70a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 16 of 41

violations of fundamental rights. That single concurrence, while compelling, cannot be the basis
for this court to find that Plaintiffs have stated a claim for relief.
Plaintiffs’ remaining arguments in support of their claims in Count IV are similarly
unpersuasive. First, they contend that the absence of controlling precedent and the novelty of
their claimed constitutional rights precludes the government from meeting its burden under
Rule 12(b)(6). (Pls. Opp’n at 19. (“[I]n the absence of controlling precedent. . . such novelty
precludes Defendants from demonstrating, as a matter of law, that Plaintiffs do not state a claim
for relief that is plausible on its face” (internal citations and quotation marks omitted)).) The
court declines Plaintiffs’ invitation to find the lack of supporting precedent to be grounds upon
which to stake a claim.
Finally, Plaintiffs also argue that Defendants’ decision to utilize the 2019 Protocol during
the COVID-19 pandemic infringes their right to counsel by forcing counsel to risk their own
health and safety to attend Plaintiffs’ executions. As the court has already explained however,
these problems are not the result of the 2019 Protocol, or indeed any of Defendants’ actions, but
of the pandemic itself. (July 15 Mem. Op. at 14.) Furthermore, these claims closely resemble
the pandemic-related claims brought by spiritual advisors and family members in separate
litigation, and which were rejected by the courts. See Hartkemeyer v. Barr, No. 20-cv-336 (S.D.
Ind. July 14, 2020), ECF No. 84 (denying preliminary injunction based on APA and Religious
Freedom Restoration Act claims), appeal filed, No. 20-2262 (7th Cir. July 14, 2020); Peterson v.
Barr, No. 20-2252, 2020 WL 3955951 (7th Cir. July 12, 2020) (vacating preliminary injunction
based on APA claims).
Accordingly, Count IV of the Amended Complaint will be dismissed.

71a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 17 of 41

5. Unconstitutional Delegation of Power—Count VII
In Count VII, Plaintiffs argue that if the court finds that § 3596 of the FDPA authorizes
the Attorney General to establish a federal execution protocol, “then the statute has failed to
provide an intelligible principle” which constitutes “a forbidden delegation of legislative power.”
(Am. Compl. ¶ 158 (quoting J.W. Hampton, Jr., & Co. v. United States, 276 U.S. 394, 409
(1928) (internal quotation marks omitted).) In support of this argument, Plaintiffs detail
Congress’s repeated refusal to pass laws expressly granting the Attorney General authority to
develop a federal execution protocol. (See Pls. Opp’n at 22–25.)
Plaintiffs fail to state a claim for unconstitutional delegation power. First, “failed
legislative proposals are a particularly dangerous ground on which to rest an interpretation of a []
statute.” Execution Protocol Cases, 955 F.3d at 122 (Katsas, J., concurring) (quoting Cent. Bank
of Denver, N.A. v. First Interstate Bank of Denver, N.A., 511 U.S. 164, 187 (1994)).
More fundamentally, the statute itself cannot fairly be read as lacking an intelligible
principle. As Plaintiffs note, a “nondelegation inquiry always begins (and often almost ends)
with statutory interpretation.” Gundy v. United States, 139 S. Ct. 2116, 2123 (2019). And in the
last hundred years, the Supreme Court has “found the requisite ‘intelligible principle’ lacking in
only two statutes, one of which provided literally no guidance for the exercise of discretion, and
the other of which conferred authority to regulate the entire economy on the basis of no more
precise a standard than stimulating the economy by assuring ‘fair competition.’” Whitman v.
Am. Trucking Ass’ns, 531 U.S. 457, 474 (2001) (citing Panama Refin. Co. v. Ryan, 293 U.S. 388
(1935); A.L.A. Schechter Poultry Corp. v. United States, 295 U.S. 495 (1935)); see also Keith E.
Whittington & Jason Iuliano, The Myth of the Nondelegation Doctrine, 165 U. Penn. L. Rev.
379, 380 (2017) (describing a “predictable pattern” in nondelegation doctrine cases whereby a

72a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 18 of 41

court invokes the doctrine and the Supreme Court “inevitably grants certiorari and overturns the
appellate decision”).
Here, the FDPA delivers sufficient guidance. It provides that the U.S. Marshal “shall
supervise implementation of the sentence in the manner prescribed by the law of the State in
which the sentence is imposed.” 18 U.S.C. § 3596(a). In this sentence alone, Congress vested
the U.S. Marshal with authority to oversee an execution and constrains the exercise of that
authority to the limits of relevant state law. This is far different from the two cases where
Congress failed to supply an intelligible principle.
B. Defendants’ Motion for Summary Judgment
1. Legal Standards
“When reviewing motions for summary judgment in a suit seeking review of an agency’s
actions, the standard under Fed. R. Civ. P. 56(a) does not apply.” Beyond Nuclear v. U.S. Dep’t
of Energy, 233 F. Supp. 3d 40, 47 (D.D.C. 2017) (citing Coe v. McHugh, 968 F. Supp. 2d 237,
239 (D.D.C. 2013)). Rather, the court must set aside any agency action that is “arbitrary,
capricious, an abuse of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2).
The court’s review is “highly deferential” and begins with a presumption that the agency’s
actions are valid. Envt’l. Def. Fund, Inc. v. Costle, 657 F.2d 275, 283 (D.C. Cir. 1981). The
court is “not empowered to substitute its judgment for that of the agency,” Citizens to Pres.
Overton Park, Inc. v. Volpe, 401 U.S. 402, 416 (1971), but instead must consider only “whether
the agency acted within the scope of its legal authority, whether the agency has explained its
decision, whether the facts on which the agency purports to have relied have some basis in the
record, and whether the agency considered the relevant factors,” Fulbright v. McHugh, 67 F.

73a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 19 of 41

Supp. 3d 81, 89 (D.D.C. 2014) (quoting Fund for Animals v. Babbitt, 903 F. Supp. 96, 105
(D.D.C. 1995)).
2. Arbitrary and Capricious—Count VIII
In Count VIII, Plaintiffs allege that the DOJ and BOP have not provided sufficient
explanations for: the adoption of the 2019 Protocol and the procedures contained therein; the use
of pentobarbital as an execution drug; the failure to comply with applicable laws, including the
CSA and FDCA8; and the absence of safeguards to prevent the significant risk of pain and
suffering from acute pulmonary edema and the use of sub-potent or improperly compounded
drugs. (Am. Compl. ¶ 163.) Thus, they contend, the 2019 Protocol was not the product of
reasoned decision-making and constitutes arbitrary and capricious agency action in violation of
the APA. (Id. ¶ 164.) But the record before the court does not support these arguments.
The record shows that the BOP explained how it arrived at the details and procedures set
forth in the 2019 Protocol. (See Admin. R. at 929–34.) It explained that it needed a new
protocol because the availability of sodium pentothal, a drug used in its previous protocol, had
declined. (Admin. R. at 930.) It then “benchmarked with state practices, reviewed case law,
consulted with medical professionals, and reviewed available professional literature.” (Id.) It
concluded that pentobarbital was frequently used for lethal injections, was “litigation tested,” and
achieved “a deeper level of unconsciousness” than other contenders. (Id. at 931, 932.)
Furthermore, it settled on a one-drug, rather than three-drug, protocol for three reasons: i) “there
are complications inherent in obtaining multiple drugs (availability obstacles) and navigating the
respective expiration dates”, ii) “acquiring and storing one drug is administratively more

The court has already found that DOJ and BOP’s failure to explain non-compliance with the
FDCA requirements did not violate the APA.
8

74a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 20 of 41

efficient”, and iii) “administering one drug reduced the risk of errors during administration.” (Id.
at 931.) The record also indicates that the BOP consulted with medical professionals and
reviewed expert testimony to assess the safety of pentobarbital. (See id. at 401–524, 527–761.)
Finally, the BOP explained that it “secured a compounding pharmacy to store the API [(active
pharmaceutical ingredient)] and to convert the API into injectable form as needed . . . [and]
conferred with DEA to ensure the compounding pharmacy is properly registered.” (Id. at 933.)
Although an agency can always provide more explanation for its actions, the record here
is sufficient to fend off a challenge that the adoption of the 2019 Protocol was not the product of
rational decision-making. And, at the very least, the record dispenses with the contention that
the DOJ and BOP failed to provide “any explanation for their planned used of pentobarbital as an
execution drug.” (Am. Compl. ¶ 163 (emphasis supplied).)
Plaintiffs’ opposition brief makes clear that the crux of Count VIII is the BOP’s alleged
failure to consider the risk of flash pulmonary edema, the risk of faulty IV placement, and the
dangers of using a compounded drug, but these arguments have already been litigated and
rejected. While the Protocol “does not discuss the risk of flash pulmonary edema specifically,
the BOP need not consider every possible risk associated with its chosen method of execution.”
Execution Protocol Cases, No. 20-5206, slip op. at 2 (D.C. Cir. July 17, 2020). And the BOP’s
analysis was enough to pass muster under the arbitrary and capricious standard. Id. As for the
risk of faulty IV placement, both this court and the D.C. Circuit concluded that the BOP had in
fact studied “the difficulties of IV-line placement” and that its decision “to allow medically
trained personnel to determine how best to place the IV line was [not] unreasonable.” Id. (citing
Admin. R. at 931–32); (July 15 Mem. Op at 9.) Finally, the court has already found that, under
Supreme Court precedent, the BOP’s decision to use a compounded form of pentobarbital where

75a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 21 of 41

domestic supplies are unavailable was not arbitrary or capricious. (July 15 Mem. Op. at 9 (citing
Bucklew v. Precythe, 139 S. Ct. 1112, 1125 (2019).)
Plaintiffs efforts to revive these arguments are unavailing. They argue that while this
court denied a request for a preliminary injunction on their arbitrary and capricious claim, it did
not resolve their claim “that the 2019 Protocol and the accompanying Administrative Record
lack adequate explanations for the challenged policy decision.” (Pls. Opp’n at 27.) The court
fails to see how its conclusion that none of these allegations rose “to the level of arbitrariness or
capriciousness for an APA violation” leaves anything left to be decided on this issue. (July 15
Mem. Op. at 8.)
In their sole remaining claim in Count VIII, Plaintiffs allege that the government acted
arbitrarily and capriciously in failing to discuss its non-compliance with the CSA. (Am. Compl.
¶ 172.) Defendants are entitled to summary judgment here because, as discussed below, there is
no CSA violation.
3. Ultra Vires Agency Action—Count V
In Count V of their Amended Complaint, Plaintiffs allege that the 2019 Protocol
constitutes ultra vires agency action in violation of § 3596(a) of the FDPA. 9 That provision
requires that in carrying out a death sentence, “the Attorney General shall release the person
sentenced to death to the custody of a United States marshal, who shall supervise implementation

In Count V, Plaintiffs also allege that Defendants’ development of the Protocol without
requisite authority violates the Take Care Clause of the U.S. Constitution. But Plaintiffs did not
respond to Defendants’ summary judgment argument on this claim, and therefore appear to have
abandoned it. In any event, it is not clear that the Take Care Clause claim presents a justiciable
controversy. See Citizens for Responsibility & Ethics in Wash. v. Trump, 302 F. Supp. 3d 127,
138–40 (D.D.C. 2018). And even assuming such a claim is justiciable, the one presented in the
Amended Complaint is another iteration of Plaintiffs’ improper delegation claim, which the court
finds unavailing.
9

76a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 22 of 41

of the sentence in the manner prescribed by the law of the State in which the sentence is
imposed.” 18 U.S.C. § 3596(a). Plaintiffs argue that the Protocol conflicts with this directive
because it “implement[s] a protocol that differs in material respects from the applicable states.”
(Am. Compl. ¶ 146.) Furthermore, in their view, the Protocol does not require a U.S. Marshal to
supervise the implementation of a death sentence—that responsibility, they contend, has been
impermissibly delegated to the BOP. (Id. ¶ 147.)
Defendants argue that the claims in Count V have already been rejected by the D.C.
Circuit, which directed that judgment be entered in Defendants’ favor on these issues. (Defs.
Mot. at 31.) This contention is unsupported by the record. In its November 2019 order granting
a preliminary injunction, the court found that Plaintiffs were likely to succeed on the merits of
their claim that the 2019 Protocol exceeds statutory authority. In so concluding, it found that
“the FDPA gives decision-making authority regarding ‘implementation’” of federal death
sentences to states, and therefore, to the extent the Protocol creates a single procedure, “it is not
authorized by the FDPA.” (ECF No. 50, Nov. 20 Mem. Op. at 7, 12.) It also posited that the
requirement that executions be carried out “in the manner prescribed” by state law referred to
both the selection of the execution method and the procedures utilized during the execution.
Two Judges on the D.C. Circuit rejected this interpretation and directed the entry of
judgment on the “primary FDPA claim,” i.e. that the Protocol contravenes the FDPA
requirement that executions be implemented in accordance with the execution procedures of the
state where the inmate was sentenced. Execution Protocol Cases, 955 F.3d at 112. However,
those Judges took different paths to that conclusion. Judge Katsas concluded that the FDPA
“regulates only the top-line choice among execution methods, such as the choice to use lethal
injection instead of hanging or electrocution.” Id. But Judge Rao found that the FDPA requires

77a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 23 of 41

the government “to follow execution procedures set forth in state statutes and regulations, but not
execution procedures set forth in less formal state execution protocols.” Id. She also concluded
that because the 2019 Protocol allows the government to depart from its procedures to comply
with state statutes and regulations, it did not run afoul of the FDPA. Id.
Judge Tatel, in dissent, agreed with this court’s assessment and found that “section
3596(a), best understood, requires federal executions to be carried out using the same procedures
that states use to execute their own prisoners—procedures set forth not just in statutes and
regulations, but also in protocols issued by state prison officials pursuant to state law.” Id.
at 146. Judge Tatel addressed Defendants’ complaint that this result would require it to follow
every nuance of the state protocols, writing that “section 3596(a) requires the federal government
to follow only ‘implementation’ procedures, which plaintiffs define as those procedures that
‘effectuat[e] the death,’ including choice of lethal substance, dosages, vein-access procedures,
and medical personnel requirements.” Id. at 151 (internal citations omitted).
In light of this plurality decision, the court cannot grant summary judgment as to all the
claims in Count V. Plaintiffs correctly point out that the panel did not issue a precedential
opinion on two additional arguments: i) whether the 2019 Protocol illegally delegates authority
to the BOP that rightfully belongs to the U.S. Marshal; and ii) whether the 2019 Protocol
conflicts with the manner of execution prescribed by the “law” of each relevant state involved
here, which the controlling opinion (Judge Rao’s) defines as the relevant state’s statutes and
formal regulations. (See Pls. Opp’n at 32.) Thus, the court must once again enter the thicket.

78a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 24 of 41

i.

The U.S. Marshal’s Authority to “Supervise”

Plaintiffs’ claim that the 2019 Protocol improperly assigns the U.S. Marshal’s authority
to the BOP fails as a matter of law. 10 In Plaintiffs’ view, the BOP has usurped from the Marshal
the “primary authority to determine the manner of federal executions,” which includes the
authority to “formulate” an execution protocol, to “select” which drugs are used, and to “order
execution personnel to depart from the established procedures.” (Pls. Opp’n at 33.) This
argument finds no support in the text of the FDPA.
Section 3596 requires that the U.S. Marshal “supervise implementation” of the death
sentence. The critical word here is “supervise,” 11 which is undefined in the statute. The court
must therefore rely on its plain meaning. “To ‘supervise’ is to ‘superintend’ or ‘oversee,’” but
not to “formulate,” “determine,” or “select” the manner of federal execution. Execution Protocol
Cases, 955 F.3d at 134 (Rao, J., concurring) (citing Supervise, Merriam Webster’s Collegiate
Dictionary (11th ed. 2014)); (see also Pls. Opp’n at 33.)
Statutory history supports the conclusion that “supervise” does not mean the U.S.
Marshal has the exclusive authority to carry out federal executions or to institute procedures for
doing so. In prior death penalty statutes, Congress used more expansive language in describing
the U.S. Marshal’s duties during an execution. For instance, in the 1937 version, Congress
provided that the U.S. Marshal was “charged with the execution of the sentence.” See 50 Stat. at
Judge Katsas previously found this claim unconvincing on the merits. Judge Rao found that,
because Plaintiffs did not raise the issue before this court in the preliminary injunction briefing, it
was waived on appeal. But, as Defendants acknowledge, Judge Rao’s opinion did “not
substantively address the question.” (ECF No. 191, Defs. Reply at 17.)

10

As Judge Rao explained in her concurrence, “[t]he ordinary meaning of ‘implementation of the
sentence’ includes more than ‘inflicting the punishment of death.’” Execution Protocol Cases,
955 F.3d at 133 (Rao, J., concurring); (see infra at 29.) Neither party has advanced an alternative
meaning of the term “implementation.” (See Pls. Opp’n at 33.)

11

79a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 25 of 41

304. This language is more akin to the dominant role Plaintiffs ascribe, or at least, leaves room
for Plaintiffs’ interpretation.
The 2019 Protocol does not divest the U.S. Marshal of this supervisory authority. In fact,
it mandates that the U.S. Marshal is to “oversee the execution and to direct which other
personnel may be present at it.” In Re Fed. Bureau of Execution Protocol Cases, 955 F.3d at 124
(Katsas, J.) (referencing Admin. R. at 885). The execution cannot begin without the Marshal’s
approval, and it is the Marshal who certifies that the execution has been carried out. Id.
(referencing Admin. R. at 895, 899). The court therefore concludes that the U.S. Marshal
supervises—i.e., oversees and superintends over—the execution.
Furthermore, the fact that the U.S. Marshal must supervise an execution does not
preclude other DOJ components from participating. Indeed “all functions of agencies and
employees of the Department of Justice”—of which both the Marshals Service and the BOP are
parts—“are vested in the Attorney General.” Thus, any authority inherent in the Attorney
General’s power to enforce a death sentence that has not been specifically assigned to a DOJ
component may be delegated. See 28 U.S.C. §§ 509, 510; United States v. Giordano, 416 U.S.
505, 514 (1974) (finding unexceptional the proposition that the Attorney General may freely
delegated his power where Congress does not say otherwise). 12
The 2019 Protocol, as written, still provides the U.S. Marshal the power to supervise the
implementation of a death sentence. Therefore, the court finds that the 2019 Protocol does not

Defendants takes this argument a step further and argue that even if the supervisory authority
granted to U.S. Marshal includes the authority to develop execution procedures, the Attorney
General may freely reassign that power to another DOJ component. See Execution Protocol
Cases, 955 F.3d at 125. The court need not resolve this argument, having already concluded that
the Protocol does not divest the Marshal of supervisory duties.

12

80a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 26 of 41

improperly delegate authority to the BOP. The government is entitled to summary judgment as
to this aspect of Count V.
ii.

Relevant State Statutes and Regulations

Defendants argue that there are no surviving claims in Count V. The court disagrees.
The D.C. Circuit’s opinion leaves two remaining scenarios which preclude the court from
granting summary judgment as to Count V without further discussion. The first arises when the
Protocol conflicts with a state’s top-line method of execution such as lethal injection,
electrocution, etc. All three Circuit Judges agreed that this would violate the FDPA. See
Execution Protocol Cases, 955 F.3d at 112 (“Judge Katsas concludes that the FDPA regulates
only the top-line choice among execution methods . . . [while] Judge Rao concludes that the
FDPA also requires the federal government to follow execution procedures set forth in state
statutes and regulations.”); id. at 146 (Tatel, J., dissenting) (“I agree with Judge Rao that the term
‘manner’ refers to more than just general execution method . . . section 3596(a), best understood,
requires federal executions to be carried out using . . . procedures set forth not just in [state]
statutes and regulations, but also in protocols issued by state prison officials.”). The second is
when the Protocol conflicts with a state statute or regulation, which Judges Rao and Tatel agreed
would violate the FDPA.
Plaintiffs point to three state statutes which they allege conflict with the Protocol’s “topline method” of execution. Whereas the Protocol specifies that Plaintiffs are to be executed by
lethal injection, South Carolina (where Plaintiff Fulks was sentenced) and Virginia (where
Plaintiffs Tipton, Johnson, and Roane were sentenced) allow inmates to choose between
execution by lethal injection or electrocution. S.C. Code. § 24-3-530(A); VA Code Ann. § 53.1-

81a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 27 of 41

234. Missouri law (where Plaintiff Holder was sentenced) allows for execution by either lethal
injection or lethal gas. Mo. Rev. Stat. § 546.720.1.
The court asked Defendants to file a notice indicating whether they were prepared to
deviate from the procedures of the 2019 Execution Protocol to accommodate these statutes.
(Minute Order, Sept. 14, 2020.) In that notice, Defendants stated that “the government will not
execute any plaintiff whose sentence was issued in federal court in Virginia or South Carolina
and is subject to the FDPA without complying with those provisions of S.C. Code § 24-3-530(A)
or Va. Code Ann. § 53.1-234.” (ECF No. 247, Defs. Notice at 5.) And while Missouri has a law
on the books that allows an inmate to be executed by lethal gas, the choice of which method to
use does not appear to rest with the inmate as it does in South Carolina and Virginia. See Mo.
Rev. Stat. § 546.720.1. Thus, the court is satisfied that there is no live controversy as to the
alleged discrepancies between the 2019 Protocol and the relevant South Carolina, Virginia, and
Missouri laws. See Nat’l Black Police Ass’n v. District of Columbia, 108 F.3d 346, 349 (D.C.
Cir. 1997) (en banc) (“Even where litigation poses a live controversy when filed . . . a federal
court [must] refrain from deciding it if events have so transpired that the decision will neither
presently affect the parties’ rights nor have a more-than-speculative chance of affecting them in
the future” (internal citations and quotation marks omitted)).
Beyond the state laws discussed above, Plaintiffs have identified the following state
statutes and regulations that conflict with the 2019 Protocol:
•

A Georgia statute (applicable to Plaintiffs Battle and LeCroy) requiring the
presence of “two physicians to determine when death supervenes.” Ga. Code §
17-10-41.

•

An Arkansas statute (applicable to Plaintiff Paul) requiring “[c]atheters, sterile
intravenous solution, and other equipment” used in executions “be sterilized and
prepared in a manner that is safe and commonly performed in connection with
the intravenous administration of drugs of that type.” Ark. Code § 5-4-617(f).

82a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 28 of 41

•

An Arkansas statute (applicable to Plaintiff Paul) requiring execution drugs to be
(1) FDA-approved, (2) obtained from an FDA-registered facility, or (3) obtained
from a nationally accredited compounding pharmacy. Ark. Code § 5-4-617(d).

•

A Texas statute (applicable to Plaintiffs Bernard, Bourgeois, Hall, Robinson, and
Webster) mandating that executions shall take place “at any time after the hour of
6 p.m. on the day set for the execution.” Tex. Code of Crim. Proc. Art. 43.14(a).

The D.C. Circuit’s prior decision in this litigation requires Defendants to adhere to these
statutes. As Judge Rao wrote, while “formal state law often specifies little more than the method
of execution, the federal government is nonetheless bound by the FDPA to follow the level of
detail prescribed by state law.” Execution Protocol Cases, 955 F.3d at 133. Judge Tatel found
that the FDPA “best understood, requires federal executions to be carried out using . . .
procedures set forth not just in [state] statutes and regulations, but also in protocols issued by
state prison officials.” Id. at 146.
In responding to Plaintiff LeCroy’s motion for a preliminary injunction and in its
September 15 notice to the court, Defendants advance a narrower reading of Judge Rao’s opinion
and a more expansive one of Judge Tatel’s. (See Defs. Opp’n to LeCroy Mot. at 16–17; see also
Defs. Notice at 2.) Pointing to a Seventh Circuit opinion, Defendants contend that Judge Rao’s
interpretation of the FDPA is limited to state laws and regulations governing procedures for
effectuating death. (Id. at 17). In the Seventh Circuit’s view, the debate among the D.C. Circuit
Judges “was limited to state laws, regulations, and protocols governing procedures for
effectuating death.” Peterson v. Barr, 965 F.3d 549, 554 (7th Cir. 2020) (discussing Execution
Protocol Cases, 955 F.3d at 122); see also United States v. Mitchell, No. 20-9909, 2020 WL
4815961 (9th Cir. Aug. 19, 2020) (adopting the Seventh Circuit’s reading of Execution Protocol
Cases, 955 F.3d at 122). The court is not bound by other Circuits’ interpretation of D.C. Circuit

83a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 29 of 41

precedent and cannot square their limited reading with the language in either Judge Rao or Judge
Tatel’s opinions.
For instance, in discussing her understanding of the word “implementation,” Judge Rao
explained that “the ordinary meaning of ‘implementation of the death sentence’ includes more
than ‘inflicting the punishment of death’ . . . [it includes] additional procedures involved in
carrying out the sentence of death.” Execution Protocol Cases, 955 F.3d at 133 (“the term
‘implementation’ is commonly used to refer to a range of procedures and safeguards surrounding
executions”). She also explained that such “implementation” would include details such as the
time, date, place, and method of execution, all of which can fairly be read to include the state
statutes Plaintiffs have identified. Id. at 134 (quoting Implementation of Death Sentences in
Federal Cases, 58 Fed. Reg. 4,898, 4,901–02 (Jan. 19, 1993)).
Similarly, Defendants read Judge Tatel’s opinion as acknowledging that the FDPA
incorporates “only those state procedures ‘that effectuate death,’ such as ‘choice of lethal
substances, dosages, vein-access procedures, and medical-personnel requirements,’” which apply
to protocols as well as statutes and regulations. (Defs. Opp’n to LeCroy Mot. at at 6–7 (citing
Execution Protocol Cases, 955 F.3d at 151).) The court does not share this expansive
interpretation; in its view, Judge Tatel was responding to Defendants’ contention that his reading
would require it to follow “every nuance of state protocols.” Execution Protocol Cases, 955
F.3d at 151 (emphasis supplied) (internal quotation marks omitted). Judge Tatel’s dissent did not
address whether this type of de minimis exception applied to state statutes and regulations. See
id.
Even if the court agreed with Defendants’ broad reading of Judge Tatel’s dissent, all the
state statutes Plaintiffs have cited in their opposition involve procedures that effectuate death.

84a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 30 of 41

The Georgia statute requiring two physicians to certify when death supervenes was no doubt
enacted to ensure that death has been effectuated. Furthermore, that statute, as well as the
Arkansas laws, are the types of procedures Judge Tatel found effectuate death. See id. (citing
“choice of lethal substances, dosages, vein access-procedures, and medical-personnel
requirements” as examples). Finally, the Texas statute governs when death is to be effectuated
and prevents the state from rescheduling an execution after normal court hours despite the
pendency of any remaining legal challenges and without providing notice to the prisoners’
attorneys—as was the case with the Lee execution.
Despite these findings, the court nonetheless concludes that Defendants are entitled to
summary judgment as to the alleged discrepancies between the 2019 Protocol and state law.
Defendants state that they intend to comply with Georgia’s requirement that two physicians be
present at the execution to determine when death supersedes. (Defs. Notice at 2); Ga. Code § 1710-41. They also state that they intend to comply with the sterilization requirements set forth in
§ 5-4-617(f) of the Arkansas Code. (Defs. Notice at 4.) Furthermore, as Defendants point out,
there is no violation of Arkansas Code § 5-4-617(d), as the government will be using a
pentobarbital solution obtained from an FDA-registered facility. (See Admin. R. at 1084; ECF
No. 36-1, Decl. of Raul Campos ¶ 3.)
With regard to the scheduling requirements in Texas criminal procedure code Article
43.14, Defendants proffer that “BOP will consider, and may choose to accommodate, the request
of any Plaintiff sentenced by a federal court in Texas who wishes to have an execution scheduled
for after 6p.m.” as an “administrative grace.” (Defs. Notice at 3–4 (emphasis supplied).) Putting
aside the question of whether agreeing to execute an inmate after 6 p.m. can be characterized as
an act of “grace,” Defendants must comply with the Texas provision because it is incorporated

85a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 31 of 41

into the FDPA by virtue of D.C. Circuit precedent. See Execution Protocol Cases, 955 F.3d at
133 (Rao, J., concurring) (“[T]he federal government is [] bound by the FDPA to follow the level
of detail prescribed by state law.”).
Nevertheless, the court does not see a controversy here. Christopher Vialva is the only
plaintiff sentenced to death in Texas with a scheduled execution date. The court is unaware that
he has requested to be executed after 6 p.m. And even if that request has been made and the
BOP denied it, it is unlikely this would constitute irreparable harm. To warrant injunctive relief,
a plaintiff must demonstrate, inter alia, that he will “suffer[] an irreparable injury, eBay Inc. v.
MercExchange, L.L.C., 547 U.S. 388, 391 (2006), which must be “both certain and great” and
“of such imminence that there is a clear and present need for equitable relief to prevent
irreparable harm,” Wis. Gas Co. v. F.E.R.C., 758 F.2d 669, 674 (D.C. Cir. 1985; (see infra Sec.
C.) The court understands the concern that “[t]he ability to schedule an execution at any time of
day or night” would allow “Defendants to reschedule and carry out . . . executions almost
immediately after the expiration or vacatur of a stay, despite the pendency of additional legal
challenges, and with or without notice to the prisoners’ attorneys.” (Pls. Opp’n at 37.) This is
injury is far from “certain,” however.
Though the court disagrees with Defendants’ interpretation of the D.C. Circuit’s decision
in Execution Protocol Cases, it nonetheless finds that, based on the record before it, Defendants
are entitled to summary judgment as to all the claims in Count V.
4. Notice-and-Comment Rulemaking—Count VI
Two Judges of this Circuit have already found that the 2019 Protocol is a procedural rule
and thus not subject to the notice-and-comment procedures of the APA. Execution Protocol

86a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 32 of 41

Cases, 955 F.3d at 112, 144–45; (see also ECF No. 209, Order on Mot. to Strike at 2.)
Accordingly, Defendants are entitled to summary judgment on Count VI.
5. CSA Claims—Counts VIII, IX, and XI
Plaintiffs contend that the 2019 Protocol violates the Controlled Substances Act because
it does not require Defendants to obtain a valid written prescription for the pentobarbital it will
use to execute them. See 21 U.S.C. § 829(a) (requiring valid prescription, issued for a legitimate
medical purpose, in dispensing any controlled substance to an “ultimate user”); 21 C.F.R.
§ 1308.12 (listing pentobarbital as a Schedule II controlled substance).
Plaintiffs’ CSA claims fail under the Supreme Court’s decision in Gonzales v. Oregon,
546 U.S. 243, 272–74 (2006), in which the Court held that the CSA is primarily “a statute
combating recreational drug use,” and must be read in light of that statutory purpose. Id. at 272.
In ruling on a challenge to the use of Schedule II controlled drugs for physician assisted suicide,
the Court found that “the prescription requirement is better understood as a provision that
ensures patients use controlled substances under the supervision of a doctor so as to prevent
addiction and recreational abuse. . . . To read prescriptions for assisted suicide as constituting
‘drug abuse’ under the CSA is discordant with the phrase’s consistent use throughout the
statute.” Id. at 274. This holding appears to exclude from the CSA dispensing lethal injection
drugs during an execution. Accordingly, Defendants are entitled to summary judgment on
Counts VIII, IX, and the CSA claims in Count XI.
C. Plaintiffs’ Partial Motion for Summary Judgment—Count XI
For the reasons set forth in its August 27, 2020 Memorandum Opinion, the court finds
that the remaining Plaintiffs are entitled to summary judgment as to the FDCA claims in

87a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 33 of 41

Count XI. (See generally Aug. 27 Mem. Op.) 13 To recapitulate, the court found that the
pentobarbital the government intends to use in executions is subject to the FDCA and fails to
meet the premarketing, labeling, and prescription requirements therein. Thus, the government’s
use, under the 2019 Protocol, of pentobarbital that has not been prescribed and does not meet
other statutory requirements of the FDCA constitutes agency action that is contrary to law in
violation of the APA.
1. Standard for Irreparable Harm
Given these statutory violations, Plaintiffs ask the court to enjoin their executions. (Pls.
Mot. for Partial Summ. J. at 1.) “A finding of a statutory violation does not automatically
require the court to issue an injunction.” Mylan Pharm., Inc. v. Shalala, 81 F. Supp. 2d 30,
(D.D.C. 2000) (citing Weinberger v. Romero–Barcelo, 456 U.S. 305, 313 (1982) (“The grant of
jurisdiction to ensure compliance with a statute hardly suggests an absolute duty to [enjoin the
conduct] under any and all circumstances, and a federal judge sitting as chancellor is not
mechanically obligated to grant an injunction for every violation of law.”)). To merit injunctive
relief, Plaintiffs must show that: (i) they have “suffered an irreparable injury”; (ii) remedies
available at law, such as monetary damages, are inadequate to compensate them for their injury;
(iii) “considering the balance of hardships between the plaintiff and defendant, a remedy in
equity is warranted”; and (iv) “the public interest would not be disserved by a permanent
injunction.” See eBay Inc, 547 U.S. at 391.
Having already found that Plaintiffs are entitled to summary judgment as to the FDCA
claims in Count XI, the cornerstone here is irreparable injury. It well established that the burden

Accordingly, Plaintiff LeCroy is entitled to summary judgment as to the FDCA claims in
Count V of his Amended Complaint.

13

88a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 34 of 41

of demonstrating irreparable injury lies with the movant. See id. This presents a “very high
bar.” Beck v. Test Masters Educ. Servs. Inc., 994 F. Supp. 2d 98, 101 (D.D.C. 2014) (quoting
Coal. for Common Sense In Gov’t Procurement v. United States, 576 F. Supp. 2d 162, 168
(D.D.C. 2008)). 14 The injury must be “both certain and great” and “of such imminence that there
is a clear and present need for equitable relief to prevent irreparable harm.” Wis. Gas Co., 758
F.2d at 674.
In their most recent pleadings, Plaintiffs appear to push back against the standard
articulated for irreparable harm by the D.C. Circuit in Wisconsin Gas and similar cases. See,
e.g., League of Women Voters of U.S. v. Newby, 838 F.3d 1, 7–8 (D.C. Cir. 2016) (quoting
Chaplaincy of Full Gospel Churches v. England, 454 F.3d 290, 297 (D.C. Cir. 2006)) (“The
party seeking a preliminary injunction must make two showings to demonstrate irreparable harm
. . . the harm must be ‘certain and great,’ ‘actual and not theoretical,’ and so ‘imminen[t] that
there is a clear and present need for equitable relief.’”). For instance, Plaintiff Norris Holder
identifies language from the Supreme Court’s Monsanto decision which suggests that the threat
of a future irreparable injury need only be likely, not certain, to warrant injunctive relief. (ECF
No. 249, Holder Reply at 2 (citing Monsanto Co. v. Geerston Seed Farms, 561 U.S. 139, 162

The court is not confined to the administrative record in assessing irreparable harm. See Eco
Tour Adventures, Inc. v. Zinke, 249 F. Supp. 3d 360, 369 n.7 (D.D.C. 2017) (citing Esch v.
Yeutter, 876 F.2d 976, 991 (D.C. Cir. 1989)) (“[E]xtra-record evidence may be used ‘in cases
where relief is at issue.’”). This is because “[t]he issue of injunctive relief is generally not raised
in administrative proceedings below and, consequently, there will usually be no administrative
record developed on these issues.” Id. (citing Steven Sark & Sarah Wald, Setting No Records:
The Failed Attempts to Limit the Record in Review of Administrative Actions, 36 Admin. L. Rev.
333, 345 (1984)) (internal quotations marks omitted). In fact, “it will often be necessary for a
court to take new evidence to fully evaluate claims of irreparable harm.” Id. (internal quotations
marks omitted).

14

89a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 35 of 41

(2010) (noting that a permanent injunction “guard[s] against a[] present or imminent risk of
likely irreparable harm”)).)
The court does not find that Monsanto clearly resolves that question because elsewhere in
the same decision, the Supreme Court explained that the “respondents cannot show that they will
suffer irreparable injury if [the challenged agency agency] was allowed to proceed.” Monsanto,
561 U.S. at 162 (emphasis supplied); see also Ctr. for Bio. Diversity v. Ross, 2020 WL 4816458,
at *10 (D.D.C. Aug. 19, 2020) (noting the inconsistency in the Supreme Court’s articulation of
the irreparable standard in Monsanto). To be sure, the Supreme Court has used similar language
in other cases. See, e.g., Winter v. NRDC, 555 U.S. 7, 20 (2008) (“A plaintiff seeking a
preliminary injunction must establish that . . . he is likely to suffer irreparable harm in the
absence of preliminary relief.”). But even assuming Monsanto means a “likelihood” standard of
irreparable harm is distinct from a “certainty” standard, it does not matter which standard the
court applies in this case. Even under the likelihood of future irreparable harm standard,
Plaintiffs do not meet their burden to warrant the extraordinary relief of an injunction.
2. Alleged Injury
While it is certainly true that death is irreparable, it is not the government’s violation of
the FDCA that would cause this injury. Plaintiffs’ death sentences were imposed after trials and
their convictions and sentences have been affirmed on appeal.
Rather, Plaintiffs allege that they will face health risks from the use of a drug that has not
been certified to ensure a humane death. (See ECF No. 248, Pls. Reply in Supp. of Pls Mot. for
Partial Summ. J. at 3 (characterizing their injury as “the lack of FDCA-required clinical
oversight that would require pentobarbital to be administered in a manner . . . that minimizes the
well-documented risk of suffering from the conscious experience of flash pulmonary edema”).)

90a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 36 of 41

As an initial matter, it is not apparent how securing a prescription would eliminate this
alleged harm. Assuming the BOP finds a doctor to write a prescription, Plaintiffs will still be
executed using pentobarbital. Thus, the prescription requirement does not in and of itself ensure
that Plaintiffs will not be protected from flash pulmonary edema during their executions.
More fundamentally, while the court continues to be concerned at the possibility that
inmates will suffer excruciating pain during their executions, Plaintiffs have not established that
flash pulmonary edema is “certain” or even “likely” to occur before an inmate is rendered
insensate.
The record contains conflicting evidence as to whether pentobarbital can cause flash
pulmonary edema before an inmate is rendered unconscious. For instance, Plaintiffs point to
declarations submitted by Dr. Gail Van Norman describing the “virtual medical certainty that
most, if not all, prisoners will experience excruciating suffering, including sensations of
drowning and suffocation” caused by flash pulmonary edema. (Pls. Mot. for Partial Summ. J. at
12 (citing Van Norman Decl. at 7).) Dr. Van Norman states that these risks have been confirmed
by the Purkey autopsy results, which revealed that Purkey’s lungs “were filled with fluid to the
extent of nearly doubling their normal weight, and frothy pulmonary edema fluid filled his main
airways all the way up in the trachea.” (ECF No. 183-2, Van Norman 2d Supp. Decl. ¶ 5.) Such
fluid would have accumulated before death. (Id. ¶ 9.) Dr. Van Norman also suggests that the
current understanding in the field of anesthesiology is that barbiturates such as pentobarbital
diminish only the subjects’ responsiveness to stimuli and not their awareness of such stimuli—
including the conscious experience of excruciating pain. (See Van Norman Decl. at 13, 22–23,
28–29.)

91a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 37 of 41

But Defendants offer conflicting evidence suggesting that an inmate would not
experience the effects of flash pulmonary edema before becoming insensate. One of their
experts, Dr. Kendall Von Crowns, reasons this is because “[d]ue to the large amount of the drug
administered, there would not be enough time for pentobarbital to clear from the respiratory and
cardiac receptions of the brainstem.” (See ECF No. 246-1, Crowns Decl. ¶ 12.) Dr. Joseph
Antognini supports this position. In his view, “[e]ven if pulmonary edema did occur ante
mortem, the inmates would have been profoundly anesthetized (with cessation of brain activity)
and would not have experienced any sensations of pulmonary edema.” (ECF No. 246-2,
Antognini 2d Supp. Decl. ¶ 3h.)
Furthermore, both Drs. Crowns and Antognini refute Dr. Van Norman’s evaluation of the
Purkey autopsy. Dr. Antognini disputes the study upon which Dr. Van Norman relies to
conclude that there is no correlation between lung weight and the interval between death and
autopsy. (Id. ¶ 29 (“Most likely, the autopsies [in the study cited by Dr. Van Norman] were
performed at intervals of several hours (and perhaps days) after death, and the correlation would
have been missed.”).) And Dr. Crowns posits that “[t]here is no way to determine based on
autopsy findings how quickly the pulmonary edema occurred, but even if the edema was from a
‘flash’ situation it would take minutes to occur,” and inmates injected with five grams of
pentobarbital can become insensate within seconds. (Crowns Decl. ¶¶ 3, 10.) Dr. Van Norman,
in turn, disputes these conclusions. (See generally ECF No. 249-1, Van Norman Additional
Suppl. Report.)
After considering the conflicting declarations, the court found that the question of
whether an inmate will suffer flash pulmonary edema before becoming insensate was one upon
which reasonable minds could differ. Thus, in an attempt to make credibility assessments—and

92a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 38 of 41

at the urging of both parties, which claimed an evidentiary hearing was needed to rule in their
opponent’s favor—the court held an evidentiary hearing on September 18 and 19, 2020. Given
the narrow issue and the need to rule before an execution scheduled for September 22, 2020, the
court allowed the parties the opportunity to cross examine the other side’s experts and conduct
limited re-direct examination. See Cobell v. Norton, 391 F.3d 251, 261 (D.C. Cir. 2004) (noting
that a court should hold a hearing to when it must “make credibility determinations to resolve
key factual disputes in favor of the moving party” seeking injunctive relief, but that “[t]he
circumstances and interests at stake will affect whether an abbreviated or more extensive
evidentiary hearing is necessary”). On the first day of the hearing, Defendants chose not to
cross-examine Dr. Van Norman and the Plaintiffs elected to rely on the statements made in her
declarations and did not call her as a witness. Plaintiffs cross-examined Drs. Crowns and
Antognini.
Plaintiffs unsuccessfully attempted to undermine the evidence upon which Dr. Crowns
based his conclusion that “[t]here is no way to determine based on autopsy findings how quickly
the pulmonary edema occurred.” (See Crowns Decl. ¶ 10.) Dr. Crowns admitted that his
conclusion that most inmates subjected to a lethal dose of pentobarbital do not experience
labored breathing indicative of flash pulmonary edema was based on media and eyewitness
reports from executions he did not witness. (See id. ¶¶ 5, 11.) He also admitted that he was
unaware of more recent news reports from the executions of Lee, Honken, Purkey, and Mitchell
describing the inmates as showing labored breathing, gasping for breath, or heaving. While the
court noted that Dr. Crowns did not review the more recent news reports that contradicted the
ones he had reviewed, it does not find this to completely undermine Dr. Crowns’ conclusions.
Dr. Crowns explained that an inmate’s gasping for breath alone does little to answer the question

93a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 39 of 41

of whether the inmate was gasping for breath while conscious. As he noted, gasping or labored
breathing alone could be indicative of agonal breathing that occurs right before death but after
the inmate is rendered unconscious.
While the court did not find Dr. Antognini unqualified—as Plaintiffs attempted to show
during his cross-examination—his reports and testimony did not carry much weight. For one,
Dr. Antognini’s research has been primarily on animals and he no longer routinely practices in a
clinical setting. Furthermore, most of the studies he cites on pentobarbital are rather old, though
the court takes his point that many of the most salient studies on pentobarbital were performed in
the 1940s, 50s, and 60s. The court has also taken judicial notice of the fact that Dr. Antognini
was found to be not qualified to opine on similar issues in another district court litigation. See In
re Ohio Execution Protocol Litig., No. 11-1016-EAS-MRM, slip op. at 4 (S.D. Ohio Jan. 27,
2020) (“There is no indication that this Court or any other has been ‘distracted’ by Dr.
Antognini’s opinions, as it has consistently given little or no weight to his reports or testimony in
this consolidated litigation.”). But while this finding is concerning, the court also notes that the
Supreme Court has relied on Dr. Antognini’s testimony on the effects of pentobarbital. See
Bucklew v. Precythe, 139 S. Ct. 1112, 1132 (2019). But even were the court to completely
discredit Dr. Antognini’s testimony, the evidence in the record does not support Plaintiffs’
contention that they are likely to suffer flash pulmonary edema while still conscious.
The court cannot weigh the evidence before it in a vacuum. The Supreme Court has
already addressed most of the evidence Plaintiffs have presented in this case and found that it
was not enough to warrant injunctive relief. See Lee, 2020 WL 3964985 at *2. The Court also
emphasized that pentobarbital “[h]as been used to carry out over 100 executions, without
incident.” See Lee, 2020 WL 3964985, at *2. And while the Supreme Court reached these

94a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 40 of 41

conclusions while this litigation was in a different procedural posture, the irreparable harm
inquiry is similar in both the preliminary and permanent injunction context. Doe v. Mattis, 928
F.3d 1, 7 (D.C. Cir. 2019) (explaining that the same requirement of irreparable harm applies to
preliminary and permanent injunctions). Given the Supreme Court’s decision and the competing
evidence in this case, Plaintiffs cannot meet their burden of showing that the harm of flash
pulmonary edema is likely, let alone “certain” or “imminen[t].” Wis. Gas Co., 758 F.2d at 674;
see also Al-Joudi v. Bush, 406 F. Supp. 2d 13, 20 (D.D.C. 2005) (“Courts often find a showing of
irreparable harm where the movant’s health is in imminent danger”.).
The same is true for the alleged harm from the government’s reliance on bulk
compounding to secure a reliable source of pentobarbital. While Plaintiffs argue that the
government will subject them “to the risks of compounded drugs [] without any corresponding
medical benefit to justify those risks,” it is not clear to the court what non-speculative irreparable
harm arises from using the government’s compounded pentobarbital. (See Pls. Reply at 8
(noting that compounded drugs are “unreliable and dangerous”); see also Pls. Mot. for Partial
Summ. J. at 13–14.)
During the evidentiary hearing, the court heard competing testimony from Dr. Michaela
Almgren and Dr. Peter Swaan regarding their conclusions about the potency and stability of the
pentobarbital Defendants intend to use in the executions. This testimony was not particularly
helpful because Plaintiffs have not shown that the BOP will be using expired pentobarbital or
that the pentobarbital the BOP intends to use was stored in a such a way that would likely cause
them to suffer. At most, Plaintiffs showed that such harm was possible, but this is not enough to
warrant the extraordinary relief afforded by a permanent injunction.

95a

Case 1:19-mc-00145-TSC Document 261 Filed 09/20/20 Page 41 of 41

Having found that Plaintiffs have failed to establish the requisite irreparable harm, the
court need not address the remaining factors. See Wis. Gas Co., 758 F.2d at 674 (quoting
Sampson v. Murray, 415 U.S. 61, 88 (1974) (“The basis for injunctive relief in the federal courts
has always been irreparable harm and inadequacy of legal remedies.”)
III.

CONCLUSION

For the foregoing reasons, the Defendants’ motion to dismiss (ECF No. 169) is
GRANTED as to Counts I, III, IV, and VII of the Amended Complaint (ECF No. 92) for failure
to state a claim. Defendants’ motion for summary judgment (ECF No. 170) is likewise
GRANTED as to Counts V, VI, VIII, IX, and X, but DENIED as to the FDCA claims in
Count XI.
Plaintiffs’ motion for partial summary judgment (ECF No. 236) as to Count XI (and
Count V of Plaintiff LeCroy’s Amended Complaint) is GRANTED, but the court finds that, the
statutory violations notwithstanding, Plaintiffs have failed to demonstrate irreparable harm and
are therefore not entitled to the injunctive relief sought as to those claims. This ruling will not
apply to Plaintiff Norris Holder, whose request for injunctive relief will remain pending.
Date: September 20, 2020

Tanya S. Chutkan

TANYA S. CHUTKAN
United States District Judge

96a

APPENDIX E

§ 353

TITLE 21—FOOD AND DRUGS

Page 156

(B) is limited by an approved application
under section 355 of this title to use under the
professional supervision of a practitioner licensed by law to administer such drug;

§ 353. Exemptions and consideration for certain
drugs, devices, and biological products
(a) Regulations for goods to be processed, labeled, or repacked elsewhere
The Secretary is directed to promulgate regulations exempting from any labeling or packaging requirement of this chapter drugs and devices which are, in accordance with the practice
of the trade, to be processed, labeled, or repacked in substantial quantities at establishments other than those where originally processed or packed, on condition that such drugs
and devices are not adulterated or misbranded
under the provisions of this chapter upon removal from such processing, labeling, or repacking establishment.
(b) Prescription by physician; exemption from labeling and prescription requirements; misbranded drugs; compliance with narcotic
and marihuana laws
(1) A drug intended for use by man which—
(A) because of its toxicity or other potentiality for harmful effect, or the method of its
use, or the collateral measures necessary to
its use, is not safe for use except under the supervision of a practitioner licensed by law to
administer such drug; or

97a

shall be dispensed only (i) upon a written prescription of a practitioner licensed by law to administer such drug, or (ii) upon an oral prescription of such practitioner which is reduced
promptly to writing and filed by the pharmacist,
or (iii) by refilling any such written or oral prescription if such refilling is authorized by the
prescriber either in the original prescription or
by oral order which is reduced promptly to writing and filed by the pharmacist. The act of dispensing a drug contrary to the provisions of this
paragraph shall be deemed to be an act which results in the drug being misbranded while held
for sale.
(2) Any drug dispensed by filling or refilling a
written or oral prescription of a practitioner licensed by law to administer such drug shall be
exempt from the requirements of section 352 of
this title, except paragraphs (a), (i)(2) and (3),
(k), and (l), and the packaging requirements of
paragraphs (g), (h), and (p), if the drug bears a
label containing the name and address of the
dispenser, the serial number and date of the prescription or of its filling, the name of the prescriber, and, if stated in the prescription, the
name of the patient, and the directions for use
and cautionary statements, if any, contained in
such prescription. This exemption shall not
apply to any drug dispensed in the course of the
conduct of a business of dispensing drugs pursuant to diagnosis by mail, or to a drug dispensed
in violation of paragraph (1) of this subsection.
(3) The Secretary may by regulation remove
drugs subject to section 355 of this title from the
requirements of paragraph (1) of this subsection
when such requirements are not necessary for
the protection of the public health.
(4)(A) A drug that is subject to paragraph (1)
shall be deemed to be misbranded if at any time
prior to dispensing the label of the drug fails to
bear, at a minimum, the symbol ‘‘Rx only’’.
(B) A drug to which paragraph (1) does not
apply shall be deemed to be misbranded if at any
time prior to dispensing the label of the drug
bears the symbol described in subparagraph (A).
(5) Nothing in this subsection shall be construed to relieve any person from any requirement prescribed by or under authority of law
with respect to drugs now included or which
may hereafter be included within the classifications stated in sections 4721, 6001, and 6151 of
title 26, or to marihuana as defined in section
4761 of title 26.
(c) Sales restrictions
(1) No person may sell, purchase, or trade or
offer to sell, purchase, or trade any drug sample.
For purposes of this paragraph and subsection
(d), the term ‘‘drug sample’’ means a unit of a
drug, subject to subsection (b), which is not intended to be sold and is intended to promote the
sale of the drug. Nothing in this paragraph shall
subject an officer or executive of a drug manufacturer or distributor to criminal liability solely because of a sale, purchase, trade, or offer to
sell, purchase, or trade in violation of this paragraph by other employees of the manufacturer
or distributor.

Page 157

TITLE 21—FOOD AND DRUGS

(2) No person may sell, purchase, or trade,
offer to sell, purchase, or trade, or counterfeit
any coupon. For purposes of this paragraph, the
term ‘‘coupon’’ means a form which may be redeemed, at no cost or at a reduced cost, for a
drug which is prescribed in accordance with subsection (b).
(3)(A) No person may sell, purchase, or trade,
or offer to sell, purchase, or trade, any drug—
(i) which is subject to subsection (b), and
(ii)(I) which was purchased by a public or
private hospital or other health care entity, or
(II) which was donated or supplied at a reduced price to a charitable organization described in section 501(c)(3) of title 26.
(B) Subparagraph (A) does not apply to—
(i) the purchase or other acquisition by a
hospital or other health care entity which is a
member of a group purchasing organization of
a drug for its own use from the group purchasing organization or from other hospitals or
health care entities which are members of
such organization,
(ii) the sale, purchase, or trade of a drug or
an offer to sell, purchase, or trade a drug by an
organization
described
in
subparagraph
(A)(ii)(II) to a nonprofit affiliate of the organization to the extent otherwise permitted by
law,
(iii) a sale, purchase, or trade of a drug or an
offer to sell, purchase, or trade a drug among
hospitals or other health care entities which
are under common control,
(iv) a sale, purchase, or trade of a drug or an
offer to sell, purchase, or trade a drug for
emergency medical reasons, or
(v) a sale, purchase, or trade of a drug, an
offer to sell, purchase, or trade a drug, or the
dispensing of a drug pursuant to a prescription
executed in accordance with subsection (b).
For purposes of this paragraph, the term ‘‘entity’’ does not include a wholesale distributor of
drugs or a retail pharmacy licensed under State
law and the term ‘‘emergency medical reasons’’
includes transfers of a drug between health care
entities or from a health care entity to a retail
pharmacy undertaken to alleviate temporary
shortages of the drug arising from delays in or
interruptions of regular distribution schedules.
(d) Distribution of drug samples
(1) Except as provided in paragraphs (2) and
(3), no person may distribute any drug sample.
For purposes of this subsection, the term ‘‘distribute’’ does not include the providing of a drug
sample to a patient by a—
(A) practitioner licensed to prescribe such
drug,
(B) health care professional acting at the direction and under the supervision of such a
practitioner, or
(C) pharmacy of a hospital or of another
health care entity that is acting at the direction of such a practitioner and that received
such sample pursuant to paragraph (2) or (3).

§ 353

or, at the request of a licensed practitioner, to
pharmacies of hospitals or other health care entities. Such a distribution of drug samples may
only be made—
(i) in response to a written request for drug
samples made on a form which meets the requirements of subparagraph (B), and
(ii) under a system which requires the recipient of the drug sample to execute a written receipt for the drug sample upon its delivery and
the return of the receipt to the manufacturer
or authorized distributor of record.
(B) A written request for a drug sample required by subparagraph (A)(i) shall contain—
(i) the name, address, professional designation, and signature of the practitioner making
the request,
(ii) the identity of the drug sample requested
and the quantity requested,
(iii) the name of the manufacturer of the
drug sample requested, and
(iv) the date of the request.
(C) Each drug manufacturer or authorized distributor of record which makes distributions by
mail or common carrier under this paragraph
shall maintain, for a period of 3 years, the request forms submitted for such distributions and
the receipts submitted for such distributions
and shall maintain a record of distributions of
drug samples which identifies the drugs distributed and the recipients of the distributions.
Forms, receipts, and records required to be
maintained under this subparagraph shall be
made available by the drug manufacturer or authorized distributor of record to Federal and
State officials engaged in the regulation of
drugs and in the enforcement of laws applicable
to drugs.
(3) The manufacturer or authorized distributor
of record of a drug subject to subsection (b)
may, by means other than mail or common carrier, distribute drug samples only if the manufacturer or authorized distributor of record
makes the distributions in accordance with subparagraph (A) and carries out the activities described in subparagraphs (B) through (F) as follows:
(A) Drug samples may only be distributed—
(i) to practitioners licensed to prescribe
such drugs if they make a written request
for the drug samples, or
(ii) at the written request of such a licensed practitioner, to pharmacies of hospitals or other health care entities.

(2)(A) The manufacturer or authorized distributor of record of a drug subject to subsection
(b) may, in accordance with this paragraph, distribute drug samples by mail or common carrier
to practitioners licensed to prescribe such drugs

98a

A written request for drug samples shall be
made on a form which contains the practitioner’s name, address, and professional designation, the identity of the drug sample requested, the quantity of drug samples requested, the name of the manufacturer or authorized distributor of record of the drug sample, the date of the request and signature of
the practitioner making the request.
(B) Drug manufacturers or authorized distributors of record shall store drug samples
under conditions that will maintain their stability, integrity, and effectiveness and will assure that the drug samples will be free of contamination, deterioration, and adulteration.
(C) Drug manufacturers or authorized distributors of record shall conduct, at least an-

§ 353

TITLE 21—FOOD AND DRUGS

nually, a complete and accurate inventory of
all drug samples in the possession of representatives of the manufacturer or authorized distributor of record. Drug manufacturers
or authorized distributors of record shall
maintain lists of the names and address of
each of their representatives who distribute
drug samples and of the sites where drug samples are stored. Drug manufacturers or authorized distributors of record shall maintain
records for at least 3 years of all drug samples
distributed, destroyed, or returned to the manufacturer or authorized distributor of record,
of all inventories maintained under this subparagraph, of all thefts or significant losses of
drug samples, and of all requests made under
subparagraph (A) for drug samples. Records
and lists maintained under this subparagraph
shall be made available by the drug manufacturer or authorized distributor of record to the
Secretary upon request.
(D) Drug manufacturers or authorized distributors of record shall notify the Secretary
of any significant loss of drug samples and any
known theft of drug samples.
(E) Drug manufacturers or authorized distributors of record shall report to the Secretary any conviction of their representatives
for violations of subsection (c)(1) or a State
law because of the sale, purchase, or trade of
a drug sample or the offer to sell, purchase, or
trade a drug sample.
(F) Drug manufacturers or authorized distributors of record shall provide to the Secretary the name and telephone number of the
individual responsible for responding to a request for information respecting drug samples.
(4) In this subsection, the term ‘‘authorized
distributors of record’’ means those distributors
with whom a manufacturer has established an
ongoing relationship to distribute such manufacturer’s products.
(e) Licensing and reporting requirements for
wholesale distributors; fees; definitions
(1) REQUIREMENT.—Subject to section 360eee–2
of this title:
(A) IN GENERAL.—No person may engage in
wholesale distribution of a drug subject to
subsection (b)(1) in any State unless such person—
(i)(I) is licensed by the State from which
the drug is distributed; or
(II) if the State from which the drug is distributed has not established a licensure requirement, is licensed by the Secretary; and
(ii) if the drug is distributed interstate, is
licensed by the State into which the drug is
distributed if the State into which the drug
is distributed requires the licensure of a person that distributes drugs into the State.
(B) STANDARDS.—Each Federal and State license described in subparagraph (A) shall meet
the standards, terms, and conditions established by the Secretary under section 360eee–2
of this title.
(2) REPORTING AND DATABASE.—
(A) REPORTING.—Beginning January 1, 2015,
any person who owns or operates an establishment that engages in wholesale distribution
shall—

99a

Page 158

(i) report to the Secretary, on an annual
basis pursuant to a schedule determined by
the Secretary—
(I) each State by which the person is licensed and the appropriate identification
number of each such license; and
(II) the name, address, and contact information of each facility at which, and all
trade names under which, the person conducts business; and
(ii) report to the Secretary within a reasonable period of time and in a reasonable
manner, as determined by the Secretary,
any significant disciplinary actions, such as
the revocation or suspension of a wholesale
distributor license, taken by a State or the
Federal Government during the reporting
period against the wholesale distributor.
(B) DATABASE.—Not later than January 1,
2015, the Secretary shall establish a database
of authorized wholesale distributors. Such
database shall—
(i) identify each authorized wholesale distributor by name, contact information, and
each State where such wholesale distributor
is appropriately licensed to engage in wholesale distribution;
(ii) be available to the public on the Internet Web site of the Food and Drug Administration; and
(iii) be regularly updated on a schedule determined by the Secretary.
(C) COORDINATION.—The Secretary shall establish a format and procedure for appropriate
State officials to access the information provided pursuant to subparagraph (A) in a
prompt and secure manner.
(D) CONFIDENTIALITY.—Nothing in this paragraph shall be construed as authorizing the
Secretary to disclose any information that is
a trade secret or confidential information subject to section 552(b)(4) of title 5 or section
1905 of title 18.
(3) COSTS.—
(A) AUTHORIZED FEES OF SECRETARY.—If a
State does not establish a licensing program
for persons engaged in the wholesale distribution of a drug subject to subsection (b), the
Secretary shall license a person engaged in
wholesale distribution located in such State
and may collect a reasonable fee in such
amount necessary to reimburse the Secretary
for costs associated with establishing and administering the licensure program and conducting periodic inspections under this section. The Secretary shall adjust fee rates as
needed on an annual basis to generate only the
amount of revenue needed to perform this
service. Fees authorized under this paragraph
shall be collected and available for obligation
only to the extent and in the amount provided
in advance in appropriations Acts. Such fees
are authorized to remain available until expended. Such sums as may be necessary may
be transferred from the Food and Drug Administration salaries and expenses appropriation
account without fiscal year limitation to such
appropriation account for salaries and expenses with such fiscal year limitation.

Page 159

TITLE 21—FOOD AND DRUGS

sive Drug Abuse Prevention and Control Act
of 1970 [21 U.S.C. 801 et seq.];
(iii) in the case of a medical convenience
kit that includes a product, the person that
manufacturers the kit—
(I) purchased such product directly from
the pharmaceutical manufacturer or from
a wholesale distributor that purchased the
product directly from the pharmaceutical
manufacturer; and
(II) does not alter the primary container
or label of the product as purchased from
the manufacturer or wholesale distributor;
and

(B) STATE LICENSING FEES.—Nothing in this
chapter shall prohibit States from collecting
fees from wholesale distributors in connection
with State licensing of such distributors.
(4) For the purposes of this subsection and subsection (d), the term ‘‘wholesale distribution’’
means the distribution of a drug subject to subsection (b) to a person other than a consumer or
patient, or receipt of a drug subject to subsection (b) by a person other than the consumer
or patient, but does not include—
(A) intracompany distribution of any drug
between members of an affiliate or within a
manufacturer;
(B) the distribution of a drug, or an offer to
distribute a drug among hospitals or other
health care entities which are under common
control;
(C) the distribution of a drug or an offer to
distribute a drug for emergency medical reasons, including a public health emergency declaration pursuant to section 319 of the Public
Health Service Act [42 U.S.C. 247d], except
that, for purposes of this paragraph, a drug
shortage not caused by a public health emergency shall not constitute an emergency medical reason;
(D) the dispensing of a drug pursuant to a
prescription executed in accordance with subsection (b)(1);
(E) the distribution of minimal quantities of
drug by a licensed retail pharmacy to a licensed practitioner for office use;
(F) the distribution of a drug or an offer to
distribute a drug by a charitable organization
to a nonprofit affiliate of the organization to
the extent otherwise permitted by law;
(G) the purchase or other acquisition by a
dispenser, hospital, or other health care entity
of a drug for use by such dispenser, hospital,
or other health care entity;
(H) the distribution of a drug by the manufacturer of such drug;
(I) the receipt or transfer of a drug by an authorized third-party logistics provider provided that such third-party logistics provider
does not take ownership of the drug;
(J) a common carrier that transports a drug,
provided that the common carrier does not
take ownership of the drug;
(K) the distribution of a drug, or an offer to
distribute a drug by an authorized repackager
that has taken ownership or possession of the
drug and repacks it in accordance with section
360eee–1(e) of this title;
(L) salable drug returns when conducted by
a dispenser;
(M) the distribution of a collection of finished medical devices, which may include a
product or biological product, assembled in kit
form strictly for the convenience of the purchaser or user (referred to in this subparagraph as a ‘‘medical convenience kit’’) if—
(i) the medical convenience kit is assembled in an establishment that is registered
with the Food and Drug Administration as a
device manufacturer in accordance with section 360(b)(2) of this title;
(ii) the medical convenience kit does not
contain a controlled substance that appears
in a schedule contained in the Comprehen-

§ 353

(iv) in the case of a medical convenience
kit that includes a product, the product is—
(I) an intravenous solution intended for
the replenishment of fluids and electrolytes;
(II) a product intended to maintain the
equilibrium of water and minerals in the
body;
(III) a product intended for irrigation or
reconstitution;
(IV) an anesthetic;
(V) an anticoagulant;
(VI) a vasopressor; or
(VII) a sympathomimetic;
(N) the distribution of an intravenous drug
that, by its formulation, is intended for the replenishment of fluids and electrolytes (such as
sodium, chloride, and potassium) or calories
(such as dextrose and amino acids);
(O) the distribution of an intravenous drug
used to maintain the equilibrium of water and
minerals in the body, such as dialysis solutions;
(P) the distribution of a drug that is intended for irrigation, or sterile water, whether
intended for such purposes or for injection;
(Q) the distribution of medical gas, as defined in section 360ddd of this title;
(R) facilitating the distribution of a product
by providing solely administrative services,
including processing of orders and payments;
or
(S) the transfer of a product by a hospital or
other health care entity, or by a wholesale distributor or manufacturer operating at the direction of the hospital or other health care entity, to a repackager described in section
360eee(16)(B) of this title and registered under
section 360 of this title for the purpose of repackaging the drug for use by that hospital, or
other health care entity and other health care
entities that are under common control, if
ownership of the drug remains with the hospital or other health care entity at all times.
(5) THIRD-PARTY LOGISTICS PROVIDERS.—Notwithstanding paragraphs (1) through (4), each
entity that meets the definition of a third-party
logistics provider under section 360eee(22) of this
title shall obtain a license as a third-party logistics provider as described in section 360eee–3(a)
of this title and is not required to obtain a license as a wholesale distributor if the entity
never assumes an ownership interest in the
product it handles.
(6) AFFILIATE.—For purposes of this subsection, the term ‘‘affiliate’’ means a business

100a

§ 353

TITLE 21—FOOD AND DRUGS

entity that has a relationship with a second
business entity if, directly or indirectly—
(A) one business entity controls, or has the
power to control, the other business entity; or
(B) a third party controls, or has the power
to control, both of the business entities.
(f) Veterinary prescription drugs
(1)(A) A drug intended for use by animals
other than man, other than a veterinary feed directive drug intended for use in animal feed or
an animal feed bearing or containing a veterinary feed directive drug, which—
(i) because of its toxicity or other potentiality for harmful effect, or the method of its
use, or the collateral measures necessary for
its use, is not safe for animal use except under
the professional supervision of a licensed veterinarian, or
(ii) is limited by an approved application
under subsection (b) of section 360b of this
title, a conditionally-approved application
under section 360ccc of this title, or an index
listing under section 360ccc–1 of this title to
use under the professional supervision of a licensed veterinarian,
shall be dispensed only by or upon the lawful
written or oral order of a licensed veterinarian
in the course of the veterinarian’s professional
practice.
(B) For purposes of subparagraph (A), an order
is lawful if the order—
(i) is a prescription or other order authorized
by law,
(ii) is, if an oral order, promptly reduced to
writing by the person lawfully filling the
order, and filed by that person, and
(iii) is refilled only if authorized in the original order or in a subsequent oral order
promptly reduced to writing by the person
lawfully filling the order, and filed by that
person.
(C) The act of dispensing a drug contrary to
the provisions of this paragraph shall be deemed
to be an act which results in the drug being misbranded while held for sale.
(2) Any drug when dispensed in accordance
with paragraph (1) of this subsection—
(A) shall be exempt from the requirements of
section 352 of this title, except subsections (a),
(g), (h), (i)(2), (i)(3), and (p) of such section, and
(B) shall be exempt from the packaging requirements of subsections (g), (h), and (p) of
such section, if—
(i) when dispensed by a licensed veterinarian, the drug bears a label containing the
name and address of the practitioner and
any directions for use and cautionary statements specified by the practitioner, or
(ii) when dispensed by filling the lawful
order of a licensed veterinarian, the drug
bears a label containing the name and address of the dispenser, the serial number and
date of the order or of its filling, the name
of the licensed veterinarian, and the directions for use and cautionary statements, if
any, contained in such order.
The preceding sentence shall not apply to any
drug dispensed in the course of the conduct of a
business of dispensing drugs pursuant to diagnosis by mail.

Page 160

(3) The Secretary may by regulation exempt
drugs for animals other than man subject to section 360b, 360ccc, or 360ccc–1 of this title from
the requirements of paragraph (1) when such requirements are not necessary for the protection
of the public health.
(4) A drug which is subject to paragraph (1)
shall be deemed to be misbranded if at any time
prior to dispensing its label fails to bear the
statement ‘‘Caution: Federal law restricts this
drug to use by or on the order of a licensed veterinarian.’’. A drug to which paragraph (1) does
not apply shall be deemed to be misbranded if at
any time prior to dispensing its label bears the
statement specified in the preceding sentence.
(g) Regulation of combination products
(1)(A) The Secretary shall, in accordance with
this subsection, assign a primary agency center
to regulate products that constitute a combination of a drug, device, or biological product.
(B) The Secretary shall conduct the premarket
review of any combination product under a single application, whenever appropriate.
(C) For purposes of this subsection, the term
‘‘primary mode of action’’ means the single
mode of action of a combination product expected to make the greatest contribution to the
overall intended therapeutic effects of the combination product.
(D) The Secretary shall determine the primary
mode of action of the combination product. If
the Secretary determines that the primary
mode of action is that of—
(i) a drug (other than a biological product),
the agency center charged with premarket review of drugs shall have primary jurisdiction;
(ii) a device, the agency center charged with
premarket review of devices shall have primary jurisdiction; or
(iii) a biological product, the agency center
charged with premarket review of biological
products shall have primary jurisdiction.
(E) In determining the primary mode of action
of a combination product, the Secretary shall
not determine that the primary mode of action
is that of a drug or biological product solely because the combination product has any chemical
action within or on the human body.
(F) If a sponsor of a combination product disagrees with the determination under subparagraph (D)—
(i) such sponsor may request, and the Secretary shall provide, a substantive rationale
to such sponsor that references scientific evidence provided by the sponsor and any other
scientific evidence relied upon by the Secretary to support such determination; and
(ii)(I) the sponsor of the combination product may propose one or more studies (which
may be nonclinical, clinical, or both) to establish the relevance, if any, of the chemical action in achieving the primary mode of action
of such product;
(II) if the sponsor proposes any such studies,
the Secretary and the sponsor of such product
shall collaborate and seek to reach agreement,
within a reasonable time of such proposal, not
to exceed 90 calendar days, on the design of
such studies; and
(III) if an agreement is reached under subclause (II) and the sponsor conducts one or

101a

Page 161

TITLE 21—FOOD AND DRUGS

more of such studies, the Secretary shall consider the data resulting from any such study
when reevaluating the determination of the
primary mode of action of such product, and
unless and until such reevaluation has occurred and the Secretary issues a new determination, the determination of the Secretary
under subparagraph (D) shall remain in effect.
(2)(A) 1 (i) To establish clarity and certainty
for the sponsor, the sponsor of a combination
product may request a meeting on such combination product. If the Secretary concludes that
a determination of the primary mode of action
pursuant to paragraph (1)(D) is necessary, the
sponsor may request such meeting only after the
Secretary makes such determination. If the
sponsor submits a written meeting request, the
Secretary shall, not later than 75 calendar days
after receiving such request, meet with the
sponsor of such combination product.
(ii) A meeting under clause (i) may—
(I) address the standards and requirements
for market approval or clearance of the combination product;
(II) address other issues relevant to such
combination product, such as requirements related to postmarket modification of such combination product and good manufacturing
practices applicable to such combination product; and
(III) identify elements under subclauses (I)
and (II) that may be more appropriate for discussion and agreement with the Secretary at a
later date given that scientific or other information is not available, or agreement is otherwise not feasible regarding such elements, at
the time a request for such meeting is made.
(iii) Any agreement under this subparagraph
shall be in writing and made part of the administrative record by the Secretary.
(iv) Any such agreement shall remain in effect, except—
(I) upon the written agreement of the Secretary and the sponsor or applicant; or
(II) pursuant to a decision by the director of
the reviewing division of the primary agency
center, or a person more senior than such director, in consultation with consulting centers
and the Office, as appropriate, that an issue
essential to determining whether the standard
for market clearance or other applicable
standard under this chapter or the Public
Health Service Act [42 U.S.C. 201 et seq.] applicable to the combination product has been
identified since the agreement was reached, or
that deviating from the agreement is otherwise justifiable based on scientific evidence,
for public health reasons.
(3) For purposes of conducting the premarket
review of a combination product that contains
an approved constituent part described in paragraph (4), the Secretary may require that the
sponsor of such combination product submit to
the Secretary only data or information that the
Secretary determines is necessary to meet the
standard for clearance or approval, as applicable, under this chapter or the Public Health
Service Act, including any incremental risks
1 So

in original. No subpar. (B) has been enacted.

§ 353

and benefits posed by such combination product,
using a risk-based approach and taking into account any prior finding of safety and effectiveness or substantial equivalence for the approved
constituent part relied upon by the applicant in
accordance with paragraph (5).
(4) For purposes of paragraph (3), an approved
constituent part is—
(A) a drug constituent part of a combination
product being reviewed in a single application
or request under section 360e, 360(k), or
360c(f)(2) of this title (submitted in accordance
with paragraph (5)), that is an approved drug,
provided such application or request complies
with paragraph (5);
(B) a device constituent part approved under
section 360e of this title that is referenced by
the sponsor and that is available for use by the
Secretary under section 360j(h)(4) of this title;
or
(C) any constituent part that was previously
approved, cleared, or classified under section
355, 360(k), 360c(f)(2), or 360e of this title for
which the sponsor has a right of reference or
any constituent part that is a nonprescription
drug, as defined in section 379aa(a)(2) of this
title.
(5)(A) If an application is submitted under section 360e or 360(k) of this title or a request is
submitted under section 360c(f)(2) of this title,
consistent with any determination made under
paragraph (1)(D), for a combination product containing as a constituent part an approved drug—
(i) the application or request shall include
the certification or statement described in
section 355(b)(2) of this title; and
(ii) the applicant or requester shall provide
notice as described in section 355(b)(3) of this
title.
(B) For purposes of this paragraph and paragraph (4), the term ‘‘approved drug’’ means an
active ingredient—
(i) that was in an application previously approved under section 355(c) of this title;
(ii) where such application is relied upon by
the applicant submitting the application or request described in subparagraph (A);
(iii) for which full reports of investigations
that have been made to show whether such
drug is safe for use and whether such drug is
effective in use were not conducted by or for
the applicant submitting the application or request described in subparagraph (A); and
(iv) for which the applicant submitting the
application or request described in subparagraph (A) has not obtained a right of reference
or use from the person by or for whom the investigations described in clause (iii) were conducted.
(C) The following provisions shall apply with
respect to an application or request described in
subparagraph (A) to the same extent and in the
same manner as if such application or request
were an application described in section 355(b)(2)
of this title that referenced the approved drug:
(i) Subparagraphs (A), (B), (C), and (D) of
section 355(c)(3) of this title.
(ii) Clauses (ii), (iii), and (iv) of section
355(c)(3)(E) of this title.
(iii) Subsections (b) and (c) of section 355a of
this title.

102a

§ 353

TITLE 21—FOOD AND DRUGS

(iv) Section 355f(a) of this title.
(v) Section 360cc(a) of this title.
(D) Notwithstanding any other provision of
this subsection, an application or request for
classification for a combination product described in subparagraph (A) shall be considered
an application submitted under section 355(b)(2)
of this title for purposes of section 271(e)(2)(A) of
title 35.
(6) Nothing in this subsection shall be construed as prohibiting a sponsor from submitting
separate applications for the constituent parts
of a combination product, unless the Secretary
determines that a single application is necessary.
(7) Nothing in this subsection shall prevent
the Secretary from using any agency resources
of the Food and Drug Administration necessary
to ensure adequate review of the safety, effectiveness, or substantial equivalence of an article.
(8)(A) Not later than 60 days after October 26,
2002, the Secretary shall establish within the Office of the Commissioner of Food and Drugs an
office to ensure the prompt assignment of combination products to agency centers, the timely
and effective premarket review of such products,
and consistent and appropriate postmarket regulation of like products subject to the same
statutory requirements to the extent permitted
by law. Additionally, the office shall, in determining whether a product is to be designated a
combination product, consult with the component within the Office of the Commissioner of
Food and Drugs that is responsible for such determinations. Such office (referred to in this
paragraph as the ‘‘Office’’) shall have appropriate scientific and medical expertise, and shall
be headed by a director.
(B) In carrying out this subsection, the Office
shall, for each combination product, promptly
assign an agency center with primary jurisdiction in accordance with paragraph (1) for the
premarket review of such product.
(C)(i) In carrying out this subsection, the Office shall help to ensure timely and effective
premarket review that involves more than one
agency center by coordinating such reviews,
overseeing the timeliness of such reviews, and
overseeing the alignment of feedback regarding
such reviews.
(ii) In order to ensure the timeliness and
alignment of the premarket review of a combination product, the agency center with primary
jurisdiction for the product, and the consulting
agency center, shall be responsible to the Office
with respect to the timeliness and alignment of
the premarket review.
(iii) The Office shall ensure that, with respect
to a combination product, a designated person
or persons in the primary agency center is the
primary point or points of contact for the sponsor of such combination product. The Office
shall also coordinate communications to and
from any consulting center involved in such premarket review, if requested by such primary
agency center or any such consulting center.
Agency communications and commitments, to
the extent consistent with other provisions of
law and the requirements of all affected agency
centers, from the primary agency center shall be

Page 162

considered as communication from the Secretary on behalf of all agency centers involved
in the review.
(iv) The Office shall, with respect to the premarket review of a combination product—
(I) ensure that any meeting between the Secretary and the sponsor of such product is attended by each agency center involved in the
review, as appropriate;
(II) ensure that each consulting agency center has completed its premarket review and
provided the results of such review to the primary agency center in a timely manner; and
(III) ensure that each consulting center follows the guidance described in clause (vi) and
advises, as appropriate, on other relevant regulations, guidances, and policies.
(v) In seeking agency action with respect to a
combination product, the sponsor of such product—
(I) shall identify the product as a combination product; and
(II) may request in writing the participation
of representatives of the Office in meetings related to such combination product, or to have
the Office otherwise engage on such regulatory matters concerning the combination
product.
(vi) Not later than 4 years after December 13,
2016, and after a public comment period of not
less than 60 calendar days, the Secretary shall
issue a final guidance that describes—
(I) the structured process for managing presubmission interactions with sponsors developing combination products;
(II) the best practices for ensuring that the
feedback in such pre-submission interactions
represents the Agency’s best advice based on
the information provided during such pre-submission interactions; 2
(III) the information that is required to be
submitted with a meeting request under paragraph (2), how such meetings relate to other
types of meetings in the Food and Drug Administration, and the form and content of any
agreement reached through a meeting under
such paragraph (2); 3
(D) In carrying out this subsection, the Office
shall ensure the consistency and appropriateness of postmarket regulation of like products
subject to the same statutory requirements to
the extent permitted by law.
(E)(i) Any dispute regarding the timeliness of
the premarket review of a combination product
may be presented to the Office for resolution,
unless the dispute is clearly premature.
(ii) During the review process, any dispute regarding the substance of the premarket review
may be presented to the Commissioner of Food
and Drugs after first being considered by the
agency center with primary jurisdiction of the
premarket review, under the scientific dispute
resolution procedures for such center. The Commissioner of Food and Drugs shall consult with
the Director of the Office in resolving the substantive dispute.
(F) The Secretary, acting through the Office,
shall review each agreement, guidance, or prac2 So
3 So

103a

in original. The word ‘‘and’’ probably should appear.
in original. The semicolon probably should be a period.

Page 163

tice of the Secretary that is specific to the assignment of combination products to agency
centers and shall determine whether the agreement, guidance, or practice is consistent with
the requirements of this subsection. In carrying
out such review, the Secretary shall consult
with stakeholders and the directors of the agency centers. After such consultation, the Secretary shall determine whether to continue in
effect, modify, revise, or eliminate such agreement, guidance, or practice, and shall publish in
the Federal Register a notice of the availability
of such modified or revised agreement, guidance
or practice. Nothing in this paragraph shall be
construed as preventing the Secretary from following each agreement, guidance, or practice
until continued, modified, revised, or eliminated.
(G) Not later than one year after October 26,
2002 (except with respect to clause (iv), beginning not later than one year after December 13,
2016), and annually thereafter, the Secretary
shall report to the appropriate committees of
Congress on the activities and impact of the Office. The report shall include provisions—
(i) describing the numbers and types of combination products under review and the timeliness in days of such assignments, reviews, and
dispute resolutions;
(ii) identifying the number of premarket reviews of such products that involved a consulting agency center;
(iii) describing improvements in the consistency of postmarket regulation of combination
products; and
(iv) identifying the percentage of combination products for which a dispute resolution,
with respect to premarket review, was requested by the combination product’s sponsor.
(H) Nothing in this paragraph shall be construed to limit the regulatory authority of any
agency center.
(9) As used in this subsection:
(A) The term ‘‘agency center’’ means a center or alternative organizational component of
the Food and Drug Administration.
(B) The term ‘‘biological product’’ has the
meaning given the term in section 351(i) of the
Public Health Service Act (42 U.S.C. 262(i)).
(C) The term ‘‘market clearance’’ includes—
(i) approval of an application under section
355, 357,4 360e, or 360j(g) of this title;
(ii) a finding of substantial equivalence
under this part;
(iii) approval of a biologics license application under subsection (a) of section 351 of the
Public Health Service Act (42 U.S.C. 262);
and
(iv) de novo classification under section
360c(a)(1) of this title.
(D) The terms ‘‘premarket review’’ and ‘‘reviews’’ include all activities of the Food and
Drug Administration conducted prior to approval or clearance of an application, notification, or request for classification submitted
under section 355, 360(k), 360c(f)(2), 360e, or 360j
of this title or under section 351 of the Public
Health Service Act [42 U.S.C. 262], including
4 See

References in Text note below.

§ 353

TITLE 21—FOOD AND DRUGS

with respect to investigational use of the
product.
(June 25, 1938, ch. 675, § 503, 52 Stat. 1051; Oct. 26,
1951, ch. 578, § 1, 65 Stat. 648; Pub. L. 87–781, title
I, § 104(e)(2), Oct. 10, 1962, 76 Stat. 785; Pub. L.
91–601, § 6(e), formerly § 7(e), Dec. 30, 1970, 84 Stat.
1673, renumbered Pub. L. 97–35, title XII,
§ 1205(c), Aug. 13, 1981, 95 Stat. 716; Pub. L.
100–293, §§ 4–6, Apr. 22, 1988, 102 Stat. 96–98; Pub.
L. 100–670, title I, § 105, Nov. 16, 1988, 102 Stat.
3983; Pub. L. 101–629, § 16(a), Nov. 28, 1990, 104
Stat. 4526; Pub. L. 102–108, § 2(d), Aug. 17, 1991, 105
Stat. 550; Pub. L. 102–300, § 6(d), June 16, 1992, 106
Stat. 240; Pub. L. 102–353, §§ 2(a)–(c), 4, Aug. 26,
1992, 106 Stat. 941, 942; Pub. L. 104–250, § 5(a), Oct.
9, 1996, 110 Stat. 3155; Pub. L. 105–115, title I,
§§ 123(e), 126(a), (c)(1), (2), Nov. 21, 1997, 111 Stat.
2324, 2327, 2328; Pub. L. 107–250, title II, § 204, Oct.
26, 2002, 116 Stat. 1611; Pub. L. 108–282, title I,
§ 102(b)(5)(F), Aug. 2, 2004, 118 Stat. 903; Pub. L.
113–54, title II, § 204(a)(1)–(4), (b), Nov. 27, 2013, 127
Stat. 630–635; Pub. L. 114–255, div. A, title III,
§ 3038(a), Dec. 13, 2016, 130 Stat. 1105.)
REFERENCES IN TEXT
The Comprehensive Drug Abuse Prevention and Control Act of 1970, referred to in subsec. (e)(4)(M)(ii), is
Pub. L. 91–513, Oct. 27, 1970, 84 Stat. 1236, which is classified principally to chapter 13 (§ 801 et seq.) of this
title. For complete classification of this Act to the
Code, see Short Title note set out under section 801 of
this title and Tables.
The Public Health Service Act, referred to in subsec.
(g)(2)(A)(iv)(II), (3), is act July 1, 1944, ch. 373, 58 Stat.
682, which is classified generally to chapter 6A (§ 201 et
seq.) of Title 42, The Public Health and Welfare. For
complete classification of this Act to the Code, see
Short Title note set out under section 201 of Title 42
and Tables.
Section 357 of this title, referred to in subsec.
(g)(9)(C)(i), was repealed by Pub. L. 105–115, title I,
§ 125(b)(1), Nov. 21, 1997, 111 Stat. 2325.
CODIFICATION
In subsec. (b)(5), ‘‘sections 4721, 6001, and 6151 of title
26’’ and ‘‘section 4761 of title 26’’ substituted for ‘‘section 3220 of the Internal Revenue Code (26 U.S.C. 3220)’’
and ‘‘section 3238(b) of the Internal Revenue Code (26
U.S.C. 3238(b))’’, respectively, on authority of section
7852(b) of Title 26, Internal Revenue Code.
AMENDMENTS
2016—Subsec. (g)(1). Pub. L. 114–255, § 3038(a)(4), added
par. (1) and struck out former par. (1) which read as follows: ‘‘The Secretary shall in accordance with this subsection assign an agency center to regulate products
that constitute a combination of a drug, device, or biological product. The Secretary shall determine the primary mode of action of the combination product. If the
Secretary determines that the primary mode of action
is that of—
‘‘(A) a drug (other than a biological product), the
agency center charged with premarket review of
drugs shall have primary jurisdiction,
‘‘(B) a device, the agency center charged with premarket review of devices shall have primary jurisdiction, or
‘‘(C) a biological product, the agency center
charged with premarket review of biological products
shall have primary jurisdiction.’’
Subsec. (g)(2). Pub. L. 114–255, § 3038(a)(4), added par.
(2). Former par. (2) redesignated (7).
Subsec. (g)(3). Pub. L. 114–255, § 3038(a)(1), (4), added
par. (3) and struck out former par. (3) which read as follows: ‘‘The Secretary shall promulgate regulations to
implement market clearance procedures in accordance

104a

§ 353

TITLE 21—FOOD AND DRUGS

with paragraphs (1) and (2) not later than 1 year after
November 28, 1990.’’
Subsec. (g)(4) to (6). Pub. L. 114–255, § 3038(a)(4), added
pars. (4) to (6). Former pars. (4) and (5) redesignated (8)
and (9), respectively.
Subsec. (g)(7). Pub. L. 114–255, § 3038(a)(2), redesignated par. (2) as (7).
Subsec. (g)(8). Pub. L. 114–255, § 3038(a)(3), redesignated par. (4) as (8).
Subsec. (g)(8)(C)(i). Pub. L. 114–255, § 3038(a)(5)(A)(i),
amended cl. (i) generally. Prior to amendment, cl. (i)
read as follows: ‘‘In carrying out this subsection, the
Office shall ensure timely and effective premarket reviews by overseeing the timeliness of and coordinating
reviews involving more than one agency center.’’
Subsec. (g)(8)(C)(ii). Pub. L. 114–255, § 3038(a)(5)(A)(ii),
inserted ‘‘and alignment’’ after ‘‘the timeliness’’ in two
places.
Subsec. (g)(8)(C)(iii) to (vi). Pub. L. 114–255,
§ 3038(a)(5)(A)(iii), added cls. (iii) to (vi).
Subsec. (g)(8)(G). Pub. L. 114–255, § 3038(a)(5)(B)(i), inserted ‘‘(except with respect to clause (iv), beginning
not later than one year after December 13, 2016)’’ after
‘‘October 26, 2002’’ in introductory provisions.
Subsec.
(g)(8)(G)(iv).
Pub.
L.
114–255,
§ 3038(a)(5)(B)(ii)–(iv), added cl. (iv).
Subsec. (g)(9). Pub. L. 114–255, § 3038(a)(3), redesignated par. (5) as (9).
Subsec. (g)(9)(C). Pub. L. 114–255, § 3038(a)(6)(A), substituted semicolon for comma at end of cl. (i), semicolon for ‘‘, and’’ at end of cl. (ii), and ‘‘; and’’ for period at end of cl. (iii), and added cl. (iv).
Subsec. (g)(9)(D). Pub. L. 114–255, § 3038(a)(6)(B), added
subpar. (D).
2013—Subsec. (d)(4). Pub. L. 113–54, § 204(b), added par.
(4).
Subsec. (e). Pub. L. 113–54, § 204(a)(1)–(4), added pars.
(1) to (6) and struck out former pars. (1) to (3). Prior to
amendment, pars. (1) to (3) set out certain disclosure
and licensing requirements for wholesale distributors
and defined ‘‘authorized distributors of record’’ and
‘‘wholesale distribution’’.
2004—Subsec.
(f)(1)(A)(ii).
Pub.
L.
108–282,
§ 102(b)(5)(F)(i), substituted ‘‘360b of this title, a conditionally-approved application under section 360ccc of
this title, or an index listing under section 360ccc–1 of
this title’’ for ‘‘360b of this title’’.
Subsec. (f)(3). Pub. L. 108–282, § 102(b)(5)(F)(ii), substituted ‘‘section 360b, 360ccc, or 360ccc–1’’ for ‘‘section
360b’’.
2002—Subsec. (g)(1). Pub. L. 107–250, § 204(1)(A), substituted ‘‘shall in accordance with this subsection assign an agency center’’ for ‘‘shall designate a component of the Food and Drug Administration’’ in first
sentence of introductory provisions.
Subsec. (g)(1)(A) to (C). Pub. L. 107–250, § 204(1)(B),
substituted ‘‘the agency center charged’’ for ‘‘the persons charged’’.
Subsec. (g)(4). Pub. L. 107–250, § 204(3), added par. (4).
Former par. (4) redesignated (5).
Subsec. (g)(5). Pub. L. 107–250, § 204(2), (4), redesignated par. (4) as (5), added subpar. (A), and redesignated
former subpars. (A) and (B) as (B) and (C), respectively.
1997—Subsec. (b)(1)(A) to (C). Pub. L. 105–115,
§ 126(c)(1), redesignated subpars. (B) and (C) as (A) and
(B), respectively, and struck out former subpar. (A),
which read as follows: ‘‘is a habit-forming drug to
which section 352(d) of this title applies; or’’.
Subsec. (b)(3). Pub. L. 105–115, § 126(c)(2), struck out
reference to section 352(d) of this title before ‘‘355’’.
Subsec. (b)(4). Pub. L. 105–115, § 126(a), amended par.
(4) generally. Prior to amendment, par. (4) read as follows: ‘‘A drug which is subject to paragraph (1) of this
subsection shall be deemed to be misbranded if at any
time prior to dispensing its label fails to bear the statement ‘Caution: Federal law prohibits dispensing without prescription’. A drug to which paragraph (1) of this
subsection does not apply shall be deemed to be misbranded if at any time prior to dispensing its label
bears the caution statement quoted in the preceding
sentence.’’

Page 164

Subsec. (g)(4)(A). Pub. L. 105–115, § 123(e)(1), substituted ‘‘section 351(i)’’ for ‘‘section 351(a)’’ and
‘‘262(i)’’ for ‘‘262(a)’’.
Subsec. (g)(4)(B)(iii). Pub. L. 105–115, § 123(e)(2), substituted ‘‘biologics license application under subsection
(a)’’ for ‘‘product or establishment license under subsection (a) or (d)’’.
1996—Subsec. (f)(1)(A). Pub. L. 104–250 inserted
‘‘, other than a veterinary feed directive drug intended
for use in animal feed or an animal feed bearing or containing a veterinary feed directive drug,’’ after ‘‘other
than man’’ in introductory provisions.
1992—Subsec. (d)(1). Pub. L. 102–353, § 4(1), amended
par. (1) generally. Prior to amendment, par. (1) read as
follows: ‘‘Except as provided in paragraphs (2) and (3),
no representative of a drug manufacturer or distributor
may distribute any drug sample.’’
Subsec. (d)(2). Pub. L. 102–353, § 4(2), substituted ‘‘authorized distributor of record’’ for ‘‘distributor’’ wherever appearing.
Subsec. (d)(3). Pub. L. 102–353, § 4(2), substituted ‘‘authorized distributor of record’’ for ‘‘distributor’’ and
‘‘authorized distributors of record’’ for ‘‘distributors’’
wherever appearing.
Subsec. (e)(1). Pub. L. 102–353, § 4(3), amended par. (1)
generally. Prior to amendment, par. (1) read as follows:
‘‘Each person who is engaged in the wholesale distribution of drugs subject to subsection (b) of this section
and who is not an authorized distributor of record of
such drugs shall provide to each wholesale distributor
of such drugs a statement identifying each sale of the
drug (including the date of the sale) before the sale to
such wholesale distributor. Each manufacturer shall
maintain at its corporate offices a current list of such
authorized distributors.’’
Subsec. (e)(2)(A). Pub. L. 102–353, § 2(a), (d), temporarily inserted ‘‘or has registered with the Secretary in
accordance with paragraph (3)’’. See Termination Date
of 1992 Amendment note below.
Subsec. (e)(3). Pub. L. 102–353, § 2(b), (d), temporarily
added par. (3). Former par. (3) redesignated (4). See Termination Date of 1992 Amendment note below.
Subsec. (e)(4). Pub. L. 102–353, § 4(4), inserted ‘‘and
subsection (d) of this section’’ after ‘‘For the purposes
of this subsection’’.
Pub. L. 102–353, § 2(b), (d), temporarily redesignated
par. (3) as (4). See Termination Date of 1992 Amendment
note below.
Subsec. (f)(1)(B). Pub. L. 102–353, § 2(c), which directed
the substitution of ‘‘an order’’ for ‘‘and order’’, could
not be executed because ‘‘and order’’ did not appear in
subpar. (B).
Subsec. (g)(3). Pub. L. 102–300 substituted ‘‘clearance’’
for ‘‘approval’’.
1991—Subsec. (c). Pub. L. 102–108, § 2(d)(3), redesignated subsec. (c), relating to veterinary prescription
drugs, as (f). Former subsec. (f) redesignated (g).
Subsec. (c)(2), (3)(B)(v). Pub. L. 102–108, § 2(d)(1), made
technical amendment to reference to subsection (b) of
this section involving corresponding provision of original act.
Subsec. (d)(3)(E). Pub. L. 102–108, § 2(d)(2), made technical amendment to reference to subsection (c)(1) of
this section involving corresponding provision of original act.
Subsec. (f). Pub. L. 102–108, § 2(d)(4), redesignated subsec. (f), relating to regulation of combination products,
as (g).
Pub. L. 102–108, § 2(d)(3), redesignated subsec. (c), relating to veterinary prescription drugs, as (f).
Subsec. (g). Pub. L. 102–108, § 2(d)(4), redesignated subsec. (f), relating to regulation of combination products,
as (g).
1990—Pub. L. 101–629, § 16(a)(1), substituted ‘‘Exemptions and consideration for certain drugs, devices, and
biological products’’ for ‘‘Exemptions in case of drugs
and devices’’ in section catchline.
Subsec. (f). Pub. L. 101–629, § 16(a)(2), added subsec. (f).
1988—Subsec. (c). Pub. L. 100–670 added subsec. (c) relating to veterinary prescription drugs.

105a

Page 165

TITLE 21—FOOD AND DRUGS

Pub. L. 100–293, § 4, added subsec. (c) relating to sales
restrictions.
Subsec. (d). Pub. L. 100–293, § 5, added subsec. (d).
Subsec. (e). Pub. L. 100–293, § 6, added subsec. (e).
1970—Subsec. (b)(2). Pub. L. 91–601 included exemption
from packaging requirements of subsec. (p) of section
352 of this title.
1962—Subsec. (b)(1)(C). Pub. L. 87–781 substituted ‘‘approved’’ for ‘‘effective’’.
1951—Subsec. (b). Act Oct. 26, 1951, amended subsec.
(b) generally to protect the public from abuses in the
sale of potent prescription drugs, and to relieve retail
pharmacists and the public from unnecessary restrictions on the dispensation of drugs that are safe to use
without supervision of a doctor.
EFFECTIVE DATE OF 2013 AMENDMENT
Pub. L. 113–54, title II, § 204(c), Nov. 27, 2013, 127 Stat.
636, provided that: ‘‘The amendments made by subsections (a) and (b) [enacting section 360eee–2 of this
title and amending this section] shall take effect on
January 1, 2015.’’
EFFECTIVE DATE OF 1997 AMENDMENT
Amendment by Pub. L. 105–115 effective 90 days after
Nov. 21, 1997, except as otherwise provided, see section
501 of Pub. L. 105–115, set out as a note under section 321
of this title.
TERMINATION DATE OF 1992 AMENDMENT
Pub. L. 102–353, § 2(d), Aug. 26, 1992, 106 Stat. 941, provided that: ‘‘Effective September 14, 1994, the amendments made by subsections (a) and (b) [amending this
section] shall no longer be in effect.’’
EFFECTIVE DATE OF 1988 AMENDMENT
Pub. L. 100–293, § 8, Apr. 22, 1988, 102 Stat. 100, provided
that:
‘‘(a) GENERAL RULE.—Except as provided in subsection (b), this Act and the amendments made by this
Act [amending this section and sections 331, 333, and 381
of this title and enacting provisions set out as notes
under this section and section 301 of this title] shall
take effect upon the expiration of 90 days after the date
of the enactment of this Act [Apr. 22, 1988].
‘‘(b) EXCEPTION.—
‘‘(1) Section 503(d) of the Federal Food, Drug, and
Cosmetic Act [21 U.S.C. 353(d)] (as added by section 5
of this Act) shall take effect upon the expiration of
180 days after the date of the enactment of this Act
[Apr. 22, 1988].
‘‘(2) The Secretary of Health and Human Services
shall by regulation issue the guidelines required by
section 503(e)(2)(B) of the Federal Food, Drug, and
Cosmetic Act [21 U.S.C. 353(e)(2)(B)] (as added by section 6 of this Act) not later than 180 days after the
date of the enactment of this Act. Section 503(e)(2)(A)
of such Act shall take effect upon the expiration of 2
years after the date such regulations are promulgated
and take effect.’’
EFFECTIVE DATE OF 1970 AMENDMENT
Amendment by Pub. L. 91–601 effective Dec. 30, 1970,
and regulations establishing special packaging standards effective no sooner than 180 days or later than one
year from date regulations are final, or an earlier date
published in Federal Register, see section 8 of Pub. L.
91–601, set out as an Effective Date note under section
1471 of Title 15, Commerce and Trade.
EFFECTIVE DATE OF 1962 AMENDMENT
Amendment by Pub. L. 87–781 effective Oct. 10, 1962,
see section 107 of Pub. L. 87–781, set out as a note under
section 321 of this title.
EFFECTIVE DATE OF 1951 AMENDMENT
Amendment by act Oct. 26, 1951, effective six months
after Oct. 26, 1951, see section 3 of act Oct. 26, 1951, set
out as a note under section 333 of this title.

§ 353

TRANSFER OF FUNCTIONS
For transfer of functions of Federal Security Administrator to Secretary of Health, Education, and Welfare
[now Health and Human Services], and of Food and
Drug Administration in the Department of Agriculture
to Federal Security Agency, see notes set out under
section 321 of this title.
EFFECTIVE MEDICATION GUIDES
Pub. L. 104–180, title VI, § 601, Aug. 6, 1996, 110 Stat.
1593, provided that:
‘‘(a) IN GENERAL.—Not later than 30 days after the
date of enactment of this Act [Aug. 6, 1996], the Secretary of the Department of Health and Human Services shall request that national organizations representing health care professionals, consumer organizations, voluntary health agencies, the pharmaceutical
industry, drug wholesalers, patient drug information
database companies, and other relevant parties collaborate to develop a long-range comprehensive action plan
to achieve goals consistent with the goals of the proposed rule of the Food and Drug Administration on
‘Prescription Drug Product Labeling: Medication Guide
Requirements’ (60 Fed. Reg. 44182; relating to the provision of oral and written prescription information to
consumers).
‘‘(b) GOALS.—Goals consistent with the proposed rule
described in subsection (a) are the distribution of useful written information to 75 percent of individuals receiving new precriptions [sic] by the year 2000 and to 95
percent by the year 2006.
‘‘(c) PLAN.—The plan described in subsection (a)
shall—
‘‘(1) identify the plan goals;
‘‘(2) assess the effectiveness of the current privatesector approaches used to provide oral and written
prescription information to consumers;
‘‘(3) develop guidelines for providing effective oral
and written prescription information consistent with
the findings of any such assessment;
‘‘(4) contain elements necessary to ensure the
transmittal of useful information to the consuming
public, including being scientifically accurate, nonpromotional in tone and content, sufficiently specific
and comprehensive as to adequately inform consumers about the use of the product, and in an understandable, legible format that is readily comprehensible and not confusing to consumers expected to use
the product.[;]
‘‘(5) develop a mechanism to assess periodically the
quality of the oral and written prescription information and the frequency with which the information is
provided to consumers; and
‘‘(6) provide for compliance with relevant State
board regulations.
‘‘(d) LIMITATION ON THE AUTHORITY OF THE SECRETARY.—The Secretary of the Department of Health
and Human Services shall have no authority to implement the proposed rule described in subsection (a), or
to develop any similar regulation, policy statement, or
other guideline specifying a uniform content or format
for written information voluntarily provided to consumers about prescription drugs if, (1) not later than
120 days after the date of enactment of this Act [Aug.
6, 1996], the national organizations described in subsection (a) develop and submit to the Secretary for
Health and Human Services a comprehensive, longrange action plan (as described in subsection (a)) which
shall be acceptable to the Secretary of Health and
Human Services; (2) the aforementioned plan is submitted to the Secretary of Health and Human Services for
review and acceptance: Provided, That the Secretary
shall give due consideration to the submitted plan and
that any such acceptance shall not be arbitrarily withheld; and (3) the implementation of (a) a plan accepted
by the Secretary commences within 30 days of the Secretary’s acceptance of such plan, or (b) the plan submitted to the Secretary commences within 60 days of
the submission of such plan if the Secretary fails to

106a

§ 353a

TITLE 21—FOOD AND DRUGS

take any action on the plan within 30 days of the submission of the plan. The Secretary shall accept, reject
or suggest modifications to the plan submitted within
30 days of its submission. The Secretary may confer
with and assist private parties in the development of
the plan described in subsections (a) and (b).
‘‘(e) SECRETARY REVIEW.—Not later than January 1,
2001, the Secretary of the Department of Health and
Human Services shall review the status of private-sector initiatives designed to achieve the goals of the plan
described in subsection (a), and if such goals are not
achieved, the limitation in subsection (d) shall not
apply, and the Secretary shall seek public comment on
other initiatives that may be carried out to meet such
goals.’’
CONGRESSIONAL FINDINGS
Pub. L. 100–293, § 2, Apr. 22, 1988, 102 Stat. 95, provided
that: ‘‘The Congress finds the following:
‘‘(1) American consumers cannot purchase prescription drugs with the certainty that the products are
safe and effective.
‘‘(2) The integrity of the distribution system for
prescription drugs is insufficient to prevent the introduction and eventual retail sale of substandard, ineffective, or even counterfeit drugs.
‘‘(3) The existence and operation of a wholesale submarket, commonly known as the ‘diversion market’,
prevents effective control over or even routine
knowledge of the true sources of prescription drugs in
a significant number of cases.
‘‘(4) Large amounts of drugs are being reimported
to the United States as American goods returned.
These imports are a health and safety risk to American consumers because they may have become subpotent or adulterated during foreign handling and
shipping.
‘‘(5) The ready market for prescription drug reimports has been the catalyst for a continuing series
of frauds against American manufacturers and has
provided the cover for the importation of foreign
counterfeit drugs.
‘‘(6) The existing system of providing drug samples
to physicians through manufacturer’s representatives
has been abused for decades and has resulted in the
sale to consumers of misbranded, expired, and adulterated pharmaceuticals.
‘‘(7) The bulk resale of below wholesale priced prescription drugs by health care entities, for ultimate
sale at retail, helps fuel the diversion market and is
an unfair form of competition to wholesalers and retailers that must pay otherwise prevailing market
prices.
‘‘(8) The effect of these several practices and conditions is to create an unacceptable risk that counterfeit, adulterated, misbranded, subpotent, or expired
drugs will be sold to American consumers.’’

107a

Page 166

